<html>
<title> - REVIEW OF THE FY 2020 USAID BUDGET REQUEST</title>
<body><pre>[Senate Hearing 116-221]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 116-221

                REVIEW OF THE FY 2020 USAID BUDGET REQUEST

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 8, 2019

                               __________


       Printed for the use of the Committee on Foreign Relations

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                   Available via the World Wide Web: 
                         http://www.govinfo.gov

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-712 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------


                 COMMITTEE ON FOREIGN RELATIONS        

                JAMES E. RISCH, Idaho, Chairman        
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
MITT ROMNEY, Utah                    CHRISTOPHER A. COONS, Delaware
LINDSEY GRAHAM, South Carolina       TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
ROB PORTMAN, Ohio                    EDWARD J. MARKEY, Massachusetts
RAND PAUL, Kentucky                  JEFF MERKLEY, Oregon
TODD, YOUNG, Indiana                 CORY A. BOOKER, New Jersey
TED CRUZ, Texas
              Christopher M. Socha, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        


                           C O N T E N T S

                              ----------                              
                                                                   Page
Risch, Hon. James E., U.S. Senator From Idaho....................     1


Menendez, Hon. Robert, U.S. Senator From New Jersey..............     2


Green, Hon. Mark, Administrator, U.S. Agency for International 
  Development, Washington, DC....................................     4
    Prepared statement...........................................     6


              Additional Material Submitted for the Record

Responses of Hon. Mark Green to Questions Submitted by Senator 
  James E. Risch.................................................    36


Responses of Hon. Mark Green to Questions Submitted by Senator 
  Robert Menendez................................................    42


Responses of Hon. Mark Green to Questions Submitted by Senator 
  Benjamin L. Cardin.............................................    53


Certifications Regarding the Central Governments of El Salvador, 
  Guatemala, and Honduras and the Accompanying Memoranda of 
  Justification Submitted by Senator Robert Menendez.............    72


The USAID Evaluation for the Record Submitted by Senator Robert 
  Menendez.......................................................   105


Secretary of Homeland Security Kirstjen Nielsen Press Statement 
  Submitted by Senator Tim Kaine.................................   107


Reuters Article Titled, U.S. Ending Aid to El Salvador, 
  Guatemala, Honduras Over Migrants, Dated March 30, 2019, 
  Submitted by Tim Kaine.........................................   108


Community Letter to Hon. Mark Green Submitted by Senator Robert 
  Menendez.......................................................   111

                             (iii)        

 
                         REVIEW OF THE FY 2020 
                          USAID BUDGET REQUEST

                              ----------                              


                         WEDNESDAY, MAY 8, 2019

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:45 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. James E. 
Risch, chairman of the committee, presiding.
    Present: Senators Risch [presiding], Rubio, Johnson, 
Romney, Gardner, Isakson, Young, Cruz, Menendez, Cardin, 
Shaheen, Coons, Murphy, Kaine, and Markey.

             OPENING STATEMENT OF JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    The Chairman. This hearing will come together, hopefully, 
this morning, and we will start off. I have a few opening 
remarks, and then I will yield to Senator Menendez to do 
likewise.
    Before we do that, for all of our guests and everyone, we 
are starting early, as you can see, and we got surprising news 
from the floor yesterday, which does not happen regularly, but 
that is that we are going to have five votes, starting pretty 
soon. Senator Rubio and I are going to take turns chairing the 
committee as each of us shuttle back and forth to vote, which 
obviously is one of the most important things that we do.
    First of all, I am pleased to welcome Administrator Mark 
Green, who brings to the table decades of development 
experience, a commitment to transparency and accountability, 
and a firm grasp for the purpose of foreign aid, which is to 
end the need for its existence.
    The USAID, the lead development agency charged with 
advancing the economic global health and humanitarian interests 
of the United States overseas, is the subject of our hearing 
this morning. Under Mr. Green's leadership, USAID is undergoing 
an organizational transformation intended to make the Agency 
more efficient, effective, and adaptable to the 21st-century 
challenges. And there are many challenges, and will be many 
challenges in the 21st century. This transformation includes 
certain areas of focus, the first being creating a unified 
humanitarian assistance bureau, elevating stabilization and 
resilience programming, and ensuring that innovation cuts 
across all development sectors; secondly, bringing on a Clear 
Choice coordinator to help identify ways to counter China's 
malign development model; thirdly, pursuing procurement reform 
and an adaptive staffing plan, which, if approved, may help 
USAID attract and retain needed talent in a more coherent and 
cost-effective manner.
    Over the coming year, this committee will examine how USAID 
and its implementing partners manage these changes. We also 
will monitor how USAID positions itself to cooperate, rather 
than compete, with the new International Development Finance 
Corporation in catalyzing private-sector-led economic growth. 
Change is understandably difficult, but we should never allow 
bureaucratic inertia to prevent improvement.
    USAID has done a lot over the past 58 years to make 
Americans proud, yet, as we sit in this room, nearly 70 million 
men, women, and children have been forcibly displaced from 
their homes, the highest number recorded in modern history. 
Additionally, an estimated 85 million people in 46 countries 
will need food aid this year, and the threat of famine persists 
in Yemen, South Sudan, and Northeast Nigeria. The Ebola 
outbreak in Congo is spreading, and I think our witness is 
going to have something to say about that and the risks that it 
possesses and is to the world. And the Taliban and Boko Haram 
continue to block polio vaccination efforts in small portions 
of the world. And corrupt governments, weak institutions, food 
and water scarcity, pandemic health threats, and economic 
exclusion are fueling broader insecurity and creating 
opportunities for extremist groups to exploit vulnerable 
populations and threaten United States interests.
    The challenges are daunting, and the means to address them 
are limited, so it is incumbent upon this committee to 
carefully scrutinize the President's foreign aid budget. The 
budget must be strategic, effective, and aligned with the most 
pressing national interests of the United States. It must 
eliminate duplication and waste. It must focus on breaking the 
chain of dependency by helping communities help themselves. And 
it must support a workforce at USAID that is capable and 
adaptive to the challenge we face in 2019, not 1961.
    In any budget, difficult choices must be made. Investing in 
U.S. military readiness is a good choice. But, undercutting 
effective diplomacy and development, which can stabilize 
situations before they spin out of control, disrupt pandemic 
health threats before they cross our borders, and support the 
growth of healthier, more stable societies with whom we can 
trade, rather than aid, is also very, very important, and it is 
a good choice.
    Mr. Green, I look forward to working with you over the 
coming years to ensure that USAID has the tools and the 
resources it needs to advance USAID's critical mission for 
America and in the world.
    With that, I would like to recognize our Ranking Member, 
Senator Menendez, for his opening remarks.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman.
    And thank you, Administrator, for your service to our 
country and appearing before the committee this morning.
    Immense challenges are growing in complexity across the 
world, but, in the face of human suffering created by both 
natural and manmade disaster, it is baffling and disappointing 
to receive, for the third year in a row, a proposal for 
draconian cuts to our foreign aid budget from previously 
appropriated levels. It is hard to understand how your agency 
would effectively operate with the President's budget requests.
    USAID can, and should, be playing a critical role. I 
applaud your commitment to the people of Venezuela, where an 
entrenched dictatorship has led to state collapse, the spread 
of violent crime, a humanitarian crisis, and a massive refugee 
crisis that is undermining regional economic growth and 
stability. This should be the model, not the exception.
    Across Africa, the Anglophone crisis in Cameroon has taken 
the country to the brink of civil war, the Russian Government 
has established a foothold in the Central African Republic, 
and, before Mozambique could begin to recover from Hurricane 
Idai, Hurricane Kenneth struck. In Syria, without sustained 
investment into development, we have no hope of truly defeating 
ISIS. In Afghanistan, what message would it send as we are 
negotiating a peace deal, one, parenthetically, about which 
Members of Congress have been kept in the dark about, to cut 
the U.S. mission in half?
    I know you know this, but it seems to bear repeating at the 
outset. Development and humanitarian relief investments by 
USAID are not charity. These programs and these funds advance 
U.S. national security while helping to lift up the world's 
most impoverished and build resilient and prosperous 
communities that, in turn, promote global stability, which is 
why, perhaps, the President's March 29th announcement to end 
all foreign assistance to El Salvador, Guatemala, and Honduras 
is, again, the most illogical we have seen.
    Over the last 2 years, the administration has, indeed, 
touted the effectiveness of our Central American programs that 
address the driving factors of migration, programs to promote 
economic development, the rule of law, and that help confront 
drug traffickers wreaking violence throughout their 
communities. Yet, the President has requested fewer overall 
resources and seems to be trying to withhold, reprogram, and 
call back unobligated and unexpended funds from both current 
and prior fiscal years. It is as if the President is 
deliberately exacerbating the crisis. These kinds of cuts in 
U.S. presence and investment work directly against our 
interests, including by ceding ground to our adversaries.
    Nowhere is this more evident than in the advances China is 
making with its ambitious One Belt, One Road strategy that 
exploits host nations while entrenching its economic and 
political reach. Last year, you announced your Clear Choice 
Initiative to counter China's growing development influence 
around the world, something I have been looking forward to. 
But, so far, I have seen the administration offer nothing 
meaningful as an alternative to Chinese investment in Africa, 
Latin America, or elsewhere, beyond rhetoric. Cutting the 
budget for international development by more than 40 percent is 
certainly an alternative, but not one that will achieve the 
outcomes we desire. In fact, I would submit that the 
administration is providing a clear choice, ``Turn to China for 
foreign investment.'' Fortunately for American interests, 
Congress has twice rejected the President's budget and program 
proposals, and I expect we will do so again.
    Administrator Green, you are a skilled former Ambassador, 
legislator. You know the value of U.S. international 
development and promoting democracy in U.S. foreign policy. 
Your passion for U.S. leadership in delivering humanitarian and 
disaster assistance are evident. But, the administration 
continues to propose cutting USAID's budget as the NSC and OMB 
continue this troubling foreign assistance review that seems 
nothing more than an effort to slow-walk appropriated funds as 
the F Bureau systematically delays approving spending plans.
    So, from where I sit, the Congress must be more effective 
in holding the administration accountable for its foreign 
policy shortcomings and reminding the American people about the 
importance of ensuring core American values, like democracy, 
governance, and human rights remain essential components of 
U.S. foreign policy. It is these fundamental values, along with 
America's unparalleled strengths, a military second to none, a 
vital economy driven by innovation and technological ingenuity, 
a reservoir of goodwill with our allies and partners that 
provide us the opportunity to define a new role and a new grand 
strategy on the global stage for the 21st century.
    I look forward to today's hearing and hope that we can work 
together to repair and protect the critical work of your 
agency.
    The Chairman. Thank you, Senator Menendez.
    And now we are going to hear from our witness, 
Administrator Green, who was sworn in as the 18th Administrator 
of USAID in August of 2017. Previously, Mr. Green has served as 
president of the International Republican Institute, president 
and CEO of the Initiative for Global Development, senior 
director at the U.S. Global Leadership Coalition, and U.S. 
Ambassador to Tanzania from 2007 to 2009. He also served four 
terms in the United States House of Representatives, 
representing Wisconsin's 8th District. Ambassador Green holds a 
law and a bachelor's degree from the University of Wisconsin-
Eau Claire.
    Mr. Green, I meet with lots and lots and lots of different 
people, and I can tell you, I was impressed with you, as I have 
been with anyone, about their commitment and passion for the 
job that you are undertaking, and, more importantly, your 
pragmatic approach to the kinds of challenges that you face, 
which are incredibly overwhelming, which anyone would agree to 
that faces the kinds of things that you face.
    So, with that, welcome, and we are anxious to hear your 
message.

 STATEMENT OF HON. MARK GREEN, ADMINISTRATOR, U.S. AGENCY FOR 
           INTERNATIONAL DEVELOPMENT, WASHINGTON, DC

    Ambassador Green. Thank you. Thank you, Mr. Chairman. Thank 
you, Ranking Member Menendez, members of the committee. I 
appreciate this opportunity to summarize my testimony, and I do 
appreciate all the support that we have received from both 
sides of the aisle.
    In total, the USAID request for fiscal year 2020 is 
approximately $19.2 billion. It represents $2.4 billion, or 14 
percent, more than last year's request. It is an attempt to 
balance fiscal responsibility here at home with our leadership 
role and national security imperatives around the world.
    Members, in order to capture some of the important work 
that so many of you have referenced, I would like to touch 
briefly on a few of my recent travels. I just returned from 
Ethiopia and Cote d'Ivoire with Senior Advisor to the President 
Ivanka Trump. While there, we met with women leaders and 
entrepreneurs to advance the Women's Global Development and 
Prosperity Initiative. We discussed ways to improve the 
enabling environment for women entrepreneurs and advance issues 
like access to credit for woman entrepreneurs at all levels.
    Earlier this month, I traveled to Senegal to lead the U.S. 
delegation to the second inaugural ceremonies for President 
Macky Sall. Senegal represents what is possible in Africa and 
elsewhere through a commitment to democracy and inclusive 
economic growth.
    A few months ago, I visited South America as we continue to 
craft policies regarding Venezuela, a country very obviously 
moving in a different direction. It is no secret that Nicolas 
Maduro's ruthless regime has destroyed that country's economy 
and political institutions. Millions of Venezuelans, young 
mothers with children, have taken desperate flight. The U.S. 
has responded with over $256 million in assistance for these 
migrants and their host communities. At the request of interim 
President Guaido, and working with other countries, we have 
pre-positioned humanitarian assistance in the region for 
potential delivery into Venezuela; in fact, over 540 metric 
tons of such assistance. And I will be heading back down there 
in just a few days.
    I have recently visited Jordan, another country where the 
U.S. is playing a vital humanitarian leadership role. We have 
been working hard to help reduce strains caused by years of 
conflict and displacement, and to try to ensure that all people 
in Jordan can access essential services.
    Last year, I visited Burma and Bangladesh. Bangladesh now 
hosts 1 million Rohingya, most of them there because of Burma's 
ruthless ethnic cleansing campaign. In Bangladesh, we are 
urging the government to allow humanitarian organizations to 
provide migrants with a full range of support and services. In 
Burma, we continue to call on the government to provide for the 
safe, voluntary, and dignified return of Rohingya and other 
vulnerable communities.
    While most of our humanitarian assistance goes for manmade, 
regime-driven crises, we are also responding to terrible 
natural disasters, like Cyclones Idai and Kenneth in 
Mozambique, Malawi, and Zimbabwe. We have already mobilized 
approximately $70 billion in supplies and assistance to help 
those impacted by the storms.
    There is also the Ebola outbreak in DRC, where health 
officials have reported now more than 1,550 confirmed and 
probable cases, and now over 1,025 related deaths. As I have 
said previously, we need to be very concerned about this 
outbreak and the serious challenges it presents. We must not 
take our eye off this ball. I am aware of new legislation that 
was just introduced on the topic. We welcome it, and we do 
really appreciate the committee's interest and leadership on 
this. It is an important matter.
    Of course, humanitarian matters are only part of our work. 
For example, we are working hard to push back on the rising 
antidemocratic influence of China and Russia. USAID will soon 
unveil a broad policy framework for countering malign Kremlin 
influence, especially in Europe and Eurasia. Our 2020 request 
prioritizes $584 million to support that work. The request also 
reflects an expansion of our work to help victims of ISIS in 
the Middle East, especially those targeted for their religious 
affiliation or ethnicity. We see helping Yazidis and Christians 
and others as part of defeating the terrorist network, once and 
for all.
    Closer to home, when I last appeared before you, I provided 
an overview of our transformation plans. We have made great 
progress, thanks to the support of so many of you, and we 
appreciate it. I look forward to addressing future questions 
that you might have as we go forward on this as we try to 
address some of the remaining congressional notifications.
    Finally, and most importantly, I would like to say a quick 
word about our most precious asset, our human resources, our 
dedicated Foreign Service Officers, Civil Service staff, 
Foreign Service Nationals, and other team members who are truly 
on the front lines of some of the world's most pressing 
challenges. We are continuing to staff up and to bring our 
workforce into greater alignment with strategic planning 
numbers and available Operating Expense allocations. We are 
planning to hire approximately 140 career-track Foreign Service 
Officers before the end of fiscal year '20. We have also 
approved 221 new Civil Service positions and have now selected 
10 finalists for the Donald M. Payne Fellowship Program.
    Members, I appreciate your support, your guidance, and your 
ideas. And, Mr. Chairman, thank you again for this opportunity 
to appear before you. I welcome the opportunity to address 
questions.
    [The prepared statement of Ambassador Green follows:]

                 Prepared Statement of Hon. Mark Green

                              introduction
    Chairman Risch, Ranking Member Menendez, Members of the Committee, 
thank you for this opportunity to discuss the President's Fiscal Year 
(FY) 2020 Budget Request for USAID.
    The FY 2020 request for USAID fully and partially managed accounts 
is approximately $19.2 billion, an increase of $2.4 billion, or 14 
percent, over last year's request. It requests $6.3 billion for global 
health and $5.2 billion for the Economic Support and Development Fund. 
In terms of USAID's humanitarian assistance, it requests $6 billion for 
the new International Humanitarian Assistance Account, which, combined 
with all available resources, will allow us to maintain the highest 
level ever of U.S. humanitarian assistance programming.
    USAID remains focused on our core day-to-day work: helping support 
the world's most-vulnerable populations affected by humanitarian 
crises; promoting human rights, democracy, and citizen-responsive 
governance; and improving development outcomes in the areas of economic 
growth, education, environment, and health worldwide. Every day, our 
highly professional and dedicated staff work diligently to deliver 
sustainable development solutions and build self-reliance in partner 
countries, project American values globally, and advance our foreign-
policy and national-security objectives.
    I know that I cannot touch upon our work in each country in the 
limited time afforded me today, so allow me to discuss some of the 
themes and situations at the forefront of our attention.
                   optimizing humanitarian assistance
    The budget request reaffirms that Americans will always stand with 
people and countries when disaster strikes or crisis emerges. The FY 
2020 U.S. humanitarian request will provide an average of $9 billion in 
both FY 2019 and FY 2020 when combined with all available resources, 
allowing the U.S. to remain the single largest global donor and 
maintain roughly the highest level ever of USG humanitarian assistance 
programming. The United States will not only continue our role as the 
world leader in humanitarian assistance, but we will also call on 
others to do their part and we will work relentlessly to assure that 
assistance is delivered as effectively and efficiently as possible.
    Over the years, the responsibilities of the two USAID offices that 
lead the bulk of our humanitarian assistance--Food for Peace and the 
Office of U.S. Foreign Disaster Assistance (OFDA)--have been sharply 
increasing. While they have often coordinated, they have worked in 
parallel, with separate budgets, separate oversight, separate 
structures, and different strategies.
    Our overseas humanitarian assistance, within USAID's new Bureau for 
Humanitarian Assistance, supports this administration's commitment to 
optimize USAID humanitarian investments. This will ensure a seamless 
blend of food and non-food humanitarian USAID assistance, better 
serving our foreign policy interests and people in need.
    The budget also delivers on the President's commitment to optimize 
the effectiveness of the U.S. Government's outdated and fragmented 
overseas humanitarian assistance. The proposal maximizes the impact of 
taxpayer dollars, helps more beneficiaries, and delivers the greatest 
outcomes to them by consolidating all overseas humanitarian programming 
in the new Bureau at USAID while retaining State's lead role on 
protection issues, as well as the U.S. refugee-admissions program.
                               venezuela
    Nowhere is America's leadership in humanitarian assistance more 
important, or more timely, than in our continued response to the man-
made, regime-driven crisis in Venezuela. As you know, the illegitimate 
dictator Nicolas Maduro has repeatedly blocked outside efforts to 
provide humanitarian relief to the millions of Venezuelan citizens in 
need. We continue to monitor the situation in Venezuela closely, where 
Maduro and his cronies have destroyed the country's institutions and 
economy, and created the largest cross-border mass exodus in the 
history of the Americas. Venezuelans could soon become one of the 
largest groups of displaced people in the world.
    In response to Interim President Juan Guaido's request for 
assistance that could help him meet some of his people's urgent needs, 
USAID and State--with support from the Departments of Defense and 
others--have pre-positioned humanitarian assistance close to the 
Venezuelan border with Colombia, and Brazil. USAID has also pre-
positioned humanitarian assistance inside of the island of Curacao, for 
eventual delivery into Venezuela. Since February 4, the U.S. Government 
has pre-positioned nearly 546 metric tons of urgently needed 
humanitarian assistance, including food aid, emergency medical items, 
hygiene kits, non-pharmaceutical commodities, water treatment units, 
and nutrition products.
    At President Trump's instruction, we have closely coordinated these 
efforts with the international community. President Ivan Duque of 
Colombia and President Jair Bolsonaro of Brazil, in particular, have 
been key allies in our efforts. The United States is grateful for our 
allies in the region who have stepped up to help the Venezuelan people 
in their hour of need.
    We will continue to support Interim President Guaido's efforts to 
deliver aid to his people in Venezuela, and also continue to help 
Colombia and other countries that are hosting Venezuelans who have 
fled. To date, the U.S. has provided more than $213 million in 
humanitarian assistance and approximately $43 million in development 
assistance for Venezuelans and host communities in the region. That 
funding has brought urgently needed food, health care, protection, and 
shelter, to both Venezuelans and host communities. USAID also funds 
local organizations involved with human rights, civil society, 
independent media, electoral oversight, and democratic political 
processes, and the democratically elected National Assembly. We are not 
alone in this effort.
    Many of our close allies have pledged support, and many private 
citizens have already contributed assistance to Venezuelans in the 
region, as well.
    The United States stands with those who are yearning for a better 
life and a true democracy. We know the answer to Venezuela's crisis 
must be human liberty and democracy; Venezuelans deserve a return to 
democracy, rule of law, and citizen-responsive governance.
    We also stand with the Cuban people who have suffered for six 
decades under an authoritarian regime--the same regime plays a crucial 
and destabilizing role in supporting Maduro and his cronies. The United 
States funds democracy programs that help the capacity of independent 
Cuban civil society, support the free flow of uncensored information to 
and from the island, and provide humanitarian assistance to political 
prisoners and their families.
    In response to requests by Cuban civil-society activities during 
the Summit of the Americas in April 2018, USAID identified an 
additional $750,000 in FY 2017 funds to increase humanitarian support 
for Cuban political prisoners and their families, and to provide 
additional communications tools to civil society activists.
                   tropical cyclone idai and kenneth
    USAID mobilized quickly in response to the devastating impact of 
Tropical Cyclone Idai on Mozambique, Zimbabwe, and Malawi.
    Torrential rains covered nearly 900 square miles of land in water--
that's an area larger than New York City and Los Angeles combined. 
Sadly, more than 600 people lost their lives, and 1.85 million people 
are in desperate need of assistance.
    USAID deployed a Disaster Assistance Response Team (DART), which 
includes experts in health, food security, shelter, and water, 
sanitation, and hygiene to provide technical advice and make 
assessments in real time. To prevent the spread of cholera and other 
waterborne diseases, USAID delivered relief supplies, including water-
treatment units, water-storage containers, and latrines, and is working 
with partners to provide medication and oral rehydration salts. To 
reach the communities cut off by the storm, we also requested the 
unique capabilities of the U.S. Department of Defense U.S. Africa 
Command to provide airlift and logistics support for our humanitarian 
response. Over the course of their mission, the U.S. military flew 73 
flights, and transported more than 782 metric tons of relief supplies, 
including food, medical supplies, and vehicles, as well as USAID 
disaster experts and aid workers.
    Cyclone Kenneth struck Mozambique in April, just 5 weeks after 
Cyclone Idai; a total of 41 people were killed, more than 90 people 
injured, and up to 300,000 people were impacted.
    USAID has deployed a team to the affected area to determine 
additional food, shelter, water, sanitation and hygiene needs.
    outbreak of ebola in the democratic republic of the congo (drc)
    Since the declaration of the outbreak on August 1, 2018, health 
officials have recorded at least 1,554 confirmed and probable cases, 
including 1,029 deaths, in DRC's North Kivu and Ituri Provinces as of 
May 5, 2019. The U.S. Government deployed a DART to the DRC to augment 
the ongoing Ebola response efforts. These disaster and health experts 
from USAID and the U.S. Centers for Disease Control and Prevention 
(CDC) within the U.S. Department of Health and Human Services (HHS), 
are working with partners to provide robust life-saving assistance and 
support affected populations. The DART is coordinating with the DRC 
Ministry of Health, the World Health Organization, other donors, and 
key actors to support a unified effort, encourage sustained resourcing 
and fair burden-sharing, and ultimately end the outbreak. USAID 
assistance works to break the chain of transmission, including through 
preventing and controlling infections, surveillance and case-finding, 
contact-tracing, case-management, and raising awareness in communities 
about how the virus is transmitted.
    This response is a priority for the U.S. Government, not only 
because we are committed to supporting those affected, but also because 
effective efforts to contain and end the outbreak will prevent it from 
spreading throughout the broader region and beyond, including the 
United States. I remain concerned that the outbreak is still not 
contained, however, and am working with colleagues in the interagency 
to advocate for a more effective global response.
                Rohingya Crisis in Bangladesh and Burma
    Bangladesh now hosts 1 million Rohingya refugees from Burma in the 
world's largest refugee camp. Over 740,000 of these refugees arrived in 
the wake of an ethnic cleansing campaign conducted by Burmese security 
forces that began in August 2017. Last May, I went to Bangladesh and 
Burma's Rakhine State to observe firsthand the daily burdens and 
suffering facing Rohingya communities. In many ways, it is the harshest 
situation I have seen in my time at USAID. The United States is the 
largest single donor of humanitarian aid to this crisis, and stands as 
a beacon of hope to Rohingya.
    Our efforts continue to focus on measures that will improve the 
situation for Rohingya in Rakhine State, as well as Rohingya refugees 
and host communities in Bangladesh. While providing life-saving 
assistance is critical, we also undertake programming to encourage the 
Burmese Government to address the underlying causes of tension and 
violence, which are essential for lasting justice. This is a necessary 
step if that beautiful country is to fulfill the promise of its far-
from-fully-realized democratic transition.
                                 yemen
    We also remain seriously concerned about the humanitarian crisis in 
Yemen, which is the world's largest in terms of affected population. 
Approximately 80 percent of the country--more than 24 million people--
require some form of humanitarian assistance. More than 3.6 million 
people have already been displaced; there have been more than 1.6 
million suspected cases of cholera in the last 2 years, and more than 5 
million people are one step away from famine. Since FY 2018, the United 
States has provided nearly $721 million in humanitarian aid to Yemen, 
and USAID is responsible for nearly $692 million of that assistance.
              support for religious and ethnic minorities
    The $150 million in USAID and State Department funding this Budget 
requests will help us continue our important assistance to those 
religious and ethnic minorities in the Middle East, and other regions, 
whom ISIS sought to extinguish. We believe freedom of religion and 
conscience are an essential part of our national character, and an 
essential attribute of any country that seeks to be prosperous, 
democratic, and just.
    As evidenced by the heinous attacks in Sri Lanka on Easter morning, 
religious intolerance is far from limited to the Middle East. The 
bombings that took the lives of so many, including four U.S. citizens, 
are a painful reminder that we must remain vigilant against this 
scourge. USAID extends its deepest condolences to the friends and 
families of those lost in the attacks, and we will continue our efforts 
to promote interfaith dialogue and peaceful co-existence in our work 
across the world.
                         democratic backsliding
    Another significant challenge we face in many regions is democratic 
backsliding. Rarely these days do authoritarian leaders oppose 
elections outright. Instead, as we have seen in capitals from Caracas 
to Phnom Penh, they use sophisticated tools and methods to bend 
elections to ensure they can maintain their grip on power. Subverting 
civil society and independent media, manipulating vote tabulations, and 
other anti-democratic ploys are all too often undermining hope for 
everyday citizens to be able to shape their future through the ballot 
box. USAID will continue to fund programming that aims to counter 
authoritarian impulses, nurture the capacity of civil society to 
advocate for an agenda of liberty, and advance fundamental freedoms 
worldwide.
    Many parts of the world have seen an exponential growth of 
predatory financing dressed up as development assistance. China and 
Russia have been by far the greatest, though not the sole, sources of 
such financing. This form of financing often leads to unsustainable 
debt, eroded national sovereignty, and even the forfeiture of strategic 
resources and assets.
    As part of an agency-wide strategic approach, USAID will soon 
unveil a Framework to help us counter malign Kremlin influence, 
especially in Europe and Eurasia. This budget request prioritizes $584 
million in State Department and USAID foreign assistance to support 
that work and our efforts to aggressively communicate the stark 
differences between authoritarian financing tools and the approach that 
we and our allied donor nations use.
    Our approach is true assistance that helps partner nations build 
their own self-reliance and a more dynamic, private enterprise-driven 
future. We aim to help partner countries recognize the costs of 
alternative models, like those of China and Russia, that can weaken 
confidence in democratic and free-market systems, saddle countries with 
unsustainable debt, erode sovereignty, lead to the forfeiture of 
strategic assets ignore the needs and concerns of local communities, 
and further the militaristic ambitions of authoritarian actors.
    One positive story in our work, both in terms of supporting 
democratic processes and countering malign Kremlin influence, is in 
Ukraine. USAID provided support to the Central Election Commission in 
the lead up to the recent Presidential elections. According to the most 
trusted international and domestic monitoring organizations, the 
election was conducted peacefully and without significant external 
manipulation--representing the true will of Ukraine's citizens. We look 
forward to working with President Elect Zelenskiy to continue 
strengthening democratic processes in the country, rooting out 
corruption, empowering civil society, building a stronger basis for 
sustained prosperity, and enhancing resilience to malign Kremlin 
influence.
                         indo-pacific strategy
    America's security and prosperity at home is closely tied to a 
stable and free Indo-Pacific Region, and this request includes over 
$1.2 billion in State Department and USAID foreign assistance to 
protect U.S. interests and promote open, transparent, and citizen-
responsive governance across the Indo-Pacific.
    In Asia, USAID plays a key role in advancing the U.S. Government's 
Indo-Pacific Strategy (IPS), particularly the economic and governance 
pillars, and the latter's headlining Transparency Initiative. America's 
vision for a free and open Indo-Pacific region is one in which all 
nations are sovereign, strong, and prosperous. Together with our U.S. 
Government partners, and in coordination with like-minded donor 
partners, USAID helps advance the IPS by strengthening governance in 
areas critical to achieving this vision--primarily with regard to 
bolstering economies and free markets, supporting democratic 
institutions and transparency promoting human rights and empowered 
citizens, and fostering incentives that address the region's 
substantial infrastructure gaps--foremost in the energy, 
transportation, and digital connectivity sectors. By promoting open, 
transparent, rules-based, and citizen-responsive governance across 
Asia, the IPS mitigates the influence of predatory countries while 
unlocking private-sector-led growth that helps drive sustainable 
development and increase partner countries' self-reliance. As part of 
this strategy, USAID is playing a leading role in the interagency.
    At USAID, we are proud of our role as the world's premier 
development agency. We are just as dedicated to ensuring that we 
maintain that leadership role in the years ahead. To prepare ourselves 
for the future, in late 2017, we initiated a series of interconnected 
reforms we call Transformation. Aimed at shaping a USAID that remains 
worthy of both American investments and the talented, dedicated staff 
who work for us around the world, Transformation will allow us to 
strengthen our core capabilities, increase efficiency, and ultimately, 
improve outcomes while reducing costs. This Budget Request closely 
aligns with, and supports, the implementation of these plans.
    When I last appeared before this Committee on April 24, 2018, I 
provided an overview of several planned initiatives in our 
Transformation framework. After nearly 100 consultations with many of 
you, your staff, and colleagues across Capitol Hill, we have since 
launched our reform agenda and submitted nine Congressional 
Notifications related to the Agency's new structure. Our structure is 
closely tied to other internal reforms, and will provide the necessary 
enabling environment, within USAID, to ensure this vision takes root. I 
ask for your support for clearing the remaining Congressional 
Notifications on our Transformation, and am eager to answer any 
questions you might have.
         country roadmaps: defining and measuring self-reliance
    In pursuit of our vision of a day when development assistance is no 
longer needed, we are now orienting our work around the concept of 
fostering self-reliance in partner countries. USAID defines ``self-
reliance'' as a country's ability to plan, finance, and implement 
solutions to its own development challenges. To understand where a 
country is going in its Journey to Self-Reliance, we need to understand 
where they are on that journey and how far they have come from. To that 
end, and after consultations with USAID employees, external partners 
and other shareholders, we pulled together 17 objective, third-party 
metrics across the political, economic, and social spheres. They fall 
into two broad categories: commitment, or the degree to which a 
country's laws, policies, actions, and formal and informal governance 
mechanisms support progress toward self-reliance; and capacity, which 
refers to how far a country has come in its ability to plan, finance, 
and manage its own development agenda.
    We then assembled these metrics, country-by-country, as ``Country 
Roadmaps'' for all 136 low- and middle-income countries as classified 
by the World Bank. We rolled out Roadmaps in August 2018 for 
socialization with partner governments.
    These Roadmaps serve several purposes. First, again, they help us 
identify approximately where each country is in its development 
journey, a crucial first step in orienting our in-country approach 
around the concept of self-reliance. Second, they help inform our 
strategic decision-making and resource allocation processes and ensure 
we better focus USAID's investments. As we better align our strategies 
and our budgets, we look forward to working with you, and your 
colleagues, to ensure we have the appropriate mix of resource 
allocations. Third, because they use objective, open-source data, the 
Roadmaps provide USAID with a common touchstone for use in dialogues 
with countries and development partners. Fourth, the metrics help 
signal to USAID--and the broader U.S. Government--when a country has 
made enough development progress such that we should pursue a new, more 
enterprise-centered phase in our partnership.
    In October 2018, we published the Country Roadmaps online at 
USAID.gov. I welcome you to take a look.
            diversifying our partner base, and engaging new 
                       and underutilized partners
    Metrics provide us with critical insight, but, ultimately, it is 
our in-country partnerships that advance our mission. Tapping into the 
innovation and resources of the private sector, and working with a full 
breadth of stakeholders, is critical to achieving sustainable 
development outcomes and building self-reliance. Many local and locally 
established actors--such as education institutions, non-profits, faith-
based organizations and for-profit enterprises--have long engaged in 
their own efforts to build capacity, increase accountability, and 
provide services in countries prioritized by USAID. They are natural 
allies in our development mission, and this Request includes $20 
million towards a New Partnerships Initiatives to expand our partner 
base.
    Historically, these groups have often struggled to compete for 
USAID funding because of burdensome compliance and solicitation 
requirements, the imposing dollar size and scope of our awards, and 
unfamiliarity with USAID's terminology and practices. On our end, we 
have admittedly lacked a sustained commitment to mobilizing new and 
local partners. The result has been a dwindling partner base. In Fiscal 
Year (FY) 2017, 60 percent of our obligations went to 25 partners, and 
more than 80 percent of our obligations went to just 75 partners. The 
number of new partners has decreased consistently since 2011.
    With the launch of USAID's first-ever Acquisition and Assistance 
(A&A) Strategy last December, we seek to reverse this trend, and tap 
into the good ideas and innovative approaches we know exist in 
underutilized partners. Included in the core tenets of our Strategy are 
more collaborative approaches to partnership, prioritizing innovation, 
and building the commitment and capacity of new partners. By 
diversifying our partner-base, we will not only incorporate new ideas 
and approaches into our tool-kit, but we will also strengthen locally 
led development--a core component of each country's Journey to Self-
Reliance.
                strengthening private-sector engagement
    While there will always be an important role for traditional 
contracting and grant-making in our work, we can accelerate and amplify 
our efforts and outcomes by increasingly applying market- based 
solutions to the development challenges we aim to address. At USAID, we 
have long recognized that private enterprise is the most-powerful force 
on earth for lifting lives out of poverty, strengthening communities, 
and building self-reliance. But until recently, the Agency lacked a 
formal, overarching policy to guide and galvanize our engagement with 
the private-sector.
    That changed last December with the launch of USAID's Private-
Sector Engagement Policy. The Policy serves as a call to action for all 
Agency staff and partners to increase and strengthen our work with 
commercial firms, and embrace market-based approaches to achieve 
outcomes. We seek ever-greater input from the private-sector to move 
beyond mere contracts and grants to include more true collaboration--
co-design, co-creation, and co-financing.
    As part of this greater focus on private-sector engagement, USAID 
looks forward to a close partnership with the new Development Finance 
Corporation (DFC) established by the BUILD Act to mobilize financing, 
and this Request provides $50 million towards the new DFC. With close 
integration of tools such as the Development Credit Authority (DCA), 
the Overseas Private Investment Corporation (OPIC), new equity 
authority and other reforms, the DFC will make private-sector 
engagement much more effective. We are working closely with OPIC and 
the White House to make the new DFC a reality. Through collaborative 
endeavors with our United States Government partners and the private 
sector, we seek to join up our respective expertise to tackle problems 
that neither could fully address alone.
    We pursue greater engagement with the private sector because it is 
sound development, it achieves better outcomes, and it leverages the 
vast, largely untapped resources of commercial enterprise throughout 
the world. But we also pursue it because it is good for American 
businesses. The world's fastest-growing economies are largely in the 
developing world.
    USAID's work to promote regulatory reform already helps level the 
playing field for American businesses, by reducing their barrier to 
entry in these large markets. Combined with financing support from the 
new DFC, the United States can help bring these American businesses 
directly to the table to tackle specific challenges and further expand 
their opportunities.
    This renewed emphasis on private sector engagement has already 
borne fruit. For example, last November, I signed a Memorandum of 
Understanding between USAID and Corteva, one of America's great 
agribusinesses. Together, we will tackle global hunger while 
simultaneously cultivating new markets for U.S. technology and 
expertise. I am excited to see what other partnerships emerge in the 
months and years ahead.
                      women's economic empowerment
    No country can meaningfully progress in the Journey to Self-
Reliance if it shuns half its population. The development dividends of 
greater participation by women in the economy are numerous. Our 
experience shows that investing in women and girls accelerates gains 
across the full development spectrum, from preventing conflict to 
improving food security and economic opportunity.
    The President's National Security Strategy clearly recognizes 
women's empowerment as a top foreign policy priority. On February 7, 
2019, President Trump launched the Women's Global Development and 
Prosperity (W-GDP), and signed a Presidential Security Memorandum that 
clearly and decisively links the ability of women to participate fully 
and freely in the economy with greater peace and prosperity across the 
world. In Fiscal Year (FY) 2018, we allocated $50 million for W-GDP. 
This year's request goes further, and includes $100 million to support 
workforce-development and skills-training, greater access to capital, 
and changes to the enabling environment so that, around the world, all 
women have greater opportunities to reach their full economic 
potential.
                                staffing
    At USAID, our human resources are our most precious asset. Our 
professional, experienced, and dedicated corps of Foreign Service 
Officers (FSOs) are at the frontlines of what we do as an Agency. In 
recognition of that, USAID will continue to staff up and bring our 
Foreign Service workforce into greater alignment with strategic 
planning numbers and our available Operating Expense budget. 
Specifically, we are seeking to expand our overseas Foreign Service 
capability to better manage financial risk, increase program oversight, 
provide critical support for the President's Emergency Plan For AIDS 
Relief (PEPFAR), and fill technical positions that have been 
chronically short-staffed. USAID has also selected 10 finalists for the 
2019 Payne Fellowship program.
    USAID is preparing to hire approximately 140 career-track FSOs 
between now and the end of FY 2020. Hiring 140 FSOs over the next 2 
fiscal years and adjusting for attrition would bring the total FSO 
workforce by the end of FY 2020 to just over 1,700 FSOs. For USAID's 
Civil Service, USAID's Hiring Review and Reassignment Board, has 
approved the hiring of an additional 221 staff to be added to the 
General Schedule workforce, which stood at 1,181 U.S. Direct Hires 
(USDH) as of February 2019.
    To support USAID's mission, we seek to test a non-career, term-
limited personnel system that is more efficient and flexible than our 
current systems while also better for many program-funded staff, by 
improving benefits and professional development. Within this budget 
proposal, USAID is also requesting to pilot an Adaptive Personnel 
Project (APP) to develop an agile, non-career/at-will U.S Direct Hire 
personnel system that can rapidly hire, move, and retain a talented, 
program-funded workforce. APP would be a program-funded, direct-hire 
mechanism with Federal benefits and inherently governmental 
authorities. The overall vision is to improve USAID's ability to hire 
the right talent, at the right time, in the right place, for the right 
duration of time.
                               conclusion
    Mr. Chairman, Ranking Member, and Members of the Committee, I 
believe we are shaping an Agency that is capable of leveraging our 
influence, authority, and available resources to advance U.S. 
interests, transform the way we provide humanitarian and development 
assistance, and, alongside the rest of the world, meet the daunting 
challenges we all see today. With your support and guidance, we will 
ensure USAID remains the world's premier international development 
Agency and continues the important work we do, each day, to protect 
America's future security and prosperity.
    Thank you for allowing me to speak with you today, and I welcome 
your questions.

    The Chairman. Well, thank you very much.
    This is an important hearing. And again, I want to stress, 
to all of our guests and witness, that, as we come and go, 
please do not take that as any sign that what you are saying 
here and what we are doing here is not important, but we do 
have a series of votes that all of us are going to have to 
attend to as we kind of come and go.
    One of the things that you and I talked about recently that 
is alarming is the situation regarding the Ebola outbreak. And, 
by the way, we are going to do a 5-minute round to start with 
here, and then we will go from there. But, I want to talk to 
you for just a minute about that. You touched on it briefly in 
your opening remarks. Can you talk a little bit about the time 
we thought we had a handle on this thing, here we go again. 
What is going on? What should we be aware of? What keeps you 
awake at night in that regard? And explain your situation for 
us.
    Ambassador Green. Thank you, Mr. Chairman. I really do 
appreciate this opportunity.
    I think the important way of thinking of this Ebola 
challenge in DRC is that it is not simply a medical challenge. 
We have had great success in fighting off pandemics before, but 
this is much more than that. This is a convergence of failures 
and dysfunctionality, quite frankly. It is a failure of 
institutions, it is a failure of, in many ways, democracy, with 
the lack of citizen-centered, responsive governance in the 
affected areas. There is lots of community distrust. And, quite 
frankly, we are seeing a deeply disturbing uptick in violence 
targeted at outsiders, including healthcare facilities. Since 
January alone, there have been more than 119 violent attacks in 
the affected areas; 42 of them targeted at healthcare 
facilities; 85 health workers have been wounded or killed. And 
that shows you what we are really dealing with.
    So, the response that we must have is much more than solely 
a medical response. But, that, of course, is the core of what 
we must do. It is rebuilding community trust. It is rebuilding 
stability and security, such that healthcare professionals can 
get into affected areas. But, the most important thing is 
bringing communities together so that they turn to those who 
can provide the lifesaving vaccines that they need and that we 
can mobilize in a containment strategy. But, it worries me a 
great deal, because--and again, we have now seen 4 weeks in a 
row of record spread of the disease. If it gets towards a 
couple of key transit population areas, I am very, very worried 
about it.
    Secretary Azar and I have each sent strong messages to the 
World Health Organization--wonderful organization; Dr. Ted 
Gross is a friend to all of us--that this outbreak is not under 
control and that we must have a much more aggressive vaccine 
strategy. So, it is multifaceted, a number of failures. And I 
think it will take a broad-based response as a result.
    The Chairman. That is a pretty bleak picture. Are you 
cautiously optimistic? Are you pessimistic? Where are you on--
--
    Ambassador Green. I am always cautiously optimistic. I will 
say that--and many of you know Admiral Tim Ziemer--for a long 
time, the head of the President's Malaria Initiative. He is the 
acting head of our DCHA Bureau with humanitarian assistance. He 
is there as we speak, and we are just getting reports back from 
him. He has been able to eyeball some of the challenges, 
because we really do want to make sure that we have a 
multifaceted, complete response to this.
    You know, it is something that we have been talking about 
for quite some time. It really burst onto the scene last fall. 
But, you had intervening factors of elections that, again, from 
my perspective, were not the hallmark of a truly responsive 
democracy, in the sense that there were so many problems with 
them. In fact, the Congolese in the affected area were never 
able to even vote in these last round of elections. All of that 
to say that there is lots of distrust by citizens towards 
officials, institutions. And, unless that is rebuilt, it is 
very hard to be able to bring people in and apply the vaccine 
that we know is a key part of preventing the outbreak and the 
spread.
    So, I do not want to sugar-coat it. I think it is a deep 
challenge, and one that is truly worthy of the committee's 
attention.
    The Chairman. Thanks for shining a light on that.
    I have got some questions about your activities and how 
they intersect with China's activities out there, but I want to 
make sure everybody gets a shot at that, so we will come back 
to that, perhaps, a little bit later with that.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Administrator, I am glad you were talking about the Ebola 
outbreak and the Eastern Democratic Republic of Congo. As you 
said, it has killed more than 1,000 people. It is projected to 
last through the end of this year. Community resistance and 
insecurity are major obstacles to bringing the outbreak under 
control. It is my understanding that your agency is pivoting to 
a new strategy to improve community engagement and trust 
through development activities to foster access for health 
workers to treat and prevent the spread of Ebola. I am 
concerned, however, that the decision to suspend non-
humanitarian assistance under the administration's strict 
interpretation of the Trafficking in Persons and DRC's 
Trafficking in Persons Tier 3 designation is going to prevent 
AID from successfully employing the strategy.
    Now, yesterday, I introduced legislation to remove any 
legal impediments to that strategy. So, let me ask you, first, 
has the White House approved the strategy to reduce community 
assistance?
    Ambassador Green. Decisions have not been finalized yet 
with respect to the TIP designation.
    Senator Menendez. What----
    Ambassador Green. On the designation, sure, but in terms of 
funding, decisions have not been finalized.
    Senator Menendez [continuing]. But, as it relates to the 
strategy, regardless of funding, for the moment, have they 
agreed to the strategy that your agency has developed?
    Ambassador Green. On Ebola?
    Senator Menendez. Yes.
    Ambassador Green. It is still being finalized. I think 
there is increased awareness, and we are pushing a much more 
aggressive approach. It has not been finalized yet.
    Senator Menendez. What is the holdup?
    Ambassador Green. The holdup, I think, is making sure that 
we have full input from all parts of the U.S. Government that 
will be required.
    Senator Menendez. I hope we have a sense of urgency.
    Ambassador Green. Oh, Senator, I do. And I am not going to 
tell you that coming before a committee is a great experience 
that is full of joy and----
    Senator Menendez. It is the most----
    Ambassador Green [continuing]. Pleasure, however----
    Senator Menendez [continuing]. Enlightening experience you 
could have.
    Ambassador Green [continuing]. However, I will say that, 
when Senators like yourself come forward with legislation like 
this Ebola legislation, it is, from our perspective, welcome 
and helpful, because it does raise the profile of the issue. It 
points out, I think, very usefully, that a more comprehensive 
approach will be taken. So, we look forward to working with you 
on this.
    Senator Menendez. Well, I hope we can move forward without 
the legislation, although I am going to press it, but I think 
that the right interpretation in pursuit of our own interests 
would hopefully prevail.
    For 2 years, from the President on down, the administration 
has called for continued engagement in Central America in order 
to address factors forcing people to flee their countries, 
including the weak rule of law and high levels of criminal 
violence. The Secretary of State has submitted nine 
certifications to Congress confirming that Central American 
Governments were making progress on these conditions.
    Mr. Chairman, I would ask unanimous consent to include the 
nine certifications and the USAID evaluation for the record.
    The Chairman. So ordered.

    [The information referred to above is located at the end of 
the hearing.]

    Senator Menendez. And I hope the President and the 
Secretary of State review the administration's own records. Its 
own records.
    So, I am not going to ask you whether you agree with the 
assertions the President has said, that these governments are 
purposely sending migrants to the north. I am not going to 
waste time with that. But, I do hope you can share for the 
committee, one, what are the root causes that we see people 
fleeing and seeking asylum? And, two, do you believe that the 
programs that you previously had been engaged in to provide an 
improved food security, expand economic opportunity, youth gang 
alternatives, and the other elements of your program to create 
institutional capacity were headed in a direction that was 
working?
    Ambassador Green. Thank you, Senator.
    First off, I believe in our programs. The programs--
imperfect, we can always do better and always do more--I think 
have been producing some good results, and I am confident that 
they will be part of the longer-term answer. It is no secret 
that we are all frustrated by the upsurge in numbers that we 
have seen recently. I saw that former Homeland Security 
Secretary Jeh Johnson said that this was a crisis, by anyone's 
measure. We believe that our programs are most effective when 
we have strong partnership from host-country leaders. The steps 
that are necessary to take, I believe, will involve our 
programs, but they are only successful, as we have seen in 
places like Colombia, where we have the full buy-in from the 
host country and it is taking some of its own steps, oftentimes 
difficult ones. As you know, the Secretary of State and the F 
Bureau are in the process of doing a review of all programs and 
also the conditions under which we will all be able to 
continue. And we are very hopeful that we can pick up the work.
    I will also say there are a couple of things that we have 
been doing. In recent months, one of the things that we have 
been doing is looking at apprehension data to make sure that 
our programs are specifically targeted towards those parts of 
the region that seem to be producing migrant flows. Secondly, 
we have been developing performance metrics in our grants and 
contracts with implementing partners that will make reduction 
of those numbers a specific performance metric. And so, we will 
be partnering more closely with our partners, including the 
private sector, and hopefully bolster innovation. We think it 
is important work that needs to be done, and look forward to 
the opportunity to build on success and improve what we are 
doing.
    Senator Menendez. I appreciate that. But, if we do not deal 
with the root causes, we are not going to meet this challenge.
    The Chairman. Thank you, Senator Menendez.
    Senator Young.
    Senator Young. Thank you, Chairman.
    Welcome, Administrator Green. It is great to have you here 
at the committee.
    I have heard from our military leaders about the 
unsustainable losses that are facing the Afghan military. And I 
have also heard that the war is, essentially, at a stalemate. 
In February, then-CENTCOM Commander, General Votel, said, 
quote, ``Afghanistan continues to suffer from weak institutions 
and a political environment marked by a lack of unity on core 
issues.'' So, that is a frustrating statement for, really, all 
Americans after 17 years of engagement in Afghanistan, 
especially when we know our success there ultimately depends on 
some sort of political resolution.
    While some view the peace talks and reconciliation with the 
Taliban as a positive step, I understand the situation is very 
complicated, but I am reserving judgment, especially in light 
of the fact that the Afghan Government is not party to those 
talks.
    Mr. Green, in your view, how is our mission in Afghanistan 
going?
    Ambassador Green. Well, first, I would like to take a 
moment just to pause and express condolences and concerns. 
There was an attack last night, that we all read about, in 
Afghanistan. Still learning more about precisely what happened. 
But, it is a reminder to all of us of just what a challenging 
environment that we see there.
    The Secretary of State directed us to be part of a posture 
review in the size of our footprint, State Department 
footprint, interagency, in Embassy Kabul. And, you know, we 
have provided information. I know that review is being 
finalized. We will consult with all of you when that is 
completed.
    You know, we continue to work through the Country 
Development Cooperation Strategy that all of you have seen and 
approved of. We view our work as crucial for supporting peace.
    Secondly, we think that we need to continue to find ways to 
strengthen citizen-responsive governance and citizen-centered 
governance so that people have political and emotional 
investment in institutions. We are continuing to work to foster 
private-sector inclusive growth. One of the problems has always 
been that it is a country that has mineral resources, but does 
not necessarily produce inclusive growth such that a large 
number of people are invested.
    And then, finally, what is crucial to the success in 
Afghanistan, in our view, is women's empowerment. So, it is 
empowering young women and girls to get an education that ties 
them to their country and the outside world, and gives them 
skillsets, strengthening the tools for women entrepreneurs so 
that they have greater control over their own future and, 
again, produce that economic inclusive growth. So, that is 
where our work is.
    It is hard. It is----
    Senator Young. Well----
    Ambassador Green [continuing]. Extraordinarily----
    Senator Young [continuing]. I want to get to brass tacks, 
because our time is limited. So, you mentioned citizen 
involvement and inclusive growth and involving working through 
the private sector, wherever possible. How are USAID's efforts 
advancing that? You mentioned you are reducing the footprint, 
but your programming, right now, is advancing citizen 
involvement through what activities?
    Ambassador Green. Oh, again, working to strengthen local 
governance institutions and empowering women to participate in 
the political process. The great challenge are the security 
costs.
    Senator Young. I just want to point out, and it is not a 
criticism of you. I actually----
    Ambassador Green. No, no, no.
    Senator Young [continuing]. I think no one is better 
equipped to have this position than you right now. And it would 
take a lot to disabuse me of that notion. But, I will say this. 
We are negotiating with the Taliban. The government is not even 
involved. The Taliban, I think, has different views on women 
inclusiveness, women empowerment, than even the Afghan 
Government does. I know the cultures are very distinct from 
ours. We do not want to be unrealistic in our goals there and 
what can be achieved. But, I am going to have to get more 
clarity from you and your staff about exactly how we are 
specifically trying to empower women.
    In terms of inclusive growth, poppy cultivation, according 
to the Special Inspector General for Afghanistan 
Reconstruction, the recent release of the 2019 High-Risk List 
says USAID will no longer design or implement programs to 
address opium poppy cultivation. So, that is their major 
private-sector, sort of, cash crop, is opium production right 
now. And clearly we need another alternative. I do not know if 
anyone has sharpened the pencil just to see if--I know we have 
tried wheat in the past, substituting wheat, a much lower-
margin product than opium.
    Ambassador Green. And we have, and that is a big part of 
our work, is working----
    Senator Young. Right.
    Ambassador Green [continuing]. On value chains for 
agricultural and horticultural products.
    In the case of empowering women, the biggest thing, there 
are 107,000 Afghan women who are educated, who were not before 
the work that we are doing.
    Senator Young. So, I guess the key challenge for this 
committee as we oversee these activities and try and work with 
you to ensure that you meet with success in achieving those 
goals around good governance, citizen involvement, inclusive 
growth, we need to make sure that, as the United States looks 
to reduce its presence--and I am hopeful we are thinking 
critically about reducing our presence, at some point, 17 years 
in--how we can consolidate those gains we have made on those 
different fronts.
    Ambassador Green. Look forward to working with you on it, 
very much.
    Senator Young. I only had 5 minutes. I was generously given 
6-plus. And so, Mr. Chairman, thank you.
    The Chairman. Thank you, Senator Young.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Administrator Green, I think you understand that there is a 
great deal of confidence in your leadership on both sides of 
the aisle on this committee, and a desire for this committee to 
work with you in order for you to be able to carry out your 
mission. It is extremely frustrating to see the type of budget 
support that you have received from the administration. And we 
recognize that, in previous years, Congress has not followed 
that guideline and has provided you the resources that are more 
realistic. But, we also recognize we have to figure out 
strategies in order to carry out our missions. And I appreciate 
your response to Senator Menendez's comments on the legislation 
he has filed in regards to the health challenges we have on 
Ebola. And I appreciate very much Chairman Risch's comments 
about how we have put a priority on fighting for American 
values, including fighting against corruption.
    Your comment about having the help of host countries is 
critically important to carry out your mission. We recognize 
that. But, it has been Congress working with your agency that 
has set guardrails that helped you. Trafficking in persons is a 
clear example where we have given you clear guidance on how you 
have to respond to trafficking. In women's empowerment, with 
the WE ACT, we gave you clear direction on where you need to 
work with us. And I think that has been very positive. And I 
hope this Congress will give you clear direction on fighting 
corruption--legislation that I have authored with Senator 
Young, that passed this committee last Congress, that we are 
working on and filed this week, last week, too--to give you 
clear direction that, as you are working with host countries, 
we cannot tolerate corruption, and that we need good 
governance. So, we look forward to working with you on those 
particular issues.
    I want to sort of drill down on some of the real challenges 
that we know we have, and how you are going to be able to 
respond, recognizing the lack of support you are receiving 
from, certainly, OMB on the budget numbers, how you are going 
to use the resources to fight.
    This committee authored, in the last Congress, a report on 
Russia's activities in Europe. We now have the Mueller report 
that clearly identifies Russia's attack on democratic 
institutions here in America. We have the One Belt, One Road 
Initiative from China, where we know, clearly, they are trying 
to impact democratic institutions, and using their economic 
power to do that. And then we see the President's budget cut 
democracy programs by almost 50 percent. And we see the cut in 
Europe and Eurasia by 54 percent, which is Russia's primary 
target. We see the cut in East Asia and Pacific of 14 percent, 
which is China's principal target. Reassure us that we will 
work together to use the tools that you have to strengthen 
democratic institutions, particularly in countries in which we 
have bilateral programs and which Russia and China are 
targeting for democracy erosion, where we need to strengthen 
democracy.
    Ambassador Green. Senator, thank you for the question.
    You know, I do view our relationship, the relationship 
between the agency and all of you, Congress, as extraordinarily 
important. I believe in the open dialogue. I believe in the 
constructive discussion of how we develop responses. You have 
my full commitment. I mean, because it is the only way we 
succeed.
    When it comes to China, Russia, democracy, there are no 
priorities that are higher for me. So, on the democracy front, 
I am an old democracy warrior from my IRI days. But, secondly, 
beyond that, none of our investments are truly sustainable if 
we are not fostering citizen-responsive governance. It will not 
last. And so, we have to focus on that. We develop clear 
metrics in the roadmaps we have, country by country, that focus 
on democracy. We are elevating democracy in our work with one 
of the new bureaus. Terrifically important.
    We will unveil, in a few weeks' time, our Countering Malign 
Kremlin Influence Framework. And what we are trying to do is to 
counter that country-by-country predatory strategy that the 
Kremlin undertakes, looking for weaknesses, particularly in 
Europe and Eurasia. You are right. So, we focus on such things 
as independent media and media literacy, energy independence, 
so we can help these countries not be so dependent upon Moscow. 
We look to help fight corruption and foster transparency so 
citizens have greater trust in their government.
    And, when it comes to China, you know, I have been very 
clear. I push back on the notion that some have put out there 
that this is the era of great-power competition. I do not like 
that term, because it suggests that this is a game and we are 
on the same field and playing by the same rules and looking for 
the same goals. It is not true. We do foreign assistance and 
development. They do predatory financing. We try to partner 
with countries and help lift them up so they can join us as 
fellow donors. And the sooner that can happen, the better. 
They, of course, are looking for the opposite. They hope to 
make countries subservient and forever dependent. And I do not 
think we can talk about it often enough. And so, from the Indo-
Pacific strategy to the work that we will do as an Agency in 
our messaging, you have my commitment to work with you on this. 
I think it should be one of our Nation's highest priorities.
    Senator Cardin. I thank you for that response.
    The Chairman. Thank you.
    Mr. Green, that was about as clear an enunciation of where 
we are, as far as our relationship with China today. Thank you 
so much for that.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    I want to associate myself with all the remarks you made 
about Mr. Green. He is an outstanding individual. I worked with 
him in the House as a Member of Congress. I worked with him in 
Africa. I have worked with him everywhere. He is terrific.
    And I want to commend you on coming up with a new name, 
``predatory''----
    Ambassador Green. Predatory financing.
    Senator Isakson [continuing]. ``Predatory financing.'' As a 
real estate developer, I know what that means, but I now also 
know what it means in food security and other things like that, 
as well.
    But, let me be real quick, because we do have a couple of 
votes that I need to get to. Number one, food security is 
something I have worked on a long time. I know that you are a 
big supporter of food security and understand the global 
challenges we have on food security. I also notice that, in the 
proposal here, USAID's food security program will be combined 
with other programs to form a new Bureau for Resilience and 
Food Security. Will that help us in delivering our deeply 
needed help of food security around the world?
    Ambassador Green. It will. It will make us more nimble, 
more responsive. You know, we are the largest humanitarian 
donor in the world, by far. And no one else is close, 
particularly on the food security side. What we have been 
trying to do, and we will do with the new bureau, is also add 
to it some of the resilience elements that, hopefully, get 
those countries to a place where they are less dependent upon 
our humanitarian food assistance. And part of that is some of 
the very successful tools that come from the last 
administration on Feed the Future, some of those investments, 
where we harnessed the expertise of U.S. academic institutions 
and agribusinesses. If we can apply those to some of the 
challenges, I think it helps us all, in the long run, get away 
from having to perpetually be a humanitarian donor, and can 
help these other countries take care of themselves.
    Senator Isakson. Well, fighting hunger is a tremendous 
asset in bringing about security and independence and a good 
life for people around the world who do not have it, so I am a 
big supporter of that, and I hope this will help in doing so.
    On Ebola, I want to go back to your alarm, stated calmly, 
but distinctly. I am worried, too. I represent a state that has 
Hartsfield International Airport in it, so many places--we have 
CDC, we have Emory University. The first Ebola outbreak, most 
recently, in Liberia, we were at the headwaters of that and 
were successful in stopping it. I get the distinct message, not 
necessarily subliminally, but directly, that, because of the 
conflict in the DRC, because of the lack of security in the 
DRC, the lack of coordination in the DRC, we are at real risk 
of having an outbreak that will get larger and bigger before it 
gets smaller. Are there things that we can do to help stop that 
or make that situation less likely?
    Ambassador Green. Yes. First off, as a confidence-building 
message, let me be clear that we work very closely with the 
CDC. Their medical expertise is second to none. And so, we are 
closely working with them in the field. I think also part of 
the answer are some of the measures that the Chairman has 
talked about and are in Senator Menendez's bill, or at least 
referred to, and that is taking a kind of a comprehensive 
approach.
    When you are fighting a pandemic in a setting like this, 
you need to build trust in a community so that they are willing 
to come forward and to rely on those tools that we provide. If 
people are not willing to come forward, or if people go in the 
opposite direction when we show up or anyone else shows up, we 
will never get the pandemic under control. So, it is going to 
require that kind of a response. That is why CDC, USAID, and 
State have to be joined together. We each bring tools to this. 
And we need to work closely together. And I think you would 
hear from Dr. Redfield at CDC that we are in constant 
communication. And both of our teams are there right now, 
trying to do a full-on assessment----
    Senator Isakson. I have heard----
    Ambassador Green [continuing]. That we will come back to 
with and give you a further briefing on.
    Senator Isakson [continuing]. I have heard just that from 
Mr. Redfield, and I appreciate you-all's cooperation and 
coordination on that, because it is critically important to see 
to it that we do what we need to do in the future.
    And I want to end by just making a comment. I watched you 
at work in Tanzania, when you were our Ambassador, and I 
watched your work with PEPFAR, and putting people to work and 
getting partnership attitudes between two countries and two 
governments to deliver PEPFAR throughout that country at a less 
expensive, more effective rate than anywhere in Africa, to 
begin with. So, your natural ability and inherent like for 
partnership is going to be the asset that brings us, in food 
security and health security, a long way. And I appreciate your 
service. If we can help in any way, please let us know.
    Thank you, Mark.
    Ambassador Green. Thank you. Would not be there without the 
tools that all of you have provided, quite frankly. Thanks.
    Senator Rubio. [presiding]: Thank you.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you, Administrator Green, for being here today, 
and for your service to the country.
    One of the prime recipients of USAID in Europe has been 
Ukraine since the Russian seizure of Crimea in 2014. And one of 
the areas of our focus has been on trying to address corruption 
there. As you have so rightly pointed out, a stable, prosperous 
democracy is the best way for countries to better use 
assistance that we are providing and that other countries are 
providing. But, I was really troubled recently to see high-
ranking Ukrainian officials, such as Prosecutor General Yuriy 
Lutsenko, publicly criticize our leading diplomats, and further 
troubled to see his false allegations begin to circulate, not 
only in Ukraine, but in rightwing media here in the United 
States. So, how does USAID ensure that U.S. foreign aid in 
Ukraine supports legitimate reformers who are really working to 
fight endemic corruption?
    Ambassador Green. Thank you, Senator.
    First, as a general matter, what I often point out, the 
best way to push back on the Kremlin is success in Ukraine and 
in the neighborhood. That is the one thing that his people 
cannot tolerate, and that is seeing democracy and markets work, 
and women's empowerment.
    In terms of our programs, focusing on tackling corruption 
is the central piece to our work, because it is creating that 
investment--as you know from these last elections, people spoke 
pretty clearly, and they were absolutely fed up with corruption 
and lack of responsive institutions. They want to see change. 
We are helping to power that change. E-governance is a big part 
of what we have been able to do. And also, we have a success 
story from the elections, themselves. USAID funded some 
cybersecurity tools that helped the Election Commission in 
Ukraine push back against intrusions from Moscow into the 
elections that we all knew were likely to occur. I had an 
opportunity to meet with the mayor of Kiev yesterday, Vitali 
Klitschko, and we were talking about ways--first off, he has 
helped to foster some anticorruption institutions, 
transparency-based, but looking for new ways--the more we can 
use e-governance, the more we can push back on old institutions 
and bureaucracy, I think that is crucial if we are going to see 
popular support for the reformers in Ukraine, and also their 
continued success in moving towards Europe.
    Senator Shaheen. Well, I hope you will also help push back 
against false stories like the ones that have been circulating 
out of Ukraine about our diplomats.
    I want to go on. I appreciated very much your comment to 
Senator Young about the importance of women's empowerment and 
stability in Afghanistan, and particularly, post any peace 
negotiations, the important role that women will play. I had 
the opportunity yesterday to sit down with Ivanka Trump and 
review the administration's forthcoming Women, Peace, and 
Security Strategy that is the result of legislation Senator 
Capito and I sponsored that was signed into law in 2017. And it 
now requires that we have a strategy for having women at the 
table in any post-conflict negotiations. One of the things that 
I hope you will support is the importance of having women at 
the table as we look at any peace negotiations that go on with 
respect to the Taliban and the Afghan Government. And hopefully 
you are prepared to do that and you are prepared to officially 
implement this Women, Peace, and Security Act.
    Ambassador Green. Senator, thank you. And yes, we are in 
the final stages of its approval, the strategy released 
publicly. But, you are precisely right, history tells us that 
the best way to produce sustainable, lasting peace and 
effective governance is to make sure that women have their seat 
at the table. So, we certainly agree.
    Senator Shaheen. I just got back from Afghanistan, and I 
met with a number of women leaders. And they said two things to 
me that I thought were very powerful. First, they want peace. 
There is no doubt about it. As you know, Afghanistan has had 40 
years of war. But, they do not want to lose their rights. They 
said, ``We want to see the Afghan constitution that was put in 
after the overthrow of the Taliban that preserves human rights 
for all Afghans, but particularly for women. We do not want to 
go back to that time when women could not work, when there was 
no freedom of movement, when women could not go to school, when 
girls could not go to school. That is not a future stable 
Afghanistan.''
    Ambassador Green. Moving back to the past of those days and 
that kind of demeaning of women and marginalization of women 
all restores the very conditions that led to the crises that 
started all of this. So, we are with you. We are proud of the 
work that we have done to empower women, economically, 
educationally. And that is the work we plan to keep doing.
    Senator Shaheen. Thank you. Thank you very much for your 
effort.
    Thank you, Mr. Chair.
    Senator Rubio. Thank you.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Good to see you, Mr. Ambassador. Thanks for spending some 
time in my office with me. We discussed the humanitarian plate 
in Yemen in my office, and I wanted to follow up, on the 
record, with a question or two.
    As I noted to you, in my recent trip with Senator Romney to 
the region, all of the partners that work with you in Sanaa 
flew into Amman, Jordan, to meet with our delegation to give us 
some devastating news. And that news was that there are 250,000 
Yemenis who are so sick and so malnourished that they are 
beyond saving. A quarter-million Yemenis are likely to die in 
the coming months because of the famine and the spread of 
disease that exists both in Houthi-controlled territories and 
in coalition-controlled territories. We have been a major 
humanitarian partner in the efforts to save these lives, 
notwithstanding the conflict, $720 million in assistance over 
the last 2 years coming from the U.S. Treasury. But, this FY-
2020 request specifies only $41 million in total bilateral aid 
to Yemen.
    Help me understand that number and whether I am reading the 
budget request wrong. Are we going to see a diminution in our 
humanitarian assistance to Yemen in the coming year?
    Ambassador Green. Senator, I do not have the precise budget 
figure on Yemen, but let me say this. We will not walk away 
from our humanitarian role there. Again, as you know, as you 
rightly pointed, $721 million in humanitarian assistance in 
Yemen, $692 million of that comes from USAID. We continue to 
work closely with all the NGOs that are working there. I met, 
yesterday, with Carolyn Miles, from Save the Children. And yet, 
today, at the end of the day, I will be meeting, as I do 
regularly, with all the international NGOs that are working in 
Yemen. And, a few days ago, I spoke with the World Food 
Programme by phone, just on another assessment there. All of 
the dark things that you have characterized there are true. I 
mean, this is a humanitarian catastrophe. And, in some cases, 
the level of suffering, you know, is not irreversible--or is 
not reversible. It is not something that we can immediately 
turn back on, and it will have long-term consequences that are 
dark and sad. We will not walk away from our humanitarian role.
    Senator Murphy. And you had testified, in the House, that 
the conflict itself was what is blocking humanitarian 
assistance. I would tend to agree. And our humanitarian 
partners tend to agree. But, I would just reinforce what we 
discussed in private, which is that, notwithstanding the 
settlement of the conflict, there are steps that both sides can 
take in order to improve the situation for Yemenis on the 
ground. I will say, though, that we are only party to one side 
of the conflict. And so, we have much more impact over the side 
of the conflict of which we are a member, and there are 
certainly steps that our partners can take to release money 
into the economy, to free up the bureaucratic hurdles that 
still exist to this day on humanitarian assistance getting into 
the Red Sea ports. We can take steps, even notwithstanding the 
political process, to ease the flow of humanitarian aid into 
that country, correct?
    Ambassador Green. Senator, yes. So, first off is a point of 
clarification. The $41 million--just had a note given to me--it 
is the development assistance part of our request, does not 
reflect the humanitarian assistance that we will, naturally, 
provide.
    But, secondly, you are correct, in that both sides have 
steps to take. That is absolutely true. Part of the reason that 
we meet with--Deputy Secretary of State John Sullivan and I--
regularly with representatives of all the key international 
NGOs and U.N. family, quite frankly, is to learn about those 
impediments that weaken the effectiveness and raise the costs. 
And then what we try to do--and State obviously takes the 
diplomatic lead, here--is to push those to ease the burdens in 
delivering assistance.
    Senator Murphy. Mr. Chairman, I had a question that I 
wanted to ask about the impact of the cuts to the Palestinian 
Authority that is probably too complicated for the time that I 
have remaining, so I will make it for the record.
    I will just use my final 20 seconds to note that, on this 
trip, Senator Romney and I also visited Iraq. And there is a 
great fear, in Iraq, that the failure to resettle displaced 
populations and to rebuild the portions of the country that 
were destroyed in our fight, along with the Iraqi army and 
militias, to root out ISIS will be, in fact, the ultimate 
invitation for these Sunni extremist groups to reemerge. And 
there are rumors that we are going to cut our humanitarian 
assistance and development assistance into the country. It 
still represents only about 20 percent of our total spend 
there, which seems to me to be an unthoughtful apportionment of 
dollars. But, I will just state the imperative of continuing 
and increasing our development and reconstruction assistance to 
Iraq. If we do not make that commitment, if we do not signal 
our long-term commitment to that funding, it will provide an 
impetus for an already-strengthening ISIS inside Iraq to make 
the case to Sunni populations that it is its only protector.
    Thank you, Mr. Chairman.
    Senator Rubio. Thank you.
    I have you all to myself. We are in the middle of votes, as 
I am sure they have told you; so, hence, all the movement.
    So, let me start, just take off from the point of Yemen. I 
think we are all concerned about the humanitarian crisis there, 
and recognize--I think we are upwards of $230 million or so 
that we have provided so far. And what is the number?
    Ambassador Green. In Yemen, it is $721 million.
    Senator Rubio. Oh, wow. Okay, perfect.
    So, my question to you is the following. It is still an 
active conflict zone. Theoretically, just as an example, if the 
Houthis, I would suspect, or I would know, at the direction, 
let us say, of the IRGC and the Quds Force and Soleimani, were 
to conduct attacks, say, in Saudi Arabia--against Saudi Arabia, 
as they have done in the past, or against U.S. interests in the 
region--for example, the U.S. Navy or even commercial shipping 
vessels--that would elicit, necessarily, a military response. 
If you could describe--I think we could all sort of sense what 
that would do for the humanitarian efforts that are going on 
there--but any sort of active attack by the Houthis, especially 
at the direction of Iran, against either Saudi interests, which 
would elicit a Saudi response, and, God forbid, against U.S. 
interests, which would elicit a devastating response, would 
dramatically exacerbate and, I would imagine, significantly 
impede, if not stop, efforts to provide aid to the people who 
so desperately need it.
    Ambassador Green. Mr. Chairman, I guess, a couple of 
points. Obviously, as to the diplomatic and security situation, 
I would defer to the State Department. They are the ones who 
can give you the best characterization of where they see the 
posture of that situation. However, on the humanitarian front, 
we all recognize that, even at best, what we are trying to do 
is treatment, not cure, that a long-term political settlement, 
a cessation of hostilities, (a) is crucial to being able to get 
in to provide lifesaving medicine, to provide lifesaving food 
assistance. And some have characterized very effectively how 
dire the need is. But, in the long run, it is getting in to 
restore some reemergence of the social compact between citizens 
and leaders of ministries and local institutions that will 
provide some kind of stability and predictability. So, 
humanitarian assistance, or the humanitarian assistance agency, 
but we recognize that diplomacy and development and, obviously, 
security, in a secure setting, are the only way we can produce 
long-term----
    Senator Rubio. Yeah, I guess the point I was trying to 
drive at is, if the Houthis truly care about humanitarian 
assistance reaching the people who desperately need it, 
attacking the United States on the orders of Iran, or allowing 
the IRGC to operate from space they control, is not the best 
idea, if, in fact, they care about humanitarian assistance.
    Ambassador Green [continuing]. We need a cessation of 
hostilities, including missile and UAV strikes from Houthi-
controlled areas. I mean, we just have to have that. And then, 
subsequently, the coalition airstrikes must, obviously, cease 
in all populated areas. Those are the two steps that we need to 
be able to effectively deliver humanitarian relief.
    Senator Rubio. And an escalation of the conflict by the 
Houthis, by targeting targets inside Saudi Arabia or targeting 
the United States, would run counter to a cessation of 
hostilities.
    Ambassador Green. An escalation of hostilities is a very 
bad thing for innocent people on the ground who are trying to 
desperately get those medicines.
    Senator Rubio. Pivoting to Venezuela, I know you have 
spoken about it in your opening statement. It is my 
understanding--and perhaps the numbers have been updated--that, 
last year, Colombia spent over a billion dollars dealing with 
well over a million migrants. They are our strongest 
counterdrug partner in the region, one of our strongest allies 
in the region. How would you describe, whether in numbers or in 
just general terms, the impact that the instability in 
Venezuela is having on Colombia, both from a cost and societal 
perspective?
    Ambassador Green. Sadly, it is one of the most undercovered 
and underappreciated aspects to this conflict. I have seen 
reports suggesting that Colombia's economic growth, while still 
positive, has been reduced by .8 percent just on the basis of 
the burden of the uncontrolled migrant flow. But, I am heading 
back down to the region in a couple of days' time. There are so 
many things that we are working with President Duque on that we 
are going to raise the profile of, but this is a dark cloud 
that certainly threatens their future. As we talk about 
humanitarian crises, we have the obvious ones that we all 
recognize, and then we have the narcos running around the 
place. So, we have, on top of everything else, this 
extraordinarily unstable situation in which the Venezuelans are 
providing safe harbor to bad guys who impact the ability of 
Colombia to take on some of their longstanding governance 
challenges for peace and reconciliation. So, it is a terrible 
threat to Colombia. I am very impressed with President Duque. I 
am impressed with his plans. I am impressed with what they are 
trying to do, and their generosity and hospitality towards 
Venezuelans. But, they need our help desperately.
    Senator Rubio. One of the things I am growing increasingly 
concerned about is a number of Venezuelan military and national 
guard defectors that are currently located inside of Colombia, 
and the Colombians have shouldered the cost of housing and 
providing for them. But, we get mixed reports that they were 
evicted from the hotel, that these folks stepped forward and 
did the right thing in supporting the constitution. What are 
the plans or what discussions are occurring, in terms of 
dealing with that group, particularly, of the military 
defectors that now find themselves inside of--I say 
``defectors''--military officials that have joined, rank-and-
file soldiers and guardsmen and police officers that have 
joined the legitimate government--who is taking care of them? 
What plans are in the works to address providing for them a way 
forward?
    Ambassador Green. Senator, in terms of formal plans, they 
have not been completed or finalized yet, so I do not have much 
to tell you on that front. What I can say is that we are in 
touch with Guaido's people all the time, continuously, and it 
is something they are very much aware of, as are the Colombians 
with whom we speak continuously. So, we are working to forge 
plans driven by them that deal with this challenge and others.
    These are obviously changing numbers all the time, but it 
represents another uncertainty that impacts the situation.
    Senator Rubio. Yeah, I would just say the United States, it 
is my view, has an obligation to contribute to that effort, and 
I hope we can work with you and with the administration to make 
it happen. Multiple administration officials, Members of 
Congress, myself included, actively called for these 
individuals to do what they did, which is not to kill innocent 
civilians, and to come forward. They did so, at great personal 
risk, in many cases, at great personal price for their families 
that were left inside of Venezuela. And I just personally 
believe that we do have a moral obligation to contribute not 
just money, but some plan for them to have a way forward, and 
not just simply that they would be stuck there on the Colombian 
side with no sort of future prospects.
    I see that I have been--you ready? All right. Senator 
Kaine.
    Senator Kaine. Thank you, Senator.
    And thank you, Administrator Green. I share comments raised 
by others, that you have the confidence of this committee. We 
are very appreciative of your work. But, my questions are going 
to focus on what I think is difficult about your job right now.
    March 28, 2019, Thursday, the DHS put out this press 
statement, ``Secretary Nielsen Signs Historic Regional Compact 
With Central America to Stem Irregular Migration at the Source, 
Confront U.S. Border Crisis.'' And I am just going to read the 
first paragraph of the press release, ``Secretary of Homeland 
Security Kirstjen Nielsen traveled to Tegucigalpa, Honduras, 
where she met with security ministers representing the 
countries of Guatemala, Honduras, and El Salvador. The 
multilateral discussions marked the continuation of a multiyear 
diplomatic process and the signing of a historic memorandum of 
cooperation on border security cooperation in Central 
America.''
    I would like to introduce this press statement of DHS for 
the record.
    Senator Rubio. Without objection.

    [The information referred to above is located at the end of 
the hearing.]

    Senator Kaine. That was Thursday, March 28th.
    Friday, March 29, at Mar-a-Lago, President Trump said he 
was mad at the Central American nations for not doing more to 
stop a border crisis, and he said, ``We are not going to give 
them any more money.''
    On Saturday, March 30th, Reuters, the title, ``U.S. Ending 
Aid to El Salvador, Guatemala, Honduras Over Migrants''--`` 
`The United States is cutting off aid to El Salvador, 
Guatemala, and Honduras, known collectively as the Northern 
Triangle,' the State Department said on Saturday, a day after 
President Trump blasted the Central American countries for 
sending migrants to the United States.''
    I would like to introduce this article for the record, if I 
might.
    Senator Rubio. Without objection.

    [The information referred to above is located at the end of 
the hearing.]

    Senator Kaine. Two days. The DHS announces a historic 
memorandum of cooperation with the three nations, and the press 
release goes on to cite all of the elements of cooperation that 
we are going to be engaging in with these nations to stop the 
border crisis. Within 24 hours, the President said he is mad at 
these nations and we are going to cut off funding. And then, on 
Saturday, 2 days later, March 30, the State Department 
announces all funding to these nations are being cut off.
    Mr. Green, I have got a series of questions about this. As 
USAID Administrator, were you aware of the fact that DHS was 
involved in lengthy discussions with the Governments of the 
Northern Triangle countries around a memorandum of cooperation 
to stop migration flows?
    Ambassador Green. We had some awareness. We did not 
participate in those discussions, but we certainly had 
awareness.
    Senator Kaine. Obviously, that is in the DHS side of the 
family. You are in more of the State Department side of the 
family. But, you were aware of those discussions. And I do not 
think it would be unfair to say that, if you were aware of 
those discussions, it is likely the case that the Secretary of 
State was also aware of the discussions that the DHS was 
engaged in. Is that fair?
    Ambassador Green. I cannot speculate, but I would assume he 
was aware.
    Senator Kaine. Sounds reasonable. Do you know whether the 
President was aware of the discussions or the signing of the 
historic accord that his own Cabinet Secretary put out this 
statement about on March 28th?
    Ambassador Green. I do not know. I do not know. I do not 
have awareness.
    Senator Kaine. I have been very critical of this 
administration for blowing up diplomacy. I think backing out of 
the Paris Accord was a bad idea. I think backing out of the 
U.N. Global Compact on Migration was a bad idea. I think 
backing out of the JCPOA was a horrible idea, potentially 
leading us closer to an unnecessary war. But, I have, I think, 
been wrongfully asserting that the administration wants to back 
out of diplomatic deals that were deals done under President 
Obama's tenure. This is an example. When, on Thursday, March 
28th, the Trump administration announces a compact with the 
three Central American nations, and, in less than 24 hours, the 
President is announcing that he is suspending all funding to 
those nations to do exactly what we want them to do, I have 
deep questions about how decisions are being made by this 
administration. I have confidence in you. You are going to make 
the best out of what you are given. And you have, testified, in 
response to Senator Menendez's questions earlier, that you are 
not backing away from any of the programs. And, hopefully, we 
will find a way to continue these programs. But, the suspension 
of aid to these nations within 2 days after we reached a--in 
President Trump's administration's own words, it is an historic 
accord to stop immigration. And we suspend funding? I conclude 
that this President must be pro-caravan. He likes to say he is 
against caravans, but maybe he actually likes caravans, because 
it gives him something to run his mouth about and run his 
Twitter account about.
    If this administration was against migration flows from 
Central America, they would not blow up their own diplomatic 
deal within 48 hours after announcing it, following a multiyear 
process with these nations. And it raises real questions: why 
would you, as another nation, want to partner with the United 
States? If you will sign a historic deal with the United 
States, and the United States will unplug it within 48 hours, 
why would you want to be a partner of ours to stop migration or 
do anything else?
    I do not have any other questions, Mr. Chair.
    The Chairman. [presiding]: Thank you, Senator.
    Senator Cruz.
    Senator Cruz. Thank you, Mr. Chairman.
    Welcome.
    Let us start by talking about Sudan. As you know, last 
month in Sudan, President al-Bashir was removed from power 
after three decades of brutal repression. There are worrying 
signs, however, that Sudan's new rulers are going to drag out 
any transition to true democracy, and perhaps indefinitely. In 
your judgment, what is the role of development assistance in 
building up Sudanese institutions?
    Ambassador Green. We are obviously very supportive of a 
transition to a peaceful and democratic Sudan. We think that 
the people of Sudan have spoken loudly and clearly. They want a 
return to civilian government. And we look forward to, 
hopefully, the day where we are able to support and strengthen 
just that.
    Senator Cruz. Do you anticipate any significant problems 
distributing aid or promoting USAID's mission under Sudan's 
current governance?
    Ambassador Green. We do provide humanitarian assistance 
now. We are the largest donor to the people of Sudan, in terms 
of humanitarian assistance. We provided over 250 million of 
humanitarian assistance in 2018. But, again, as I have said 
before, humanitarian assistance is treatment, not cure. And 
that obviously is not the long-term answer. The long-term 
answer is fostering citizen-responsive governance. And we think 
that is what the people of Sudan have been protesting for. And 
we are all very, very hopeful, but also deeply concerned, as 
you have characterized. We need to see that transition occur. I 
think it is important for Sudan, and it is important for all of 
us.
    Senator Cruz. Yeah, I agree.
    Let us shift to Nicaragua. I am also deeply concerned about 
the political trends in Nicaragua and the Ortega regime. Last 
year, I passed legislation, along with Senator Menendez and 
Congressman Ros-Lehtinen, to impose targeted sanctions and 
restrictions on loans to Nicaragua and to mandate a civil-
society engagement strategy. The legislation was signed into 
law December 2018. Assistance plays an important role in our 
Nicaragua strategy, including democracy assistance. What is 
USAID's strategy for ensuring that our development assistance 
in Nicaragua is used in a way that promotes our priorities and 
values?
    Ambassador Green. Thank you, Senator. And thank you, quite 
frankly, for raising the issue of Nicaragua and focusing on it. 
We agree with you very strongly. Ortega is a brutal tyrant who 
has clearly shown no regard whatsoever, not only for democratic 
rights, but for the well-being of his own people.
    First, I think we all need to salute the extraordinary 
courage of young Nicaraguan activists and democracy voices. 
Under the harshest of crackdowns, they have continued to be 
loud and clear on calling for democracy. We see ourselves as a 
crucial lifeline to them. And so, in the last year, we have 
provided support directly to the Nicaraguan people, $17.6 
million for Nicaragua through OTI, as we call transition 
initiatives, first off, to provide some civil-society support 
and reinforcement, but provide some relief for these folks. 
Also, our voice has been consistent in calling for justice, 
rule of law, and a restoration to democratic order. We will not 
back down, just as the young people of Nicaragua will not back 
down.
    Senator Cruz. Thank you.
    Let us shift to Venezuela. The history of development 
assistance in Venezuela has been a complicated one. For 
decades, Chavez, Maduro, and their thugs have used foreign aid 
as a political weapon. Meanwhile, the country has spiraled into 
catastrophe, which has required USAID to coordinate with other 
agencies and assets in the region, including SOUTHCOM. In your 
judgment, what steps can USAID take, both in Venezuela and 
elsewhere, to ensure that badly needed aid is not diverted by 
regimes like the one in Venezuela?
    Ambassador Green. Thank you. As to Venezuela and 
assistance, I guess I would offer a couple of things.
    First, I want to thank all of you. I want to thank the 
members of this committee and this body for its support for our 
democracy assistance work in Venezuela over the years, both 
sides of the aisle. The first time that I met Juan Guaido face 
to face--I had spoken to him once on the phone, but face to 
face--he thanked me for that. That is what he thanked me for. 
He thanked me for the support that we have provided to civil 
society, but, in particular, the National Assembly. He is, of 
course, the leader of the National Assembly, and thus, the 
interim President. And that is a reminder to all of us of just 
how important these investments are. We need to stay engaged 
and support democracy, civil society, young democratic voices. 
And, so, first and foremost, we would not be here if not for 
those investments. And I am grateful.
    On the humanitarian side, it is an extraordinarily 
difficult situation, obviously. As we have mentioned, we have 
pre-positioned assistance in a number of places. We welcome the 
announcement by the International Red Cross/Red Crescent that 
they are trying to find ways to see that assistance can be 
delivered in-country, not subject to diversion from Maduro and 
his regime. And I can tell you more in a different setting. 
But, we will make sure that our assistance does not get 
politically weaponized, as assistance has too often in the past 
by Maduro. He has used it to punish enemies, to reward friends. 
And obviously, we are not going to let that happen, in terms of 
our assistance.
    Senator Cruz. Thank you.
    The Chairman. Thank you. And we thank you for your focus on 
that particular point that you made at the end. That is 
incredibly important.
    Senator Coons.
    Senator Coons. Thank you, Chairman Risch, Ranking Member 
Menendez.
    Thank you, Administrator Green. It is great to be with you 
again.
    Let me continue on that point about the fragility of 
democracy in the world and the important efforts that we make 
to support it, not just in Venezuela, but in lots of countries 
around the world. We spoke briefly at the IRI event last night. 
IRI is one of those organizations that is supported by taxpayer 
funds in order to help ensure that democracy and governance are 
advancing around the world. NDI and the other National 
Endowment for Democracy programs, I think, are well worth our 
continuing to support.
    I am concerned about election security and ways in which 
increasing capacities for surveillance by authoritarian-leaning 
states' ability to turn off the Internet, ability to use 
biometric databases to monitor and surveil their population 
makes exactly the sort of work that we have done for decades 
through IFES, one of those key organizations, more freightening 
because we are literally handing regimes, now, a biometric 
database of all their constituents. We had long thought that 
the places where we most needed to invest in elections and 
democracy were the least developed countries that had the most 
ground to cover. In some areas, like Southeast Asia, for 
example, or Eastern Europe, we are seeing interference in 
elections by the Chinese, by Russians, by other actors, that 
gives me real pause.
    Are we developing election security toolkits? Are there 
things within democracy and governance we should be doing, in 
light of the ways in which our own last presidential election 
was put at risk? And what is your view on whether our democracy 
and governance funding overall is robust enough?
    Ambassador Green. Senator, I think you have captured some 
really important decisions that we have to make and important 
challenges that we have to explore. You know, it is 
interesting--and I am a democracy warrior from way back--you 
know, you look at 20 years ago, and the battle we had was 
against authoritarians who opposed elections. They no longer 
oppose elections. Everybody supports elections. They had to 
steal them and bend them and manipulate them, such that, long 
before you ever get to election date, it is over. And that is a 
challenge for us. I have asked my team, including my Statutory 
Advisory Council, which has representatives of the various 
democracy institutions in town, to develop a new framework to 
help us go after this. A lot has changed in those 20 years. The 
bad guys have tools. The bad guys are strategic. Notice that 
one of the first things Maduro did during those protests is 
shut down CNN en Espanol and close off the Internet, wherever 
he could. We need to have a better response to that.
    The most important things have not changed. And what I mean 
by that is, you could see it with the courage of those 
Venezuelans and the Nicaraguans and so many others. People want 
democracy. People want transparent governance. People want to 
have freedom of choice in their own future. As long as we have 
that element, we can figure this out. But, we need to develop a 
different framework than we have got. I worry that if we 
continue to operate in the old framework--okay, we look at 
election day, and we will, you know, the last couple of months, 
fund election observers--we are not going to be very satisfied.
    So, I am getting the institutions to help us develop a 
series of benchmarks that help us evaluate, long before we get 
into the home stretch of an election. If we do not, we are 
going to continue to see--particularly China, with the closed-
Net election systems and software they provide--they are going 
to continue to be satisfied, and we are not.
    Senator Coons. Thank you for your answer and your focus on 
this. I have two more questions. I will ask them and then use 
what time you have left to answer, if you would.
    First, I am just interested in the implementation of the 
BUILD Act, the transition to a Development Finance Corporation. 
I think it was a significant legislative accomplishment by this 
body in the last Congress in the Trump administration. And I 
just returned from a visit to China during the Belt and Road 
Conference. Having an American-led response to the 
infrastructure needs of the developing world, I think, is 
urgent. I think it would be worth the time of this committee to 
have you and David Bohigian and others who are actively 
involved in this come back and testify to us about how well we 
are doing at making it a Development Finance Corporation, one 
that has measurable and responsible risk, that is going to be 
good stewards of taxpayer dollars, but also deploy significant 
new amounts of private capital with a development focus. I 
would be interested in your views on how that is laying out.
    And then, last, I understand you have already spoken about 
Ebola and the DRC. I just wanted to commend you for your focus 
on Tropical Cyclones Idai and Kenneth, and the responses in 
Mozambique, and express my real concern about the fragility of 
the DRC and the region, and my gratitude to Senator Menendez 
for stepping forward and taking on a leadership role on 
tackling Ebola. Anything you care to respond to in what I 
suspect is 30 seconds. Thank you.
    Ambassador Green. Thank you, Senator. As always, thank you.
    On Mozambique, as I said, we have mobilized about $70 
million. I sent a team there, a 17-person Disaster Assistance 
Response Team, as well as my counselor, Chris Milligan, who has 
deep experience in the region. A long way to go, but we are 
working on it.
    An additional challenge in Mozambique in the north, the 
insurgent attacks are beginning to restrict our ability to get 
into some of those most affected areas by Kenneth, so we are 
watching that.
    In terms of the DFC, I am like you, I am a believer in the 
DFC, and I was long before I got to USAID. You have been very 
eloquent. And I think you have been on the mark. I think the 
most important questions that we need to answer--we are working 
closely with OPIC, but, as we go forward--to make sure that we 
have clear development impact so that these tools, which we now 
use, Development Credit Authority, which are a vital part of 
bringing the private sector to bear on some of our great 
challenges, building capacity and accelerating private 
investment, but also making sure that we do not duplicate, 
unnecessarily, institutions. We want to make sure that we 
continue to--USAID and the 80-plus missions that we are in 
around the world--you know, we want to help identify projects, 
evaluate them, make sure that they have development impact, and 
then bring them to the DFC with all of the financial tools and 
expertise that it has. So, the integration, I think, is going 
to be key, and that is what we are going to be working on in 
coming weeks. If we do this right, it is a major tool in the 
toolbox.
    One thing I will say. It is not about the money, in the 
sense of number-to-number with China and Belt and Road. It is 
what it produces. We believe in self-reliance. We want private 
enterprise, we want countries to lead themselves, in the long 
run. China obviously does a very different thing. So, you know, 
we are not trying to mimic China. We are trying to do a very 
different model. And that is what I think we can get to.
    Senator Coons. Thank you. Thank you very much, Mr. 
Administrator.
    Thanks for your patience, Mr. Chair.
    The Chairman. Thank you, Senator Coons.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    On climate change, I have been appreciative of USAID's 
programs that have sought to improve resiliency among countries 
in the face of climate change. However, the administration's 
fiscal year '20 budget does not include funds for the global 
environmental facility and an international environmental donor 
fund we have historically supported, and does not identify any 
environment- or climate-related priorities. The Secretary of 
State's unwillingness to say if he prioritizes climate change 
in U.S. foreign policy and decisions by the State Department to 
remove references to ``climate change'' from international 
declarations, including this week's Arctic Council statement, 
reflects the administration's disregard for integrating climate 
change into how we address conflict mitigation, migration, and 
displacement, and other humanitarian questions.
    Do you believe that climate change is a foreign policy 
priority that needs to be tackled?
    Ambassador Green. Senator, I will let Secretary Pompeo, our 
top diplomat, talk about foreign policy leadership. But, what I 
can say: we recognize, (a) that climate is changing, and (b) 
that we need to help countries deal with its consequences. So, 
in our roadmaps that we use as, sort of, guideposts in our 
Journey to Self-Reliance work, we have key metrics on 
biodiversity and the environment. We think it is awfully 
important.
    Secondly, we continue, in so many parts of the world, to 
develop tools, as you pointed to, resilience tools and others, 
to help countries deal with the fallout from changing climate 
and how it affects governance, self-sufficiency, and so on and 
so forth. That priority will continue for us.
    Senator Markey. And I am very much in respect of your 
commitment to foreign assistance, but I think that the budget 
request actually reflects a lack of commitment to working on 
this issue and giving these countries the help they need to 
deal with the climate crisis. I mean, it is a crisis for them. 
And for the United States not to even make some kind of a 
statement, in terms of its foreign policy objectives, I think, 
is something that is heard overseas, and I think it is 
important for us to remedy that in our national statements.
    And let me just move on quickly. Despite some signs of 
progress in countries like Malaysia and Indonesia, we are 
seeing a number of troubling indicators on the democracy front 
in the Indo-Pacific. Election interference by the junta in 
Thailand, the persecution of the Rohingya in Burma, or human 
right abuses in the Philippine drug war, increasing 
restrictions on press freedom--are all signs of democratic 
backsliding.
    In previous East Asia Subcommittee hearings, Cory Gardner 
and I highlighted the challenges posed by China's repressive 
authoritarian model, and that model is now being exported 
around the region. The administration's budget request for 
foreign assistance resources for the Indo-Pacific is to double 
the budget request from the previous fiscal year. However, it 
is still nearly $200 million less than the amount dedicated to 
the region in 2018. How can we effectively counter 
antidemocratic efforts in the region if we still do not have 
robust funding to promote democracy and human rights in the 
Indo-Pacific?
    Ambassador Green. Thank you, Senator. And particularly as 
you stated the question early on in surveying the scene in 
Asia, I do not disagree with you. I mean, those are, I think 
that captures well some of the challenges that we are seeing.
    The Indo-Pacific strategy, our piece of the Indo-Pacific 
strategy, is focused on three objectives: fostering economic 
growth, obviously, but improving management of natural 
resources--that goes hand in hand with economic growth--but 
strengthening democratic systems. And so, we are working to 
develop tools on media integrity and literacy. We are working 
to support a civil society. The missing voice of civil society, 
quite frankly, in parts of Burma, I think is one of the great 
challenges. And, I think, also being very clear about what we 
see, from the imprisonment of the Uyghurs to--in my view, 
nothing has caused me more despair than the Rohingyas who have 
been left behind in places like Sittwe. I think we should be 
clear-throated on those challenges.
    Senator Markey. I will tell you that Senator Gardner and I 
are concerned, because, ultimately, these trends are being 
exacerbated. And, you know, we were able to pass, and the 
President signed, the ARIA legislation last year. And we know 
how robust China is going to be. And if we are not robust 
ourselves, then you do not have to be a genius to figure out 
how this whole thing plays out. So, by underfunding a lot of 
these programs, then we just wind up with the officials in 
these countries wondering: do we really care? And the money 
itself is, in fact, a statement that we would make. So, I would 
just encourage the administration to consider its commitments 
and ensure our funding is sufficient to match the magnitude of 
the challenge, because, otherwise, I am afraid it is a losing 
strategy.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Markey.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Administrator, back in our February hearing, you expressed 
initial support for the importance of convening an 
international donor summit and for coordinating a truly 
international response to Venezuela as humanitarian and refugee 
crisis. Why has this not happened yet?
    Ambassador Green. It is still something that I personally 
support and think we should be doing. Two things. We continue 
to be in close contact with Guaido's government, and want to 
make sure that they prioritize it, as well. Beyond that, we are 
still working with our partners at the State Department to get 
them fully on board. But, as you know, I think it would be a 
useful step.
    Senator Menendez. Yeah.
    Ambassador Green. I think it is----
    Senator Menendez. I am sorry to cut you off, only because I 
know we are going to have to go to vote. But, 
internationalizing a donors conference so that we send a 
message to the Venezuelan people that there is a hope after----
    Ambassador Green [continuing]. We have 53 other nations 
joining this----
    Senator Menendez [continuing]. More than recognize Guaido. 
They need to be part of it. So, I will press it with the 
Secretary.
    Let me move to Ethiopia, quickly. Assuming office just over 
a year ago, Prime Minister Abiy Ahmed undertook some pretty 
sweeping political reforms in the most populous country in the 
Horn of Africa. He freed thousands of political prisoners and 
journalists, he lifted the state of emergency, he allowed 
political opposition parties to return to the country. I mean, 
it is pretty remarkable. However, the transition remains 
fragile. If we continue to fail to support Abiy's efforts, the 
most profound political transformation on the continent may 
fail. What are USAID's conflict mitigation programs, activities 
related, in certain areas in conflict zones in Ethiopia? What 
are the goals of these activities? How many people are they 
reaching? Give me a sense of what we are doing there.
    Ambassador Green. Thank you, Senator.
    And it is interesting. If you would have told me, a year 
ago, that we would be looking at the Horn of Africa as being 
the opportunity area in Africa, I would have thought you were 
crazy. But, you are right. So, in Ethiopia, we have been moving 
quickly. Obviously, we continue to provide humanitarian 
assistance. We have 8 million people who are food insecure. 
But, we have a number of programs that we are pursuing with the 
invitation of Prime Minister Abiy. We have additional funding 
that we have put in for democracy, governance, human rights 
programs. We are also providing technical support to the 
attorney general and supreme court to expand those institutions 
so they are more independent in their decision-making and 
oversight capacity. We also have been supportive of civil 
society groups like IRI and NDI. They are now returned to 
Ethiopia. That is fairly recent. And they are trying to go back 
to their longstanding work to strengthen the democratic ethos 
at the community level.
    One of my great concerns is the fragility of Ethiopia, 
politically. There are still ethnic tensions, as you know very 
well. And so, we are looking to support institutions that 
promote reconciliation but also give people the opportunity to 
sort of weigh in and have a constructive investment in 
government.
    Senator Menendez. Well, we want to follow up with you on 
that.
    And then, lastly, I am going to submit, for the record, a 
series of questions about rescissions. I am deeply concerned 
that, even though the Congress keeps rebuffing the 
administration on spending, we see program funds that are 
frozen in the Northern Triangle, in Syria, in the West Bank, in 
Gaza, in Pakistan, and a whole host of other things. So, this 
thwarts the congressional intent that money is to be spent for 
these programs. And I am concerned about where rescissions are 
going. So, I am going to ask you that question, and I would 
like to get an answer in writing.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Menendez.
    Mr. Green, thank you so much for being here today. This has 
been one of our more enlightening hearings in the--even though 
the foreign assistance budget is one of the smallest slivers of 
the United States entire budget, the Federal budget, it really 
cannot be measured in dollars, and its impact is critical for 
America and for American interests around the world. We need 
your agency to be strategic, efficient, effective, and 
accountable, and we are glad to have you there because we know 
you pursue in those goals, just as we do.
    So, with that, for the information of members, the record 
will remain open until close of business on Friday.
    Senator Menendez, is that long enough for you to----
    Senator Menendez. Absolutely.
    The Chairman. All right.
    We will leave the record open until close of business on 
Friday. We would ask if you would get your responses in as 
quickly as possible, as it helps us as we move forward.
    So, with that, if I can find the gavel, we will close the 
hearing today. Thank you much.
    The hearing is adjourned.
    [Whereupon, at 11:25 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


               Responses of Hon. Mark Green to Questions 
                  Submitted by Senator James E. Risch

                         china's role in africa
    Question. Chinese economic projects--both in the physical and 
digital realms--continue to proliferate on the African continent as 
Beijing aggressively pursues its ``One Belt, One Road'' initiative 
around the world. Many of these China-funded projects are conducted 
under the auspices of development, but instead often result in 
crippling debt. How is USAID operating in this environment, 
particularly where partner countries are working with the Agency on 
their journeys to self-reliance, while also becoming increasingly 
reliant on Chinese financing?

    Answer. In an era of intensifying competition among global powers, 
including the People's Republic of China, the U.S. model for 
development is one of independence, self-reliance, and growth--not 
dependency, domination, and debt. We emphasize that our approach is 
true assistance that helps governments, civil society, and the private 
sector in our partner nations build self-sufficiency in a more dynamic 
future in which private enterprise drives economic growth. We aim to 
help governments and the public in our partner countries recognize the 
costs of alternative models, like those of China and Russia, that can 
weaken confidence in democratic and free-market systems, saddle 
countries with unsustainable debt, erode sovereignty, lead to the 
forfeiture of strategic assets, ignore the needs and concerns of local 
communities, and further the ambitions of authoritarian actors. Through 
programs such as Prosper Africa, Feed the Future, and Power Africa, the 
U.S. Agency for International Development (USAID) counters Chinese 
influence by providing mutually beneficial, alternative methods of 
development while encouraging private-sector investment.
    The administration not only will encourage African leaders to 
choose sustainable foreign investments, but also promote a grassroots 
approach that engages citizens in these decisions. USAID champions 
citizen-responsive, democratic governance and building strong 
communities to mobilize Africans to advocate for their own interests. 
As USAID works to foster overall self-reliance in a partner country, we 
will ensure we build the capacity of governments, civil society, and 
the private sector to make informed decisions about their choice of 
development partners.

                        humanitarian assistance
    I strongly support aid reforms that will help us stretch dollars 
farther, save more lives, and advance key interests, but I'll need a 
lot more information about the proposed reorganization of humanitarian 
assistance before I can throw my weight behind it.

    Question. Mr. Administrator, how is the proposed State-USAID 
humanitarian assistance coordination structure meant to function? Will 
USAID will need to get the Department's approval before responding to 
food crises or providing assistance to internally displaced persons, 
which are currently within your area of responsibility?

    Answer. The President's Budget Request for Fiscal Year (FY) 2020 
proposes the consolidation of all overseas humanitarian aid in a new, 
single, flexible International Humanitarian Assistance (IHA) account 
and the new Bureau for Humanitarian Assistance (BHA) at the U.S. Agency 
for International Development (USAID), with a new high-level, dual-hat 
leadership structure under the authority of the Secretary of State. 
These changes would allow the U.S. Government to respond seamlessly to 
the ongoing and emerging humanitarian needs of the most-vulnerable 
displaced people, including refugees, victims of conflict, stateless 
persons, and migrants worldwide. With this proposed structure, the U.S. 
Government would have a single, unified voice and message with the 
international donor community and implementing organizations to 
optimize outcomes in humanitarian crises.

    Question. Who is meant to lead the response in areas where there 
are both internally displaced persons and refugees, such as Colombia?

    Answer. With the changes proposed in the President's Budget Request 
for FY 2020, the responsibility for the implementation, administration, 
and management of all overseas humanitarian-assistance programming, 
including for both refugees and internally displaced persons (IDPs), 
would lie with USAID's new BHA, under the new IHA account. The IHA 
account would finance overseas assistance currently funded through the 
International Disaster Assistance (IDA) and MRA accounts, and under 
Title II of the Food for Peace Act. The IHA account would maintain all 
the IDA's authorities and receive expanded ones to cover all overseas 
refugee operations, including those currently funded through the 
Migration and Refugee Assistance (MRA) account. As such, USAID would 
remain the U.S. Government's lead Federal coordinator for responding to 
international disasters and would not need to seek the Department of 
State's approval before mobilizing in a crisis. The State Department 
would continue to manage programs to resettle refugees in the United 
States funded by the (MRA) account.

    Question. Do you believe the consolidated request for humanitarian 
assistance accurately reflects current needs and U.S. interests?

    Answer. We anticipate humanitarian needs will remain at 
unprecedented levels around the world. The President's Budget Request 
for FY 2020 reflects this reality, and includes $5.968 billion for the 
new IHA account. The Request takes into account resources requested in 
prior Fiscal Years in the current IDA and MRA accounts, and would 
enable USAID to maintain a level of resources comparable to that 
appropriated in the recent past. The amount requested through the IHA 
account would allow the United States to remain the largest single 
humanitarian donor to crises around the world, while asking other 
donors to contribute their fair share.

    Question. Are you anticipating major changes in humanitarian 
conditions in place like Iraq, Syria, Yemen, Venezuela, Congo, South 
Sudan, Central African Republic, Northern Nigeria, Burma, and 
Bangladesh that would support such a sizable reduction in U.S. 
humanitarian assistance?

    Answer. Our view is that this new model would leverage the 
comparative advantages of the State Department and USAID to assist and 
advocate for people in greatest need. The new proposed structure would 
enable the U.S. Government to execute consistently a response that 
monitors the performance of implementers, including United Nations 
agencies, in a uniform way; eliminate duplication or gaps in aid; and 
deploy a seamless and effective assistance strategy for all affected 
people.

    Question. What other donors have stepped forward to fill the void?

    Answer. The U.S. Government generously provided approximately one-
third of global humanitarian funding in FY 2017. Along with the State 
Department, USAID is working on diversifying the global humanitarian 
donor base and bringing new contributors into the current international 
system, including foreign governments and the private sector. The 
strategy is working, as other donor governments have recently increased 
their humanitarian contributions. For example, France's 2018-2022 
Humanitarian Strategy aims to make the French one of the top three 
European donors of humanitarian aid, and one of the top five donors 
globally, by increasing annual donations to C500 million ($560 million) 
by 2022. Canada's 2018-2019 budget represented the largest increase in 
Canadian foreign aid in 16 years, and included $738 million for 
humanitarian assistance. The Republic of Korea increased its 
humanitarian assistance by 50 percent from 2015 to 2018.

                                 africa
    Question. Ethiopia. The budget request identifies Ethiopia--which 
is currently undergoing a democratic transformation--as a priority 
country for assistance. How is USAID supporting this transition, and 
how is that reflected in the FY20 request?

    Answer. At a time of full-spectrum transition in the Federal 
Democratic Republic of Ethiopia, we are working closely with the new 
Government of Prime Minister Abiy Ahmed Ali to ascertain its highest-
priority needs and target our technical assistance to maximize our 
impact. We are focused on tangible and timely interventions to produce 
measurable results in a dynamic and fluid operating environment while 
attempting to balance funding for Ethiopia against an increasing number 
of global strategic imperatives.
    The President's Budget Request for Ethiopia for Fiscal Year (FY) 
2020 represents an increase from the Budget Request for FY 2019, which 
reflects the administration's recognition of the need for greater 
investments in democracy, rights, and governance during this time of 
transition. Moreover, we have funded many of the rapid-response 
interventions we have pursued through centrally managed funds and 
awards, which has expanded our capability to provide just-in-time 
technical assistance in key reform areas. We continue to consider the 
use of central funding to take advantage of rapid windows of 
opportunity in Ethiopia's democratic transition.
    Through these efforts and careful coordination with the 
international donor community, the U.S. Agency for International 
Development and the U.S. Government are well-positioned to provide 
catalytic support to the Government of Ethiopia and the Ethiopian 
people as they move toward a more inclusive and democratic future.

    Mozambique. Mozambique was just beginning to recover from Cyclone 
Idai--a disaster likened to Hurricane Katrina here in the U.S--when it 
was hit by a second, even stronger Cyclone Kenneth. USAID has mounted a 
robust response to both disasters: You've launched a DART, called in 
DoD to provide critical lift, and released nearly $60 million for 
relief in Mozambique, Zimbabwe, and Malawi.

    Question. What have we learned about disaster preparedness in the 
region? What were the key impediments to a more timely response?

    Answer. In light of changing weather patterns, the entire 
Mozambican coastline is now susceptible to cyclones, including areas 
historically shielded from storms. To increase preparedness for 
disasters in the region, the pre-positioning stocks of emergency relief 
and food commodities for immediate post-disaster distribution in 
cyclone-prone areas is critical. In addition, investments and 
improvements in SMS-based early-warning systems are needed to 
communicate effectively with populations in disaster-prone areas. 
Lastly, building codes and improved design plans must play a factor in 
the construction of cyclone-resistant structures.

    Question. Private donations are notably low for this response, as 
compared to other recent international disasters. Why? How can we help 
raise awareness of this plight?

    Answer. The U.S. Government experienced few impediments in its 
response to Cyclones Idai and Kenneth. An initial challenge, quickly 
overcome, was clearing incoming relief supplies at Mozambican airports. 
Additionally, after issuing a request for international assistance the 
Government of Mozambique (GoM) should facilitate the entry of 
humanitarian staff by conceding visas more rapidly, including upon 
arrival.

    Question. How has Cyclone Kenneth affected the already unstable 
Cabo Delgado region? Can humanitarian actors safely operate, given the 
presence of armed extremist groups in the region? Do you agree with the 
Government of Mozambique's insistence on sending security forces to 
``protect'' humanitarian operations?

    Answer. To date, Cyclone Kenneth has not had any major impact on 
stability in Cabo Delgado Province. Humanitarian agencies have put in 
place safety and security procedures that allow them to continue 
responding safely to needs in the Province. Lack of access by road and 
helicopter currently poses a larger challenge than the presence of 
extremist groups. The GoM no longer insists on providing armed escorts 
to accompany distributions of humanitarian assistance; relief agencies 
themselves can decide whether to use these escorts. Humanitarian actors 
are also coordinating their movements and distribution plans with the 
GoM's police forces.

                                 sudan
    Question. Sudan. What is USAID doing to facilitate a democratic 
transition in Sudan? Are you planning to assist the Transitional 
Government in preparing for elections? How much and what forms of 
assistance is available to help enable Sudanese citizens to finally 
realize their desire for an open and democratic society?

    Answer. The transition underway in the Republic of Sudan represents 
a significant shift in the relationship between the Sudanese state and 
its people. As we closely monitor negotiations between Sudanese protest 
leaders and the Transitional Military Council on the formation of a 
Transitional Government, the U.S. Agency for International Development 
(USAID) is exploring ways to adjust our posture to help influence 
events in a positive direction. Should a path toward a democratically 
elected government emerge from this process, USAID stands ready to 
support.
    For many years, USAID's modest development assistance in Sudan has 
focused on building civic capacity to engage in community-level 
conflict-mitigation in areas that have long suffered the devastating 
effects of violence (Darfur, the Nuba Mountains region, and Blue Nile 
state), supporting engagement by civil society in political processes, 
and building grassroots capacity for peace-building and community 
resilience to social and economic shocks. Our flagship conflict-
mitigation program, which focuses on community development and 
supporting civil society, is now in its fifth year, and will continue 
to be an important vehicle for our efforts in Sudan.
    On May 17, 2019, USAID participated in a meeting of like-minded 
international partners, the African Union, and the United Nations, 
hosted by the U.S. Department of State, to discuss how to influence the 
trajectory in Sudan in a positive way and begin to explore how to 
address the myriad economic and political crises Sudan faces. These 
discussions are ongoing in the hope that an interim, civilian-led 
government will soon be in place, and will inform USAID's thinking on 
next steps in Sudan.
    As the largest donor of humanitarian assistance to the people of 
Sudan, USAID continues to provide robust aid to address the emergency 
needs of the most-vulnerable Sudanese, and to press authorities in 
Khartoum and the state capitals to remove all obstacles to humanitarian 
access. Much of the country remains in desperate need of life-saving 
assistance because of protracted displacement and the impact of the 
economic crisis. However, our teams are continuing to explore 
opportunities to strengthen the resilience of the poorest.
    We also continue to seek creative ways to work with other donors in 
Sudan, including the Department for International Development (DFID) of 
the United Kingdom. For example, we are expanding the reach of a 
program in nutrition and livelihoods funded by DFID that encourages 
communities that are emerging from conflict to use agriculture and 
other sustainability methods to improve their resilience.

                      middle east and north africa
    Question. Iraq and Syria. The necessary fight against ISIS left 
vast areas of Iraq and Syria devastated. Shortly after the liberation 
of Raqqa, the CENTCOM Commander spoke of the need to ``consolidate 
gains'' in areas liberated from ISIS control. I know you worked closely 
with CENTCOM on aspects of this. Specifically, he spoke about the need 
to reconnect people to their governments, address basic needs, and 
prevent conditions that led to the rise of ISIS in the first place. The 
administration has engaged the international community for donations. 
However, what is our strategy to achieve stability in areas liberated 
from ISIS? I'd like you to speak to preventing conditions that will 
lead to more instability and violence.

    Answer. The approach of the U.S. Agency for International 
Development to helping areas liberated from the so-called Islamic State 
in Iraq and Syria (ISIS) achieve stability focuses on the following:

1. Helping Communities Heal and Restore:

   Addressing Immediate Needs: Working with our partners, we provide 
        drinking water, shelter materials and household items, medical 
        care, psycho-social support, food, and cash transfers to help 
        displaced families and those who are seeking to return home;

   Promoting Stabilization: We fund community-led efforts to address 
        local priority concerns, such as removing rubble and erasing 
        ISIS's propaganda; and

   Restoring Essential Services: We improve access to health care, 
        education, water, electricity, legal aid, and other essential 
        services through funding for staff, training, supplies, and 
        other needs.

2. Promoting Economic Recovery:

   Rehabilitating Critical Infrastructure: We repair electrical 
        infrastructure (power substations, transformers, transition 
        lines), water infrastructure (treatment plants, pumps, wells, 
        water networks), schools, health facilities, and other key 
        public infrastructure;

   Creating Access to Jobs and Markets: We provide vocational 
        training, job-placement, and support to start businesses; and

   Assistance to Small and Medium-Sized Enterprises: We support the 
        development of small and medium-sized businesses to increase 
        competitiveness and create jobs.

3. Preventing Future Atrocities:

   Strengthening Dialogue: We convene local, faith-based and national 
        leaders to address the barriers to the sustainable return of 
        those displaced by ISIS back to their homelands; and

   Supporting Justice and Reconciliation: Working with civil society 
        and the Iraqi Government we strengthen policies and processes 
        that address systemic issues that face disaffected populations 
        and promote justice.

    In addition, the Iraq Governance Performance and Accountability 
(IGPA) program funded by USAID provides technical assistance to the 
Government of Iraq (GOI) to improve its economic management and support 
Iraqi-led decentralization. The GOI has identified the decentralization 
of authorities and responsibilities from Baghdad to the Provincial 
Governments as a way to improve responsiveness to Iraqis' basic needs. 
Our programming also makes investments in the development of local 
civil-society organizations, which are key to facilitating improved 
linkages between Iraqi citizens and their governing authorities through 
advocacy.

                           western hemisphere
    Question. Venezuela. What contingency plans, if any, does USAID or 
the broader U.S. Government have in place now that security forces 
aligned with the Maduro regime have not allowed the delivery of 
international humanitarian assistance inside Venezuela?

    Answer. The United States is closely monitoring the situation in 
Venezuela and continues to apply all diplomatic, economic, and 
financial pressure possible in an effort to support the people of 
Venezuela to restore their freedom. We are committed to helping those 
in Venezuela who are suffering so needlessly because of the man-made, 
regime-driven crisis.
    We are working with Interim President Guiado's administration and 
the international humanitarian community to determine ways to safely 
deliver aid to people in Venezuela. Through decades of experience, the 
humanitarian team at the U.S. Agency for International Development 
(USAID) has learned that working with impartial, independent, and 
civilian-led aid organizations is the safest and most-effective way to 
reach people in need without putting them in danger.
    The United States also continues to provide robust funding for 
response efforts throughout the region as the growing impact of 
Venezuela's crisis spill into neighboring countries. As of May 8, 2019, 
the United States has provided more than $256 million in humanitarian 
and development assistance to support emergency efforts in affected 
countries and build the long-term capacity of their institutions and 
communities to host the approximately 3.7 million people who have fled 
Maduro's repression and chaos in Venezuela since 2014.
    Of this $256 million, USAID has provided more than $94 million in 
humanitarian assistance to support Venezuelans in the region as of May 
8, 2019. USAID's assistance primarily targets activities in health, 
nutrition, water, sanitation, hygiene, shelter, and food.

    Question. What are the challenges for humanitarian organizations 
operating in such a highly politicized environment? What are the 
potential security concerns and risks?

    Answer. A major challenge for humanitarian actors is that parties 
to a conflict can seek to interfere with, undermine, or foster 
suspicion about, the delivery of assistance. The illegitimate Maduro 
regime's narrative that any humanitarian assistance is a pretext for 
regime change politicizes aid in a way that puts workers at risk of 
harassment or arbitrary arrest. In addition, Maduro's insistence that 
no humanitarian crisis exists in Venezuela has led his venal regime to 
restrict access to data on health and food security and other 
statistics that would allow aid organizations to plan a response to 
verified needs more assuredly. Additional challenges in politicized 
environments in general include bureaucratic impediments imposed by 
corrupt regime officials and non-state armed groups, logistical and 
infrastructure limitations, high levels of insecurity, and intrusion by 
state security services. In Venezuela, symptoms of the ongoing economic 
collapse have a negative impact on the operations of aid agencies, 
including hyperinflation; frequent, unpredictable blackouts; and 
shortages of fuel.
    When working in challenging environments worldwide, the U.S. Agency 
for International Development, in collaboration with our implementing 
partners, ensures robust risk-mitigation measures are in place to 
safeguard U.S. taxpayer dollars appropriately.

    Question. To date, how much international humanitarian assistance 
has been delivered inside Venezuela through the United Nations and 
other organizations?

    Answer. As of May 8, 2019, the United Nations (U.N.) has approved 
$9.2 million through the Central Emergency Response Fund (CERF) for 
humanitarian assistance inside Venezuela. As of the same date, non-U.S. 
international donors have contributed more than $70 million to the 
response in Venezuela, according to the U.N.'s financial-tracking 
system.

                          democracy dividends
    During the last administration, USAID adopted a policy of 
disengagement from democracy and governance programs in ``closed'' and 
``closing'' spaces.

    Question. What role does USAID now play in advancing democracy and 
good governance in ``closed'' and ``closing'' spaces? How does this 
budget reflect your personal commitment to democracy?

    Answer. The U.S. Agency for International Development (USAID) 
continues to carry out our mandate as the lead democracy-assistance 
Agency for the U.S. Government, and we are fully committed to 
programming where democracy is at risk. USAID invested two-thirds (66 
percent) of our bilateral assistance in democracy, human rights, and 
governance (DRG) in Fiscal Year 2018 in restrictive or challenging 
environments characterized as ``closed autocracy'' or ``electoral 
autocracy.'' We also are addressing emerging challenges, such as 
democratic backsliding and resurgent authoritarianism that threaten 
U.S. influence, prosperity and national security. USAID consistently 
has led the U.S. Government's response to democratic openings, 
including rapid support to the 2017 political opening in the Republic 
of The Gambia, as well as more recent, swift, and targeted 
interventions to support the unprecedented reforms in the Federal 
Democratic Republic of Ethiopia. Additionally, USAID spends hundreds of 
millions of dollars to build the capacity of civil society and human-
rights defenders globally.
    USAID is a recognized leader in difficult environments, and I want 
to keep it that way. Last year, I scrapped the previous policy guidance 
on programming in ``closed and closing spaces'' because it was 
discouraging us from being bold in our defense of freedom. Our new 
global program on enabling and protecting civic space is spearheading 
efforts to understand and respond to emerging challenges to the 
freedoms of association, assembly and expression, including by piloting 
the use of machine-learning to forecast restrictions on civic space and 
test programmatic interventions to boost the resilience of activists.
    The President's Budget Request for Fiscal Year (FY) 2020 of $1.2 
billion (in the proposed Economic Support and Development Fund) for 
assistance in DRG represents a slight reduction of 2 percent compared 
to the proposal from FY 2019, consistent with an overall reduced 
Request. Nevertheless, the Budget Request will allow USAID to expand 
the number of countries where it is investing DRG resources, while at 
the same time focusing them on the democratic institutions and 
processes most critical to advancing self-reliance. The President's 
Budget Request for FY 2020 includes new DRG funding for 13 bilateral 
programs not included in FY 2019, including six in Africa and four in 
the Indo-Pacific region, as well as funding increases in other regions.

    Question. How could State and USAID better capitalize on 
opportunities to support democratic transitions in places like Sudan 
and Venezuela, including through the delivery of ``democracy 
dividends?''

    Answer. USAID has long experience with funding stabilization 
activities in transitional environments like the Republic of Sudan and 
Venezuela. These activities provide visible support for governments' 
engagement with citizens on local priorities and finance the 
implementation of community-driven development projects. Rapid and 
flexible technical assistance can enable citizens to participate in 
devising local development plans with government officials, conduct 
community consultations and oversight, and help establish much-needed 
infrastructure to provide services for citizens.
    The changes underway in Sudan represent a significant shift in the 
relationship between the Sudanese state and its people. As we closely 
monitor negotiations between Sudanese protest leaders and the 
Transitional Military Council on the formation of a Transitional 
Government, USAID is actively exploring ways to adjust our posture to 
help influence events in a positive direction. Should a path toward a 
democratically elected government in Sudan emerge from this process, 
USAID stands ready to provide funding, including for civil society; 
conflict-mitigation; and other efforts to rebuild democracy, such as 
constitutional development. In Venezuela, USAID's existing programs 
fund civil society and independent media to ensure the Venezuelan 
people have a voice and have access to information free from the malign 
influence and propaganda of the Maduro regime. USAID also is funding 
the only legitimately elected democratic institution in the country, 
the National Assembly, to help support Venezuela's return to democracy.
                               __________

               Responses of Hon. Mark Green to Questions 
                  Submitted by Senator Robert Menendez

                          tip report sanctions
    In countries where authoritarianism is gaining ground that also 
happen to be designated Tier 3 countries under the Trafficking Victims 
Protections Act . . .

    Question. Do you believe USAID programs that promote democratic 
freedoms and the exercise of fundamental human rights like freedom of 
speech, assembly and association should be suspended? Are these 
programs being suspended under the administration's pretext of being 
tough on human trafficking? Is there a specific USG written policy on 
what programs/funding to cut in Tier 3 sanction countries? Is there 
written guidance for missions and program staff? Is there oversight 
over what programs missions are cutting?

    Answer. The U.S. Agency for International Development (USAID) 
strongly believes that improving democratic, citizen-responsive 
governance in a country bolsters its long-term stability and economic 
prosperity. As part of our emphasis on building self-reliance, USAID 
views investments in democratic institutions, citizen-centered 
processes, and fundamental freedoms as key drivers of strengthening the 
commitment and capacity of governments, civil society, and the private 
sector in partner countries to take on their own development 
challenges.
    Human trafficking threatens public safety and our national 
security. The administration seeks to implement the restrictions on 
foreign assistance mandated by the Trafficking Victims Protection Act 
(TVPA) in a way that holds governments accountable for failing to meet 
the minimum standards to eliminate trafficking in persons.
    The TVPA exempts from restrictions programs that do not involve the 
governments of countries on the Tier Three list in the annual 
Trafficking in Persons Report published by the U.S, Department of 
State, and our activities limited to engagement with non-governmental 
organizations (NGOs) in those countries are continuing. In some cases, 
we are de-scoping programs away from governmental institutions, or to 
exclude governmental participants, so the activities may continue with 
NGOs only.
    The President's determination not to grant waivers under the TVPA 
provides the policy basis for the administration's implementation of 
the Act. Consistent with the President's determination, the U.S. 
Government will not provide assistance that is subject to the 
restrictions under the TVPA during Fiscal Year (FY) 2019. The U.S. 
Department of State and USAID have provided guidance to Bureaus, 
Missions, and Embassies on the application of the restrictions under 
the TVPA as they relate to existing and planned programs. In some 
cases, however, the administration has explored the use of available 
notwithstanding and other authorities to continue life-saving 
assistance and protect other foreign-policy and national-security 
priorities that would otherwise be subject to the restrictions under 
the TVPA.
                    central america assistance cuts
    The administration has called for continued engagement in Central 
America in order to address driving factors forcing people to flee 
their countries--including weak rule of law and high levels of criminal 
violence.

    Question. What do you believe are the root causes and motivations 
for migrants and asylum seekers from the Northern Triangle?

    Answer. Many push and pull factors drive attempted illegal 
immigration to the United States from Central America. Lack of 
opportunity, hunger and food-insecurity, widespread crime and violence, 
and high levels of corruption and impunity at all levels of government 
all play a significant role in people's decisions to leave their 
homelands.

    Question. Do you believe USAID's development assistance programs to 
improve food security, expand economic opportunity and provide youths 
alternatives to gang involvement are effectively addressing the root 
causes of migration?

    Answer. The development-assistance programs in Central America 
funded by the U.S. Agency for International Development (USAID) have 
improved food security, expanded economic opportunity, and provided 
young people with alternatives to criminal gangs in the communities in 
which we work. However, the President has made clear that the 
Governments of El Salvador, Guatemala, and Honduras have not done 
enough to prevent illegal immigration to the United States. The U.S. 
Government has urged them to make needed reforms to improve the 
security of their citizens, increase economic growth, and fight 
corruption and impunity. The administration is developing specific, 
additional steps to propose that the three Governments take to improve 
the security of their borders; combat human smuggling and trafficking, 
especially of children; receive and reintegrate their returned 
citizens; and further dissuades illegal immigration to the United 
States.

    Question. Are you confident that USAID's development programs are 
implemented effectively in the regions and communities where migrants 
and asylum seekers are fleeing from?

    Answer. The U.S Agency for International Development (USAID) is 
refining our programs continually to ensure we are addressing the areas 
of El Salvador, Guatemala, and Honduras with the highest rates of out-
migration. We rely on data provided by the International Organization 
for Migration and Customs and Border Protection (CBP) within the U.S. 
Department of Homeland Security to target our programs more precisely 
to the areas of highest out-migration and thereby enhance their impact. 
When funds become available, USAID will continue to use these data to 
refine our investments so they address the factors people themselves 
say are causing them to immigrate illegally to the United States, 
including by developing performance metrics that will make the 
reduction of relevant migration numbers a specific performance 
benchmark for our implementing partners.

    Question. Is there data supporting the suspension of all foreign 
assistance to Northern Triangle countries as an effective strategy for 
curbing migration?

    Answer. I am not aware of any relevant study or data that examine 
this particular question.

    Question. What is USAID communicating to our implementing partners, 
host country governments and assistance recipients on how this policy 
is being implemented? Will you confirm that the Secretary of State 
submitted to Congress numerous certifications affirming that Central 
American Governments are making progress addressing the drivers of 
migration?

    Answer. At the instruction of the Secretary of State, we are 
carrying out the President's direction regarding foreign assistance in 
El Salvador, Guatemala, and Honduras. The current review of all 
foreign-assistance funding from the U.S. Department of State and the 
U.S. Agency for International Development from Fiscal Year (FY) 2017 is 
intended to provide detailed data to the Secretary to determine the 
best way forward pursuant to the President's direction. Activities 
already planned or paid for under existing contracts, grants, and 
cooperative agreements funded by resources from FY 2017 are continuing 
during the review period, although the Department of State and USAID 
will not initiate any new activities.

    Question. In your testimony you mentioned that new review, that is 
serving as the pretext for the freeze on all foreign assistance to the 
countries of the Northern Triangle, aims to examine host country 
commitments . . . aren't the 7045(a)(4)(B) certifications, for which 
the Secretary of State has submitted nine to date (the most recent in 
September of 2018), granted on the basis of the host countries' 
commitments? If so, how will this separate review be different, or 
justified as necessary outside the certification process? Will you 
confirm that the Secretary of State submitted to Congress numerous 
certifications affirming that Central American Governments are making 
progress addressing the drivers of migration?

    Answer. I refer you to the U.S. Department of State for more 
information.

    Question. USAID published a report in May 2018 documenting how your 
programs are successfully advancing U.S. national interests by 
contributing to decreased homicides and improving governments' capacity 
to uphold the rule of law. Can you provide us with an overview of 
achievements?

    Answer. The U.S. Agency for International Development (USAID) has 
funded efforts in Central America to combat rampant crime and violence, 
reduce corruption and impunity, disrupt the activities of transnational 
criminal organizations, and provide greater economic opportunity. 
Examples of the results from these investments in Fiscal Year 2018 
include the following:

   USAID's assistance enhanced local economies by boosting private-
        sector exports and domestic sales by more than $73 million, and 
        helped businesses generate more than 18,000 new jobs;

   USAID's assistance strengthened the rule of law through support to 
        more than 600 local civil-society organizations; the training 
        of more than 1,200 human-rights defenders; improving case-
        management in more than 300 local courts; and training more 
        than 4,600 judicial personnel; and

   Along with investments from the host-country governments, other 
        donors, the private sector, and civil society, U.S. assistance 
        is contributing to dramatic decreases in homicide rates in El 
        Salvador and Honduras, including through cutting-edge 
        programming to prevent crime and violence, such as after-school 
        and pre-employment services and support to more than 140,000 
        at-risk youth across the region.

    Question. Did this report take into account, or identify, the 
regions and communities of Guatemala, Honduras, and El Salvador where 
many, if not most, migrants and asylum seekers are coming from? If not, 
why not?

    Answer. The U.S. Agency for International Development has used, and 
continues to use, data on apprehensions at the U.S. Southern border 
from Customs and Border Protection within the U.S. Department of 
Homeland Security and other sources to target our programs in the 
geographical areas of Centra America responsible for the highest out-
migration to the United States.

    Question. If so, why does the new review, that is serving as a 
pretext for freezing all assistance to the Northern Triangle, need to 
be done again?

    Answer. The President has made clear that the Governments of El 
Salvador, Guatemala, and Honduras have not done enough to prevent 
illegal immigration to the United States. Over the past 3 years, the 
U.S. Government has urged them to make needed reforms to improve the 
security of their citizens, increase economic growth, and attack 
corruption and impunity. The administration is working to develop 
additional steps to propose that the three Governments take to improve 
the security of their borders, combat human smuggling and trafficking, 
and further dissuade illegal immigration to the United States.

    Question. Who is conducting this new review? (OMB? State 
Department's F Bureau? National Security Council?) What is USAID's 
involvement or engagement in this review? What inputs or opinions are 
you providing? Will the diplomats and development experts at the U.S. 
missions to these countries be consulted for opinions and analysis 
based on their experiences?

    Answer. The President has made clear that the Governments of El 
Salvador, Guatemala, and Honduras have not done enough to prevent 
illegal immigration to the United States. Based on consultations with 
our Missions in these countries, the U.S. Agency for International 
Development (USAID) has provided detailed information on all of our 
programs in Central America to feed into a review of all foreign-
assistance funding sub-obligated into current agreements and awards by 
the U.S. Department of State and USAID during Fiscal Year 2017. This 
review is intended to provide detailed data to the Secretary to 
determine the best way forward pursuant to the President's direction. 
Once the review is complete, we will be able to share more information 
on the funding and programs implicated.

                          syria stabilization
    The President's FY20 budget zeroed out Syria Stabilization 
programs. These are programs that support efforts to provide safe 
drinking water, restoring schools, rubble removal, and demining areas 
so that Syrians can safely return to their communities.

    Question. Is working towards stabilizing Syria in the U.S. national 
interest?

    Answer. Stabilization is in the U.S. national interest, as it helps 
prevent the reemergence of the so-called Islamic State in Iraq and 
Syria. Stabilization assistance restores essential social services, 
such as water, electricity, health care, and education; provides for 
the removal of explosive remnants of war; supports local civil society 
and first-responders; and restores livelihoods and agriculture.

    Question. Is there a military solution to defeating ISIS?

    Answer. We defer to the U.S. Department of Defense to respond to 
this question.

    Question. Will ISIS ever be defeated without sustained diplomatic 
and development investments?

    Answer. The Coalition to Achieve the Enduring Defeat of the Islamic 
State in Iraq and Syria (ISIS) has much work left to do. Sustained 
diplomatic and humanitarian assistance is necessary to mitigate the 
conditions that could lead to a resurgence of ISIS.

    Question. Do you believe these programs were effective in 
countering violent extremism in Syria?

    Answer. The stabilization programming managed by the U.S. Agency 
for International Development (USAID) plays a demonstrable role in 
countering violent extremism, as evidenced by the inability of the so-
called Islamic State in Iraq and Syria (ISIS) to reconstitute in 
Northeast Syria. USAID's focus is on enabling our partners in the local 
community and building the capabilities of local governments to take 
command of their own future. USAID's activities help prevent a void for 
malign actors to fill, and also mitigates grievances that drove people 
to ISIS in the first place.

                                rohingya
    Question. In your written testimony to the committee, you referred 
to the Rohingya in Bangladesh as refugees. However, in your opening 
statement you referred to the Rohingya in Bangladesh as migrants, 
saying: ``In Bangladesh, we are urging the government to allow 
humanitarian organizations to provide migrants with a full range of 
support and services.'' In your view, are the more than 800,000 
Rohingya that have fled to Bangladesh since August 2017 refugees or 
migrants?

    Answer. The more than 800,000 Rohingya who have fled to the 
People's Republic of Bangladesh since August 2017 because of state-
sponsored violence in Burma are refugees.

               stage setting for 2019 rescission package
    The decision to freeze funds or end programs in the Northern 
Triangle, Syria, West Bank and Gaza, Pakistan, or via TIP sanctions, 
along with an ongoing ``Foreign Assistance Review'' conducted by OMB 
and the NSC, begs the following questions:

    Question. What other funds or programs is OMB and F Bureau looking 
to suspend?

    Answer. We refer you to the Office of Management and Budget and the 
Office of Foreign Assistance Resources at the U.S. Department of State.

    Question. What is the universe of FY18 USAID Spend and Operations 
Plans awaiting approval from F Bureau?

    Answer. The U.S. Agency for International Development (USAID) 
monitors the approval of Spend and Operational Plans (OPs) as part of 
how we plan, deliver, assess, and adapt our programming in a given 
region or country to achieve more effective and sustainable results, 
advance U.S. foreign policy, and support the Journey to Self-Reliance. 
As of May 17, 2019, 11 OPs still require approval by the Office of 
Foreign Assistance Resources at the U.S. Department of State. (See 
table below.)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



    Question. Can you give this committee any assurances that OMB will 
not send Congress a rescission package this year?

    Answer. We refer you to the Office of Management and Budget for 
questions on a possible recession.

                                 russia
    Question. Senator Graham and I have a bipartisan bill called the 
Defending American Security from Kremlin Aggression Act or DASKA. DASKA 
includes a reauthorization of the Countering Russia Influence Fund, 
which would provide assistance to European countries vulnerable to 
Kremlin interference. Would you support such an effort? From your 
perspective, what types of programs are necessary to address Putin's 
malign influence efforts?

    Answer. The U.S. Agency for International Development (USAID) 
appreciates your leadership on the Defending American Security from 
Kremlin Aggression Act, and we look forward to working with you on this 
legislation. This measure complements USAID's efforts to counter malign 
Kremlin influence in the region through the Countering Russia Influence 
Fund and other related programs. USAID views malign Kremlin influence 
as the single-greatest challenge that threatens development progress in 
Europe and Eurasia.
    Guided by the Development Framework for Countering Malign Kremlin 
Influence (CMKI), USAID's programming in Europe will strengthen the 
democratic and economic resilience of countries targeted by Moscow and 
work to mitigate Russian-sponsored attempts to undermine a range of key 
European institutions. Experience has shown that the Kremlin's malign 
tactics in different countries evolve in response to perceived 
vulnerabilities. The Framework focuses on key sectors for development 
in Europe and Eurasia, including democracy, the information space, and 
the economic and energy sectors. Examples of current programs that 
counter malign Kremlin influence include providing additional resources 
to central election commissions to strengthen their cyber defenses 
against Russian-backed hacking attempts; supporting investigative 
journalists to expose corruption instigated by the Kremlin; bolstering 
independent media networks and enhancing media literacy; promoting the 
diversification of energy resources; and encouraging transparent 
business and financial regulation to reduce opportunities for 
corruption.

                              afghanistan
    Last month, Reuters reported that Secretary Pompeo is accelerating 
a plan to cut up to half of the workforce at the U.S. Embassy in Kabul. 
This comes alongside negotiations with the Taliban where their main 
demand is U.S. withdrawal from the country.

    Question. Coming in the middle of negotiations, what signal would 
you say a large embassy drawdown sends to the Taliban, the people of 
Afghanistan, and to our allies who have fought side by side with us for 
17 years?

    Answer. The U.S. Agency for International Development (USAID) is 
reviewing our current assistance program in Afghanistan, and has 
notified Congress of a change in our staffing posture in Kabul 
consistent with the Secretary's direction to align our presence with 
core U.S. national-security interests and achieve our most-important 
objectives. These core objectives include supporting the Afghan peace 
process and preserving the flexibility to invest in the implementation 
of an eventual peace settlement; preserving state stability, including 
by bolstering citizen-responsive, democratic governance to guard 
against the conditions that enable the creation of terrorist safe 
havens; assisting the transition to Afghan self-reliance by promoting 
growth focused on exports and led by the private sector; and helping 
civil society to deliver core functions customarily provided by 
government. Our goal is to refine our portfolio of core activities to 
align with these priorities more tightly, to respond nimbly to changing 
needs in Afghanistan.

    Question. Will this reduction in the workforce at Embassy Kabul be 
coupled with a reduction in foreign assistance to Afghanistan?

    Answer. We will determine the precise levels for future assistance 
and the exact programs that will make up our streamlined portfolio in 
Afghanistan in the coming months, after internal consultations within 
the U.S. Government, discussions with the Afghan Government, and 
conversations with Congress. Our initial analysis indicates that it 
should be possible to support our primary goals and still lower 
assistance levels responsibly and strategically over the next few 
years. The U.S. Agency for International Development and the U.S. 
Department of State will brief the Committee in detail once this review 
process is complete.

    Question. If so, how will you pay for the peace deal?

    Answer. The U.S. Government interagency supports the peace process 
in Afghanistan with the tools that pertain to each institution's 
respective responsibilities and portfolio. Overall efforts at the U.S. 
Embassy in Kabul, led by Ambassador Bass, benefit from the coordination 
of the Peace and Reconciliation Working Group (PRAG) and the Embassy's 
Peace and Reconciliation (PARS) Section, which includes representatives 
from all relevant parts of the Embassy. As part of the posture 
adjustment, the Embassy assessed assistance programs and funding to 
ensure they could respond flexibly to emerging priorities related to 
peace and reconciliation.

    Question. What signal does a reduction in personnel and resources 
send the Afghan Government and public?

    Answer. This review is in line with President Ghani's January 2019 
letter to President Trump that called for a review of U.S. assistance 
in Afghanistan. The U.S. Government consistently has messaged 
throughout the review that our commitment to Afghanistan remains 
steadfast, and that its purpose is to ensure our assistance is focused 
and productive.

    Question. Can you explain how reducing the U.S. footprint in 
Afghanistan, ahead of the conclusion of peace negotiations, services 
the strategy for reaching a peace deal?

    Answer. The U.S. Agency for International Development (USAID) 
recommends a continued, but reduced assistance portfolio, which will 
support the Afghan peace process by creating the conditions necessary 
for lasting stability, including in newly secured areas. By empowering 
women, strengthening civil society, and addressing the delivery of 
basic social services, health, and education, USAID will help the 
Afghan Government to demonstrate accountability to its citizens while 
preventing backsliding into conflict. To ensure USAID is well-
positioned to contribute to these outcomes, our subject-matter experts 
are identifying lessons-learned in recent programming in peace and 
reconciliation in other countries, such as Colombia, to inform the 
design of future post-peace projects; reviewing our current and planned 
portfolio to help the Mission modify and adapt our investments to 
prepare for peace; and identifying any gaps in our current peace-
support programming.

                    orphans and vulnerable children
    The President's Budget request proposes to eliminate funding for 
orphans, and otherwise vulnerable children, even including those who 
are blind or otherwise disabled.

    Question. What is the rationale for eliminating assistance for 
orphans and vulnerable children? How many children are supported with 
current funding? What activities are the agency currently implementing 
which USAID will no longer execute if Congress appropriated FY20 
President's Request, or lack thereof, for orphans and vulnerable 
children?

    Answer. As in the past, the President's Budget Request for Fiscal 
Year (FY) 2020 does not propose funds specifically for orphans and 
vulnerable children.
    However, under Congressional direction, programs funded by the U.S. 
Agency for International Development (USAID) that support orphans and 
vulnerable children have achieved significant results. For example, in 
FY 2018, USAID directly financed services for over 38,000 vulnerable 
children and 23,000 caregivers. In 2018, we also trained close to 
39,000 providers and strengthened over 1,400 organizations that offer 
services to vulnerable children.
    USAID also works to strengthen child-protection and social-service 
systems more broadly to better serve all children in need. The Child 
Blindness Program supports approximately 800,000 children a year 
through the continuum of pediatric eye care, which includes screening 
for vision impairment, the provision of eyeglasses, sight-restoring 
surgery, education and rehabilitation services, and the development of 
breakthrough solutions and technologies to prevent and treat child 
blindness.
    USAID is using our current funding for vulnerable children to 
support the three objectives of the new Advancing Protection and Care 
for Children in Adversity: A U.S. Government Strategy for International 
Assistance: 1) Build Strong Beginnings; 2) Put Family First; and, 3) 
Protect Children from Violence. Across all objectives, the Strategy 
promotes strengthening families as one of the best investments to 
eliminate extreme poverty, boost economic growth, promote healthy 
societies and human dignity, and help people emerge from humanitarian 
crises.

                       inspector general funding
    Question. For the last 2 years, USAID's Inspector General has noted 
that the amount provided in the President's budget request is not 
sufficient for the Office of the Inspector General (OIG) to properly 
execute its oversight duties. According to the Inspector General, the 
proposed $4 million cut to the OIG in the President's FY 2020 Budget 
request would require the OIG to reduce the number of audits it 
conducts and recommendations it makes. This is especially concerning 
considering that for every dollar Congress invests in agency inspector 
generals, their offices recover $17 in cost savings. Given this 
assessment, what steps are you taking to ensure USAID's Inspector 
General office is properly resourced and that we maintain 
accountability in our foreign assistance programs?

    Answer. I refer you to our Office of the Inspector General for your 
question on its resources.

                            nagorno-karabakh
    Question. Last year, I supported $6 million in assistance to 
support pressing humanitarian needs in Nagorno-Karabakh and to find a 
peaceful solution to the frozen conflict between Armenia and 
Azerbaijan. With regard to demining activities, the humanitarian group 
HALO Trust estimated that the region is likely achieve mine-free status 
this year--so it is critical to ensure that U.S. assistance continues 
for this life-saving work. How is USAID supporting these humanitarian 
needs and supporting peace in this region?

    Answer. The U.S. Agency for International Development (USAID) 
continues to work with the U.S. Department of State on solutions to 
advance peace in Nagorno-Karabakh (NK) and sustain gains following 
Armenia's political transition last Spring. Currently, USAID's 
assistance to victims of the conflict in Nagorno-Karabakh (NK) focuses 
solely on supporting demining through Halo Trust.
    As a direct result of USAID's assistance, Halo Trust claims that an 
estimated 97.9 percent of the known mined areas within the boundaries 
of traditional NK (the former Soviet oblast) are now mine-clear as of 
September 2018.

       role of development in the administration's africa policy
    In remarks at the U.S. Institute for Peace last year, then Under 
Secretary of State Tom Shannon articulated the administration's four 
strategic purposes in Africa: Advancing Peace and Security; Countering 
the Scourge of Terrorism; Increasing Economic Growth and Investment; 
and Promoting Democracy and Good Governance.

    Question. Increasing Economic Growth and Investment and poverty 
alleviation are not necessarily one and the same. What role does 
development play with regards to the administration's four strategic 
purposes? What do you see as USAID's role in countering terrorism and 
violent extremism? How does this budget support that role?

    Answer. Carefully designed development assistance from the U.S. 
Agency for International Development (USAID) is critical to the 
administration's four strategic purposes in Africa. At the U.S. 
Institute for Peace, former Under Secretary Shannon specifically 
mentioned easing the way for economic growth and investment, which 
includes USAID's work through three regional Trade and Investment Hubs. 
In addition, with the roll-out of the White House Strategy for Africa 
in December 2018, the U.S. Government will be implementing a new 
initiative, Prosper Africa, which looks to increase significantly two-
way trade and investment between the United States and countries in 
sub-Saharan Africa. Sustained economic gains anchor USAID's promotion 
of democracy and citizen-responsive governance, and demonstrate 
positive impact for the citizens of our partner countries. In a similar 
vein, reducing the threat of terrorism maintains the conditions for 
economic activity while fostering opportunities for youth and 
marginalized communities to engage more fully in economic 
opportunities.
    Many of the biggest external security threats the United States 
faces--including terrorism, pandemics, and transnational organized 
crime--incubate and thrive in weak, failing, and failed states. USAID 
promotes U.S. national security by strengthening institutions and 
citizen-responsive governance, improving the delivery of basic social 
services, fostering women's empowerment, and promoting economic and 
social resilience.
    As noted in USAID's policy titled, The Development Response to 
Violence Extremism and Insurgency, the Agency has a distinct and 
critical role in addressing the national-security issues related to 
countering violent extremism. USAID designs and deploys development 
tools to respond to the drivers of violent extremism and terrorism in 
parts of Africa, such as the Horn, the countries of the Sahel, and the 
Lake Chad Basin, where the threat of terrorism is growing. As the 
United States pushes to counter the so-called Islamic State, Boko 
Haram, Jama'a Nusrat ul-Islam wa al-Muslimin, and others, defeating 
them militarily on the battlefield is not enough; we must also address 
the ideology and tactics these groups employ to attract new recruits, 
as well as the underlying social, political and economic conditions 
that fuel radicalization to violence. USAID reduces vulnerability to 
violent extremism by strengthening the capacity of African 
institutions, amplifying credible moderate voices, and increasing 
community cohesion in areas that are at greatest risk of falling under 
the sway of radical influence.
    USAID has demonstrated a commitment to countering violent extremism 
in Africa over the years through the budget process. USAID's 
investments provide a sustained approach and build trust and 
partnerships with key actors at the national, local, and community 
level across the African continent. The President's Budget Request for 
Fiscal Year 2020 proposes $41.8 million in funding to counter violent 
extremism in Africa.

    The current National Security Strategy further elaborates on the 
promoting Democracy and good governance in Africa, stating that, ``We 
will encourage reform, working with promising nations to promote 
effective governance, improve the rule of law, and develop institutions 
accountable and responsive to citizens . . . '' However, the 
administration's request for the past two fiscal years has been less 
than half that amount ($330 million) appropriated in FY17.

    Question. How do you propose to achieve the stated policy goals of 
the administration for Africa with such a drastic reduction in the 
democracy and governance budget? What could we realistically expect to 
achieve with this limited investment if Congress were to appropriate 
the levels that the administration has requested?

    Answer. The administration's Strategy for Africa and the 
President's Budget Request for Fiscal Year (FY) 2020 promote democracy, 
human rights, and good governance in sub-Saharan Africa. While lower 
than previous years, the Budget Request's proposed level for democracy, 
human rights, and governance in FY 2020 as a percentage of overall 
funding for Africa is equal to or greater than the ratios from FY 2011-
FY 2016. The proposal reflects the administration's recognition of the 
importance of citizen-responsive governance to the success of all 
development efforts in Africa within a constrained budget environment.
    We will continue to work with our partners to leverage the U.S. 
Government's investments and ensure continued support for democracy and 
human rights, including the promotion of citizen-responsive governance 
across to help guarantee progress in economic growth, health, and 
education. For example, many Missions of the U.S. Agency for 
International Development (USAID) in sub-Saharan Africa have developed 
close working relationships with other donors, which have led to 
jointly funded activities. We will continue to seek out these 
opportunities and build new partnerships with international and 
domestic organizations to support governments, civil society, and the 
private sector in African countries on the Journey to Self-Reliance.
    The President's Budget Request will enable USAID to advance 
democracy and citizen-responsive governance in sub-Saharan Africa by 
promoting the rule of law, credible and legitimate election processes, 
a politically active civil society, and accountable and participatory 
governments. USAID collaborates closely with colleagues at the U.S. 
Departments of State and Defense to ensure our funding addresses the 
democratic deficiencies that contribute to transnational threats, 
fragility, conflict, and instability. For example, USAID's programs 
complement diplomatic efforts that strengthen governance institutions 
and protect the democratic and development gains made across the 
continent. The Budget Request will also enable USAID to continue 
funding upcoming political processes in countries across sub-Saharan 
Africa, including in the Democratic Republic of Congo and the Republics 
of Mali, Nigeria, and Zimbabwe, all of which are facing pivotal 
transitions. This includes programs that will improve the transparency 
and accountability of electoral institutions, and engage all 
stakeholders--parties, candidates, civil society, and voters--to 
participate in political processes and use appropriate channels to 
resolve disputes peacefully.

         promoting effectiveness through strong environmental 
                and social safeguards for usaid projects
    Question. Sustainable and effective development is only possible 
when project design and implementation properly accounts for 
environmental, social, and human rights risks. This includes not just 
analysis at the project approval stage, but also ongoing monitoring as 
well as accountability and remedy if negative impacts occur. Although 
USAID has some environmental and social standards, the agency lacks a 
comprehensive set of safeguard policies. Considering the proposed 2020 
USAID budget, what steps will you take to address this gap and ensure 
that USAID projects follow strong environmental and social safeguards?

    Answer. The U.S. Agency for International Development (USAID) 
remains committed to strong environment and social safeguards in all 
our programming. Specifically, USAID fully implements the environmental 
safeguards required by Section 117 of the Foreign Assistance Act, as 
amended, and Section 216 of Title 22 of the Code of Federal 
Regulations, in accordance with Executive Order 12114 and the 
environmental-impact principles of the National Environmental Policy 
Act of 1970. In accordance with operational guidance under Chapter 204 
of USAID's Automated Directives System (ADS), ``Environmental 
Procedures,'' USAID's Activity Managers, Contract Officer's 
Representatives, and Agreement Officer's Representatives, in 
consultation with the Agency's officers who perform environmental-
impact assessments, ensure our Operating Units consider, monitor, and 
mitigate effectively the potential adverse environmental and social 
impacts of our funding actions. Furthermore, USAID is in the process of 
revising ADS 204 to improve and advance our continued commitment to 
analyzing and mitigating the possible impact of our programs on the 
environment and local communities.

              ensuring accountability for usaid's projects
    Question. Ensuring accountability throughout USAID's operations has 
been one of your top priorities as USAID Administrator. However, USAID, 
unlike OPIC and the soon-to-be operationalized U.S International 
Development Finance Corporation, currently does not have a grievance 
office, also known as an independent accountability mechanism, to 
receive complaints from communities that may have been negatively 
impacted by USAID's activities. An accountability mechanism for USAID 
would help facilitate remedy for harmed communities and enable people 
to productively move forward, which furthers USAID's development 
mandate, strengthens its institutional legitimacy, and protects the 
U.S. image abroad. Will you commit to developing an accountability 
mechanism for USAID in the next fiscal year?

    Answer. Accountability is essential to all of our programming at 
the U.S. Agency for International Development (USAID). As such, USAID 
uses multiple avenues to ensure accountability in our programming to 
beneficiaries, stakeholders and taxpayers. In addition, USAID adheres 
to robust principles of monitoring to ensure the ongoing and systematic 
tracking of data and information relevant to our strategies, projects, 
and activities.
    For our programs to be effective and to further our development 
mandate, I agree USAID must be able to adapt in response to changes and 
new information. Adaptive management in Missions and Bureaus requires 
different tools, depending on the programmatic context. For example, 
USAID has developed Guidelines on Compulsory Displacement and 
Resettlement in USAID Programming, which describe best practices and 
tools intended for use by USAID's Operating Units and their partners at 
all stages of the Program Cycle when USAID's programming leads to the 
displacement and resettlement of legitimate landholders who do not have 
the genuine right or ability to refuse. Ensuring that compulsory 
displacement and resettlement avoids, minimizes, and mitigates the risk 
of impoverishment of affected legitimate landholders is critical to 
achieving good development outcomes. The Guidelines are consistent with 
international good practices established over several decades.
    Further, USAID's Environmental Compliance Procedures (22 CFR 216) 
identify resettlement as a class of action with a ``significant 
effect'' on the environment, which requires either an Environmental 
Assessment (EA) or an Environmental-Impact Statement (EIS). Each of 
these documents forces our staff to consider the impact of development 
upon communities and demonstrates how USAID's programming incorporates 
these considerations into our work and mission.
    In addition, the hotline operated by the Office of the USAID 
Inspector General (OIG) continues to accept tips, allegations, and 
disclosures from all sources about potential fraud, waste, abuse, or 
mismanagement in USAID's programs and operations.
    Ultimately, USAID's programs advance freedom and dignity by 
assisting governments and citizens to establish, consolidate, and 
protect citizens-responsive, democratic institutions and values. 
Participatory and accountable governance, the rule of law, authentic 
political competition, civil society, human rights, and the free flow 
of information are the keys to strengthening communities' ability to 
engage productively in their own development.

        fulfilling usaid's national action plan on responsible 
                      business conduct commitments
    Question. You have often touted the importance of engaging the 
private sector in international development. For private sector-led 
development to be effective and sustainable, private sector actors need 
to follow best practice regarding environmental, social, and human 
rights standards as well as develop mechanisms for negatively impacted 
communities to seek redress. How are you ensuring that USAID 
effectively promotes responsible business conduct in development and 
fully implements (and exceeds) its National Action Plan commitments?

    Answer. In alignment with the National Action Plan on Responsible 
Business Conduct led by the Office of Commercial and Business Affairs 
at the U.S. Department of State, the U.S. Agency for International 
Development (USAID) published a new Private-Sector Engagement (PSE) 
Policy in December 2018. The Policy includes a focus on promoting 
responsible business practices, and states: ``This policy complements 
U.S. and international initiatives focused on responsible business 
conduct, including the United Nations (U.N.) Guiding Principles on 
Business and Human Rights; the Organization for Economic Co-operation 
and Development's Guidelines for Multinational Enterprises; and the 
U.N. Global Compact. In implementing this policy, USAID will promote 
the importance of responsible, environmentally friendly, inclusive, and 
transparent business practices, and seek to collaborate with those 
companies that serve as global leaders in bringing shared value to, and 
acting responsibly in the communities where they do business. Moreover, 
USAID will examine these considerations when we conduct due diligence 
and assess reputational risks.''
    USAID's PSE Policy defines ``PSE,'' in part, as ``holding the 
private sector accountable for making inclusive business investments 
that have a positive social and environmental impact on communities,'' 
and it requires that all USAID staff and partners who engage in PSE 
conduct due diligence when establishing formal partnerships: ``In 
conducting due diligence, USAID should carefully consider issues of 
additionality and shared ethics, including upholding responsible 
business practices, environmental protection and respect for human 
rights.''
    As USAID implements this new Policy, the Agency continues to have a 
strong focus on implementing and exceeding its commitments to the 
National Action Plan on Responsible Business Conduct. Examples of that 
work include the following:

   Addressing Illegal, Unreported, and Unregulated Fishing: Through 
        our Regional Development Mission for Asia, USAID is working 
        with the private sector to increase transparency in seafood 
        supply-chains as a strategy for countering illegal fishing, 
        improving labor conditions on fishing vessels, and improving 
        the sustainable management of fisheries. This work has involved 
        a partnership with Thai Union, the third-largest seafood 
        company in the world. In Indonesia, USAID is working with 
        Bumble Bee and Anova Seafoods to pioneer new blockchain 
        technology to enable DNA barcoding and smart contracts that 
        give specific resource rights to communities or fishers. While 
        blockchain is still in its infancy, this partnership is 
        advancing technological innovation that not only is changing 
        the way goods travel around the world, but also having a 
        positive impact on ecosystems and the lives of people in source 
        countries. In this way, USAID is turning negative externalities 
        into positive ones for development through private-sector 
        partnerships that increase the commercial viability of 
        environmentally sustainable fishing practices.

   Addressing Wildlife Crime: USAID works with the private sector to 
        keep illegal wildlife and wildlife products out of legitimate 
        business lines. Our ROUTES partnership with the transportation 
        sector, coordinated by TRAFFIC, reduces the use of businesses 
        in the illegal transport of wildlife and wildlife products. The 
        partnership provides targeted data analytics about flight 
        routes used by traffickers, builds the capacity of airline and 
        airport personnel by giving them the necessary tools and 
        information to detect crime, raises awareness among staff and 
        clients, and embeds best practices in combating wildlife 
        trafficking within the existing policies of transport 
        companies. USAID also works with the technology sector to 
        detect and remove illegal wildlife products advertised for sale 
        on social-media platforms.

   Promoting Responsible Trading of Minerals: USAID's Responsible 
        Minerals Trade (RMT) Program works to break the link between 
        conflict in the Eastern Democratic Republic of Congo (DRC) and 
        the minerals trade, in coordination with other U.S. Government 
        Departments and Agencies, the Congolese Government, other 
        donors, the private sector, and civil society. In 2010, the 
        U.N. reported that almost every mine site in Eastern DRC was 
        under the control of armed groups. Since that time, USAID has 
        supported the validation of more than 600 artisanal and small-
        scale mine (ASM) sites as conflict-free. USAID, along with the 
        U.S. Departments of State and Labor, also established the 
        Public-Private Alliance for Responsible Minerals Trade (PPA), a 
        multi-stakeholder initiative that promotes the responsible 
        sourcing of gold, tin, tantalum, and tungsten in the DRC and 
        the Great Lakes Region. By 2017, an estimated three out of four 
        tin, tantalum, and tungsten sites in the region were free of 
        the control of armed groups. In addition to the security 
        improvements, the conflict-free supply-chains have also 
        generated an important legal source of revenue. In 2018, 
        validated conflict-free mine sites in the DRC legally exported 
        approximately 15,800 tons of tin and tantalum worth over $285 
        million. In 2019, USAID supported the very first export of 
        conflict-free gold to the United States from the Eastern DRC 
        through a private-sector-led gold supply-chain that involves 
        only U.S. companies.

    USAID's current programming is scaling-up the export and sale of 
        conflict-free, artisanal gold from the Eastern DRC by 
        developing market linkages between end-users and ASM 
        cooperatives to benefit economically disadvantaged communities, 
        encourage legitimate international mineral trade from the DRC, 
        and reduce conflict. USAID is also refitting and improving 
        current methods of validating mine sites to ensure long-term, 
        verifiable, and transparent conflict-free supply-chains from 
        the DRC. USAID continues to be part of the multi-sector Public-
        Private Alliance for Responsible Minerals Trade (PPA) to 
        encourage responsible sourcing from the region by end-users and 
        other supply-chain actors.

   Promoting Responsible Land-Based Investment: An emerging global 
        consensus holds that responsible agricultural investment 
        requires businesses and governments to recognize and respect 
        local land and resource rights. USAID played a leading role in 
        working with the global community through the U.N. Committee on 
        World Food Security to develop guiding principles and best 
        practices for promoting responsible agricultural investment and 
        respecting and protecting legitimate tenure rights. Through 
        training and technical assistance, research and evaluation, 
        policy reform, and pilot projects, USAID is committed to 
        implementing the Principles for Responsible Investment in 
        Agriculture and Food Systems (RAI) and Voluntary Guidelines for 
        the Responsible Governance of Tenure of Land, Fisheries, and 
        Forests (VGGT). These instruments create important standards of 
        practice that protect people and communities and create an 
        enabling environment that promotes broad-based economic growth 
        and reduces extreme poverty.

    As a result, USAID developed the Operational Guidelines for 
        Responsible Land-Based Investment, a tool to provide more 
        specific and practical guidance to execute the guiding 
        principles of the RAI. The document describes USAID's 
        recommendations for best practices related to due diligence 
        for, and the structuring of, land-based investments, with the 
        goal of reducing risks and facilitating responsible projects 
        that benefit both the private sector and local communities. The 
        Guidelines also can help companies identify practical steps to 
        align their policies and actions with provisions of the VGGT; 
        the International Finance Corporation's Performance Standards 
        on Environmental and Social Sustainability; and other relevant 
        instruments, including the U.N. Guiding Principles on Business 
        and Human Rights (UNGP).

    In addition, USAID is currently working with local communities and 
        the private sector to strengthen land rights and support 
        responsible land-based investment projects in the Republics of 
        Ghana, Kenya and Mozambique.
                               __________

               Responses of Hon. Mark Green to Questions 
                Submitted by Senator Benjamin L. Cardin

                            central america
    The President's budget requests a nearly 30 percent cut in foreign 
assistance over 2018 enacted levels and now the White House has 
suspended aid to El Salvador, Guatemala, and Honduras entirely.

    Question. Given that the administration has identified Central 
American migration as a top priority, how can we cut off the funds that 
address the root causes of this migration?

    Answer. As I said during my testimony, the situation at the U.S. 
Southern Border frustrates me. We have been working with the U.S. 
Department of State to implement the administration's policy related to 
out-migration from Central America. The President has made clear that 
the Governments of El Salvador, Guatemala, and Honduras are not doing 
enough to prevent illegal immigration to the United States. Over the 
past 3 years, the U.S. Government has urged these Governments to make 
needed reforms to improve the security of their citizens, increase 
economic growth, and address corruption and impunity. We are engaging 
actively with the three Governments to identify specific, additional 
steps they can take to improve the security of their borders, combat 
human smuggling and trafficking, and further dissuade illegal 
immigration to the United States. The U.S. Agency for International 
Development (USAID) is working hard to develop new metrics specifically 
tied to out-migration so that our programs in Central America can be 
more targeted and effective. USAID is confident that we are part of the 
answer to address the situation, but our assistance is most effective 
when we see buy-in from host-country governments.

    Question. Much of this funding goes to supporting efforts to combat 
gangs and drug trafficking. What effects will reducing law enforcement 
capacity have on gangs' ability to operate?

    Answer. The U.S. Department of State is reviewing all of the 
foreign-assistance funding from Fiscal Year 2017 that its Bureaus and 
the U.S. Agency for International Development (USAID) sub-obligated 
into current agreements and awards in El Salvador, Guatemala, and 
Honduras. This review is intended to provide detailed data to Secretary 
Pompeo so he can determine an appropriate way forward pursuant to the 
President's direction. Once the review is complete, we will be able to 
share more information on the funding and programs implicated.

    Question. Foreign assistance is not a gift. Very little of it flows 
through central governments and much of our funding supports non-
profits which help citizens hold their governments accountable. How 
does cutting off this assistance provide incentive to Central American 
Governments to more fully cooperate with the United States?

    Answer. This administration desires a prosperous, safe Central 
America. Migration flows from the region continue to increase, and tens 
of thousands of people arrive at the U.S. Southwest Border every week, 
according to data from U.S. Customs and Border Protection within the 
U.S. Department of Homeland Security. President Trump determined the 
Governments of El Salvador, Guatemala, and Honduras are not doing 
enough to prevent illegal immigration, and the Secretary of State has 
directed the U.S. Department of State and USAID to cease obligating new 
funds for those three countries and to reprogram funds from Fiscal Year 
2018 to other administration priorities. The Department of State is 
actively engaging the three Governments to urge them to increase their 
efforts to enhance the security of their borders, increase efforts to 
combat human smuggling and human trafficking, receive their returned 
citizens, implement public-information campaigns to dissuade illegal 
immigration to Mexico and the United States, improve economic growth 
and citizen security, and strengthen governance and judicial capacity.

    Question. As USAID reviews these programs, can you please explain 
how missions in those countries have been consulted for their expert, 
on-the-ground perspectives on whether those programs have been 
effective in reducing poverty and violence?

    Answer. The Missions of the U.S. Agency for International 
Development (USAID) in El Salvador, Guatemala, and Honduras have 
provided detailed information on all of our programs in the three 
countries to contribute to a review of all foreign-assistance funding 
from Fiscal Year 2017 sub-obligated into current agreements and awards 
by the U.S. Department of State and USAID. This review is intended to 
provide detailed data to the Secretary so he can determine an 
appropriate way forward pursuant to the President's direction. Once the 
review is complete, we will be able to share more information on the 
funding and programs implicated.

                               venezuela
    The administration has requested authority in FY2020 to transfer up 
to $500 million to support a democratic transition in Venezuela and 
respond to related needs in the region.

    Question. What type of support would this assistance entail and 
from what accounts would the aid be transferred?

    Answer. The proposal for transfer authority for assistance in 
Venezuela included in the President's Budget Request for Fiscal Year 
(FY) 2020 reflects the need for flexibility, given the rapidly changing 
situation. We will continue to coordinate closely with the U.S. 
Department of State, Congress, Interim President of Venezuela Juan 
Guaido, international donors, and other governments in the region on 
the most-appropriate use of any such funds to bring about a democratic 
transition in Venezuela and to respond to needs in the region. The 
needs of the Venezuelan people range from immediate food and medicine 
to assistance with free and fair elections. We look forward to 
continued collaboration on this important issue.

    Question. What contingency plans, if any, does USAID or the broader 
U.S. Government have in place now that security forces aligned with the 
Maduro regime have not allowed the delivery of international 
humanitarian assistance inside Venezuela?

    Answer. The United States is closely monitoring the situation in 
Venezuela and continues to seek all appropriate means to support the 
Venezuelan people. We are committed to helping those who are suffering 
so needlessly because of this man-made crisis.
    As of May 8, 2019, the United States has provided more than $256 
million in humanitarian and development assistance to support the 
emergency efforts of the governments and civil society in affected 
countries and build the long-term capacity of communities to host 
approximately 3.7 million people who have fled Maduro's repression and 
chaos in Venezuela since 2014. Of this $256 million, the U.S. Agency 
for International Development (USAID) has provided more than $94 
million in humanitarian assistance to support Venezuelans in the 
region. USAID's assistance primarily targets activities in health, 
nutrition, water, sanitation, hygiene, shelter, and food.
    As Secretary Pompeo announced in January of this year, the United 
States is prepared to provide more than $20 million in initial 
humanitarian assistance to support response efforts within Venezuela, 
as conditions allow.
    USAID is working with Interim President Guaido's administration and 
the international humanitarian community to determine ways to deliver 
this aid to people in Venezuela safely. Through decades of experience, 
USAID's humanitarian team has learned that working with impartial, 
independent, and civilian-led humanitarian organizations is the safest 
and most-effective way to reach people in need without putting them in 
danger. As is the case all over the world, USAID is working on ways to 
deliver assistance inside Venezuela through international and local 
humanitarian partners, and in a way that is safe, efficient, and 
ensures the aid reaches those who need it most, without being hijacked 
by the illegitimate Maduro regime. This planning includes considering 
options for safely providing assistance under a number of contingencies 
that would help create a political and security environment conducive 
to the principled and accountable delivery of aid.

                                colombia
    Senator Blunt and I recently introduced a resolution commemorating 
the U.S.-Colombia strategic partnership and relaunched the Atlantic 
Council's Colombia Task Force. At great cost and sacrifice, Colombians 
have worked to partner with the U.S. in Colombia and elsewhere to fight 
armed groups, halt narcotics trafficking, and help stabilize the 
region. They now face the added challenge of a crisis next door in 
Venezuela and more than a million Venezuelans who are now in Colombia.

    Question. How is USAID contributing to an increased presence of the 
civilian Colombian Government in historically conflictive rural areas, 
as foreseen by Chapter 1 of the 2016 peace accord? (Lack of government 
presence strongly correlates with the presence of armed groups and 
coca.)

    Answer. The U.S. Agency for International Development (USAID) 
strategically coordinates our Plan Antioquia with the Government of the 
Republic of Colombia (GOC) to increase its presence in conflicted rural 
areas. Plan Antioquia links former coca-growing communities to licit 
markets, and assists the Colombian private and financial sectors to 
reach small businesses and help entrepreneurs expand their operations. 
This ``whole-of-government approach'' has enabled the U.S. Embassy in 
Bogota to work in close coordination with regional officials to help 
reduce a geographic area's production of coca. The GOC has established 
Strategic Operational Centers (CEOs) in nine important coca-growing 
regions to expand upon security gains. The CEOs are the security 
portion of a ``three-legged stool'' (along with eradication and 
alternative development) within a given area where the region is 
secure, where a functioning government exists, and where legal economic 
development is taking place.

    Question. With 13,000 former FARC members scattered around the 
country, and often participating in Colombian Government-sponsored 
development programs, how does USAID manage to avoid violating the 
``material support to FTOs'' statute? Is there a need to reinterpret 
this statute to make it less applicable to situations involving lower-
level demobilized guerrillas who are participating in the peace 
process?

    Answer. The investments of the U.S. Agency for International 
Development (USAID) in the Republic of Colombia focuses on assisting 
the Government of Colombia (GOC) to build its capacity to advance the 
sustainable implementation of the peace plan. USAID's programs work in 
areas of the country that are emerging from armed conflict, to target 
victims and others who the GOC has verified to have severed ties with 
the Revolutionary Armed Forces of Colombia (FARC). Such assistance does 
not trigger the prohibitions on the provision of material support to a 
Foreign Terrorist Organization. USAID conducts a thorough analysis of 
risk and creates a plan for mitigating any risk identified for each 
activity. USAID works closely with GOC counterparts and implementing 
partners to ensure all activities comply with all applicable U.S. and 
international sanctions.

    Question. How does the administration plan to help Colombia address 
the Venezuela crisis without detracting from Colombia's own efforts to 
consolidate peace and security?

    Answer. The U.S. Government is the largest donor of assistance in 
the Republic of Colombia in response to the man-made crisis in 
Venezuela. As of May 8, 2019, the U.S. Department of State and the U.S. 
Agency for International Development (USAID) have contributed over $256 
million in assistance in response to the Venezuela regional crisis. Of 
this, the U.S. Government has provided more than $128 million in 
funding to help Colombia accommodate Venezuelans migrants, including 
$91 million in humanitarian assistance and $37 million in economic and 
development assistance. This development and economic assistance helps 
Colombian communities manage the challenges of displaced Venezuelans, 
including to build the long-term response capacity of national and 
local institutions. All of these activities are in addition to USAID's 
ongoing investments that support the implementation of the peace accord 
at planned levels.

    Question. Part of the success of Plan Colombia was that it balanced 
counter-narcotics and security assistance with support for development, 
governance, and human rights to address the root causes of conflict and 
crime in the country. Why does the administration plan to cut more than 
$80 million dollars in economic support and development funding to 
Colombia at this critical moment?

    Answer. The President's Budget Request for the Economic Support and 
Development Fund for the Republic of Colombia for Fiscal Year 2020 
requests resources to foster reconciliation; expand the presence of the 
Colombian state, citizen-responsive governance, and human rights to 
regions historically under the control of the Revolutionary Armed 
Forces of Colombia; and to promote rural economic development in 
marginalized communities--an important counterpart to the U.S. 
Government's programs to eradicate coca and interdict shipments of 
cocaine.
                          caribbean engagement
    We have seen the importance of engaging the Caribbean as related to 
the Venezuela crisis, narcotics trafficking and migration, countering 
violent extremism, and votes in the U.N. and OAS.

    Question. Does the administration have a strategy to more 
effectively engage with Caribbean nations?

    Answer. Yes. The administration's blueprint for engaging with 
governments, civil society, and the private sector in Caribbean nations 
more effectively is through the Caribbean 2020 Strategy, A Multi-Year 
Strategy To Increase the Security, Prosperity, and Well-Being of the 
People of the United States and the Caribbean. Through the Strategy, 
the administration focuses its engagement with the Caribbean region in 
the areas of security, diplomacy, prosperity, energy, education, and 
health.

    Question. The president's budget proposes zeroing out assistance to 
the Eastern Caribbean, the Dominican Republic, and the USAID Caribbean 
development program. What effects will that have on Caribbean countries 
ability to respond to these challenges or support U.S. positions in the 
U.N. or OAS?

    Answer. The Operating Units of the U.S. Agency for International 
Development (USAID) in the Caribbean likely will continue to receive 
funding through regional programs, such as the Caribbean Basin Security 
Initiative (CBSI) and the U.S. President's Emergency Plan for AIDS 
Relief (PEPFAR). USAID remains committed to engaging with the 
governments and people of Caribbean nations. For example, I will be 
traveling to Trinidad and Tobago and St. Lucia in later this month to 
meet with host-country leaders and tour USAID-funded sites.

    Question. Will you and/or your staff meet with my office to discuss 
the current challenges facing the Caribbean, identify priority 
countries, and examine the resources required to address these 
challenges?

    Answer. Yes. We would be pleased to meet with your office to 
provide a briefing on our current portfolio in the Caribbean, as well 
as on the challenges that are facing the region.

                     mexico--combatting corruption
    Mexico's president Lopez Obrador has said he would make combatting 
widespread corruption a center piece of his administration. Increased 
efforts are urgent. In the past decade, 22 former governors have been 
investigated for corruption in Mexico, some of them for colluding with 
the organized crime groups that are largely responsible for rising 
violence--but only three have been sentenced for a crime. USAID has 
supported Mexico's efforts to reform its judicial system to increase 
its investigative and prosecutorial capacity, it has also funded civil 
society efforts to combat corruption.

    Question. How is USAID engaging with the Lopez Obrador 
administration on anti-corruption efforts?

    Answer. The U.S. Agency for International Development (USAID) is 
continuing to provide ongoing technical support to key institutions 
within the National Anti-Corruption System (NAS) of the United Mexican 
States. Core counterparts include the legally mandated Citizen 
Participation Committee and the system's Executive Secretariat. USAID 
also engages with the National Transparency Institute to improve access 
to information and fiscal transparency. Under Mexican law, all 32 
Mexican States must replicate the NAS, and USAID is supporting state-
level anti-corruption actors, including audit institutions, internal-
control units, and specialized anti-corruption prosecutors.

    Question. Will USAID continue to support civil society and 
journalists who are working to promote transparency and accountability 
and uncover corruption scandals?

    Answer. Yes. The U.S. Agency for International Development (USAID) 
continues to provide robust support to local Mexican civil-society 
organizations and journalists to advance their anti-corruption 
priorities. USAID is working in direct partnership with leading Mexican 
civil-society organizations, supporting locally led efforts to 
investigate corruption and advocate for policy reforms. These 
partnerships cover diverse themes, including procurement integrity, 
ethics for private-sector and government employees, budget transparency 
and citizen participation, as well as advocacy and technical support 
for the full implementation of Mexico's National Anti-Corruption 
System. In August 2018, USAID launched a new activity to assist Mexican 
investigative journalists that provides ongoing technical training, 
fosters networks between Mexican and international reporters, and 
supports the sustainability of Mexican independent media outlets. USAID 
also funds training opportunities for Mexican journalists on physical 
and digital security, which helps them to operate more safely in a 
dangerous environment. In addition, USAID continues to provide funding 
and technical assistance to the Special Prosecutor for Crimes Against 
Freedom of Expression (FEADLE) and the Government of Mexico's National 
Protection Mechanism, which protects journalists and human-rights 
defenders.

          mexico--disappearances and extraordinary mechanism 
                      for forensic identification
    Question. Over 40,000 people have disappeared in Mexico since 2007, 
many at the hands of organized criminal organizations as well as 
security forces working in collusion with these groups, almost 2,000 
mass graves have been uncovered in the country. This crisis has left 
thousands of families searching for answers about their loved ones and 
exposed structural weaknesses in Mexico's forensic services given their 
inability to effectively process and identify remains and produce 
evidence for prosecutions. USAID is currently present in several states 
in northern Mexico to support civil society to search for justice in 
cases of disappearances and increase government capacity to respond to 
these cases. Given the need to strengthen forensic services in Mexico 
to contribute to effective criminal investigations, is USAID 
considering expanding this work to additional states in Mexico or to 
support the Federal Government's recently announced Extraordinary 
Mechanism for Forensic Identification?

    Answer. Yes. Pending availability of funds and the appropriate 
political will at the state and federal level, the U.S. Agency for 
International Development (USAID) envisions geographic and programmatic 
expansion of our work to help strengthen criminal investigations and 
prosecutions in the United Mexican States. USAID's funding and 
technical assistance at the State level in Mexico is designed to assist 
State Attorneys General to investigate and prosecute cases of forced 
disappearances more effectively; implement and consolidate forensic 
databases and registries as mandated by the 2018 General Law on 
Disappearances; and catalyze broader interest and action on these gross 
violations of human rights. USAID's activities in the States of 
Chihuahua and Nuevo Leon marry international forensic expertise with 
local knowledge, networks, and context, and work with local civil-
society organizations, collectives, and State authorities to identify 
remains and develop state-level DNA and missing persons databases. 
USAID's partners also engage in the States of Jalisco, Coahuila, and 
Veracruz in cases of gross violations of human rights and 
disappearances, particularly regarding the implementation of the 
General Laws against Torture and Disappearance.
    At the Federal level in Mexico, USAID recently assisted the 
National Search Commission to clean up redundancies and inaccuracies in 
the National Registry of Missing Persons. Through a cross-check of 
dozens of official databases, the registry now contains 38,954 unique, 
accurate records of missing persons.

                               nicaragua
    Question. Over the past year, the Ortega regime has violently 
repressed peaceful protests, resulting in hundreds of deaths and 
thousands wounded and/or fleeing into exile. The Trump administration 
has stressed its intention to support civil society and promote human 
rights in Nicaragua. Please explain how you will fulfill that pledge if 
assistance to Nicaragua--more than half of which was for democracy 
assistance in FY2018--is cut from $10 million to $6 million, as 
proposed in the current budget.

    Answer. The U.S. Agency for International Development (USAID) 
remains committed to helping the Nicaraguan people, including civil 
society, as they demand a more open, transparent, and accountable 
government. USAID's programs strengthen the capacity of civil society 
and youth leaders to promote and defend democracy and transparent and 
accountable governance at the local and national levels, and assist 
independent media to report truthful information against a backdrop of 
oppression and censorship. Cross-cutting themes for the portfolio 
include the engagement of young people, digital security, and human 
rights. For example, USAID sponsors digital-security experts and local 
trainers to assist civil-society leaders, new stakeholders, and 
independent media on safe practices for secure communications and the 
storage of data. USAID also funds local organizations that document and 
elevate human-rights abuses to regional and international platforms.
    Should conditions in Nicaragua allow for a political opening to re-
establish democratic order, USAID would be positioned to support free, 
fair, and transparent elections. When the Ortega regime ends, USAID 
will assist the Nicaraguan people with a peaceful transition, 
undertaking institutional reforms, and strengthening civil society.

                 democracy, human rights and governance
    I believe it is absolutely critical to the success of U.S. national 
security strategy to advance democracy and human rights around the 
globe, combat corruption, and strengthen good governance and rule of 
law. Supporting democracy, human rights, and good governance helps keep 
America safe, minimizes migration, and allows our businesses to more 
effectively compete in global markets. Yet, for far too long U.S. 
foreign policy has treated governance issues as a secondary 
consideration. I applaud the administration's willingness to apply 
Global Magnitsky sanctions against corrupt officials and human rights 
abusers, but am alarmed by the proposed 50 percent cut to democracy 
programs, the 40 percent cut to DRL programs, and 60 percent cut to the 
National Endowment for Democracy.

    Question. How does this proposed budget reflect American values?

    Answer. The President's Budget Request for Fiscal Year (FY) 2020 
for global democracy programs reflects the notion-articulated in the 
National Security Strategy and the Joint Strategic Plan of the U.S. 
Department of State and the U.S. Agency for International Development 
(USAID)-that respect for human rights, democracy, and inclusive 
governance is more likely to produce peace, stability, and prosperity 
at home and abroad, and is therefore critical to U.S. interests. At 
USAID, we know that programs aimed at combating corruption, supporting 
accountable, citizen-responsive governance and ensuring respect for 
human rights reflect American values; assist governments, civil 
society, and the private sector in our partner countries on the Journey 
to Self-Reliance; and encourage the development of effective 
democracies that are critical to maintaining U.S. prosperity and 
security.

    Question. How central do you view these issues as being to our 
foreign and national security policy and how is anticorruption factored 
into the State Department budget?

    Answer. These issues are critical to foreign, national-security, 
and economic policy. As an Agency, we know that corruption undermines 
national development; perpetuates poverty and dependence; imperils 
critical humanitarian and relief efforts; destabilizes democratic 
societies; and fuels transnational crime and the trafficking of drugs, 
arms and people. For these reasons, fighting corruption and promoting 
good governance around the world continue to be a key priority for the 
United States, as affirmed in the National Security Strategy, the Joint 
Strategic Plan of the U.S. Department of State and the U.S. Agency for 
International Development (USAID), and the draft Democracy, Human 
Rights, and Governance Strategy of the National Security Council. The 
President's Budget Request for Fiscal Year 2020 does include $581.8 
million for Department of State and USAID to strengthen the enabling 
environment for citizen-responsive governance in many of the countries 
in which we work.

    Question. My Combatting Global Corruption Act, which I reintroduced 
last week with Senator Young, would allow the U.S. to take stock of 
where our anti-corruption programming and could be most beneficial. 
Given how critical these issues are to the long-term success and 
sustainability of our global engagements, what and where are the trade-
offs between being able to pursue good governance and other diplomatic 
or security considerations?

    Answer. Globally, the U.S. Agency for International Development 
(USAID) views the pursuit of citizen-responsive governance as fully 
compatible with diplomatic and security considerations. Often 
mischaracterized as zero-sum choices, these are actually mutually 
reinforcing objectives. The reality is that pervasive corruption and a 
lack of accountable governance sabotage the political and economic 
systems in countries around the world. These problems affect every 
sector--denigrating ecosystems, worsening health and education 
outcomes, discouraging private investment, increasing disease, 
preventing children from reaching their potential, and feeding the 
drivers of conflict and citizen insecurity. Building the capacity and 
commitment of governments, civil society, and the private sector in 
countries around the world to enhance transparency, accountability, and 
citizen-responsive governance is not at odds with, but rather 
safeguards, overarching U.S. diplomatic and national-security 
objectives.
    This is particularly true in countries with weak political and 
economic institutions and with partial or fledgling accountability 
systems, including post-conflict nations and those with transitional 
regimes. Through strengthening self-reliance at the national and 
community level, USAID's programs take a multidisciplinary and 
integrated approach to combating corruption and building accountability 
and integrity throughout the governance system and across sectors, 
including all branches and levels of government; oversight, audit, and 
law-enforcement institutions; public-sector agencies; the private 
sector; and civil society.
    In practice, we balance citizen-responsive governance with other 
diplomatic or security considerations in the Integrated Country 
Strategies developed by the U.S. Government interagency at each U.S. 
Embassy.

    Question. Do DRL, INL, and the Bureau of Economic and Business 
Affairs (EB) have the staff resources they need to expeditiously 
research, vet, and apply sanctions?

    Answer. I defer to the U.S. Department of State.

    Question. Given the violence and instability we see caused by 
autocratic regimes like Syria, Venezuela, Nicaragua, and Iran, what is 
the rationale for cutting these valuable programs?

    Answer. The President's Budget Request for Fiscal Year 2020 will 
allow the U.S. Agency for International Development (USAID) to expand 
the number of countries where we are investing in democracy programs. 
Additionally, USAID's programs will focus resources on the democratic 
institutions and processes most critical to advancing self-reliance in 
our partner countries, to ensure programmatic impact. USAID is also 
committed to focusing our resources to address emerging challenges, 
such as democratic backsliding and resurgent authoritarianism that 
threaten U.S. influence and prosperity.

                      countering russian influence
    We recently received a redacted version of Special Counsel Robert 
Mueller's report regarding Russian interference in the 2016 U.S. 
presidential election. As Deputy Attorney General Rod Rosenstein 
recently said, ``There was overwhelming evidence that Russian 
operatives hacked American computers and defrauded American citizens, 
and that is only the tip of the iceberg of a comprehensive Russian 
strategy to influence elections, promote social discord, and undermine 
America, just like they do in many other countries.'' I believe that 
the Senate Foreign Relations Committee can and must play a leading role 
in responding to the findings of the Mueller report by holding hearing 
s on the findings and continuing to work on legislation to hold Russia 
accountable for their malign behavior and interfering in our democracy.

    Question. For FY2019, Congress appropriated $275 million in foreign 
assistance (to be made available from funds appropriated under other 
headings) for the Countering Russian Influence Fund (CRIF), intended to 
counter malign Russian influence, propaganda, and aggression in Europe 
and Eurasia. How does USAID's proposed FY 20 budget address Russian 
aggression and support civil society--such as journalists, human rights 
defenders, and others--who are working to counter Russian propaganda 
and other malign influence in the Europe and Eurasia region?

    Answer. The Countering Malign Kremlin Influence Development 
Framework of the U.S. Agency for International Development (USAID) 
informed the President's Budget Request for Fiscal Year (FY) 2020. The 
first two pillars of that strategy focus on 1) countering efforts to 
undermine democratic institutions and the rule of law; and, 2) 
resisting the Kremlin's manipulation of information. The Framework, 
which orients and guides USAID's use of resources to respond to malign 
Kremlin influence, focuses on the strengthening of democratic 
institutions, including civil society and independent media outlets.
    The President's Budget Request will support the capacity of civil-
society organizations to serve as legitimate representatives of 
citizens and to safeguard their interests, to allow them to counter 
external malign efforts to marginalize and stigmatize them. 
Additionally, USAID's regional and bilateral programming with civil 
society will fund a broad range of civic actors, including human-rights 
defenders, journalists and independent media organizations, and civic 
groups. Specifically, our programming will enable organizations to 
advocate for improved legislation and regulations and empower groups to 
engage in high-level policy discussions. Programming will also finance 
advocacy and ``watchdog'' organizations to track and report on both 
domestic and foreign efforts to discredit the sector, to undermine 
democratic institutions and processes, or to interfere in the 
democratic processes of countries in Europe and Eurasia. For example, 
in Georgia, USAID launched an online dashboard that reviews data from 
70 sources of Georgian-language anti-Western propaganda, most of which 
originate in Russia, and analyzes their main themes, popularity, and 
other dimensions in real-time.
    To counter Russian disinformation campaigns, USAID is leading 
efforts to bolster professional, competitive media outlets in Europe 
and Eurasia to produce engaging and credible news and information and 
build public trust in the media. Our programming also funds enhanced 
media literacy, not only to teach critical thinking skills and improve 
analytical capability, but to give citizens a better understanding of 
the watchdog role of the press; the power of media messages to shape 
domestic and global events; and the role the public can, and should, 
play in informing policy-making.
    USAID's efforts in countries like Ukraine and the Republics of 
Armenia and Moldova focus on teaching these skills inside and outside 
of the classroom across a variety of age groups. In particular, 
activities like political satire, and debunking efforts, alongside 
fact-checking initiatives and more traditional educational curricula, 
have proven effective across demographic age groups.

    Question. How would the President's proposed overall 54 percent cut 
from FY2018 of all State and USAID assistance for Europe and Eurasia 
impact the Agency's ability to support such activities?

    Answer. While the President's proposed Budget Request for FY 2020 
represents greater fiscal restraint, USAID's Missions in the region 
plan to maintain focus on the administration's key priorities, which 
include protecting U.S. national security and specifically countering 
malign Kremlin influence. Prior-year appropriations and the current 
Budget Request will allow our Missions to continue their current 
programs to counter this influence.

                       usaid gender policy review
    My understanding is that your agency is currently reviewing the 
USAID Gender Equality and Female Empowerment Policy, including 
provisions regarding gender integration and gender analysis across 
USAID's work. As the lead Democratic sponsor of the Women's 
Entrepreneurship and Economic Empowerment Act, I am keenly interested 
in ensuring that the Act's requirement for gender analysis remains a 
key priority for USAID programs, policies, and activities under this 
review.

    Question. Can you explain the steps you personally are taking to 
ensure that the gender analysis requirement of the WEEE Act is 
implemented at your agency and preserved under the review of the Gender 
Equality and Female Empowerment Policy?

    Answer. Updates to the Policy on Gender Equality and Female 
Empowerment of the U.S. Agency for International Development (USAID) 
will include the requirements and parameters set forth in the Women's 
Entrepreneurship and Economic Empowerment (WEEE) Act regarding policy 
outcomes and the integration of equality between women and men and 
female empowerment in the Program Cycle. The USAID team that is leading 
the review will ensure that the revised Policy will maintain the 
gender-analysis requirement of the Act, which reaffirms the Agency's 
existing mandates.

    Question. Can you also explain how your budget request intends to 
ensure and improve gender integration within USAID, including through 
advancing your own Gender Equality and Female Empowerment Policy?

    Answer. The President's Budget Request for Fiscal Year 2020 will 
support the implementation of USAID's Policy on Gender Equality and 
Female Empowerment through expanded training for the Agency's staff to 
increase their capacity to carry out gender analyses and incorporate 
findings in programming and technical assistance to our Bureaus, 
Missions, and Operating Units. The Budget Request will also fund work 
in programmatic design and evaluation; the development and delivery of 
guidance; and tools for the integration of gender, including countering 
gender-based violence, across every sector in which USAID invests.

                      women's economic empowerment
    Question. Your administration has requested $100 million to advance 
women's economic empowerment around the world, driven by the Women's 
Global Development and Prosperity (W-GDP) Initiative. While I am a 
strong proponent of investments in women's empowerment, this request is 
out of sync with the overall cuts to foreign assistance proposed. These 
cuts will impact programs and initiatives that promote the rights and 
well-being of women and girls globally, including their ability to be 
healthy, educated, skilled and empowered to participate in the economy. 
How do you reconcile this? Can you explain how your budget request 
intends to advance women's empowerment on the one hand, but also 
seemingly aims to restrict broader funds and programming to advance 
these goals on the other?

    Answer. Promoting the rights and well-being of women and girls 
globally continues to be an administration priority, as demonstrated in 
the President's Budget Request for Fiscal Year (FY) 2020, which calls 
on other donors to build on American investments abroad, and seeks to 
expand partnerships with the private sector to catalyze U.S. commercial 
deals. The Women's Global Development and Prosperity (W-GDP) Initiative 
promotes women's empowerment across its three pillars: 1) advancing 
workforce-development and vocational education to ensure women have the 
skills and training necessary to secure jobs; 2) promoting women's 
entrepreneurship and providing women with access to capital, markets, 
technical assistance, and networks; and, 3) striving to remove the 
legal, regulatory, and cultural barriers that constrain women from 
being able to participate in the economy fully and freely. The work of 
the U.S. Agency for International Development (USAID) under the three 
pillars of the W-GDP Initiative benefit the livelihoods of women and 
their families across all sectors.

                  w-gdp and private sector engagement
    Question. The Women's Global Development and Prosperity 
initiative--which you discussed during your recent visit to Ethiopia 
and Cote d'Ivoire--promises to promote women's economic empowerment 
around the world.

    Answer. In furtherance of the goal of the Women's Global 
Development and Prosperity (W-GDP) Initiative of reaching 50 million 
women by 2025, we recognize the critical importance of leveraging the 
ingenuity and resources of the private sector through robust 
partnerships and collaboration. In accordance with our Private-Sector 
Engagement policy, the staff at the headquarters of the U.S. Agency for 
International Development (USAID) will work with our Missions around 
the world and across USAID's Operating Units to engage in partnerships 
with the private sector to advance women's economic empowerment and 
contribute to the efforts of the W-GDP Initiative by offering not only 
financial resources but also technical assistance in the design, 
planning, and execution of development projects and activities.

    Question. How will USAID's work on W-GDP align with your Private 
Sector Engagement policy in terms of leveraging new private enterprise 
to reach the initiative's goal of empowering 50 million women by year 
2025?

    Answer. The W-GDP initiative also includes a $50 million catalytic 
fund from Fiscal Year (FY) 2018, which seeks to leverage external 
sources of capital. The W-GDP Initiative will work with private-sector 
companies to explore new and innovative ways to address some of the 
greatest challenges that limit women's full and free participation in 
the economy. Through these public-private partnerships, the W-GDP 
Initiative will help scale existing activities to promote women's 
economic empowerment with proven results and develop new metrics-driven 
and outcome-oriented programs that are sustainable; effective; and 
ultimately contribute to USAID's mission of helping governments, civil 
society, and the private sector in our recipient countries on the 
Journey to Self-Reliance.

                                 unfpa
    As a result of the State Department's decision to pull funding from 
UNFPA, $32.5 million appropriated for the agency will be transferred 
from the International Organizations Bureau to USAID. While I think it 
is clear that no one can replace the vital work of UNFPA in some of the 
world's most challenging settings like Yemen and Venezuela, I want to 
make sure we are going to continue to support programs like these with 
these additional funds at USAID.

    Question. It is still unclear where FY2018 money has been 
reprogrammed. Can you share where this funding has been reallocated and 
specifically what programs it is supporting? Can you assure us that any 
transferred funds will be going to our existing international family 
planning and evidence-based reproductive health programs that support 
access to contraceptives and work to combat child marriage, gender-
based violence, and female genital mutilation--all key components of 
UNFPA's work?

    Answer. The U.S. Agency for International Development (USAID) will 
invest the funds originally available for the United Nations Population 
Fund (UNFPA) for Fiscal Year (FY) 2018 for voluntary family planning 
and maternal and reproductive health as required. These investments 
will contribute to the U.S. Government's commitment to increasing 
women's access to high-quality health care, and advance progress toward 
the Agency's Priority Goal under the U.S. Department of State-USAID 
Joint Strategic Plan for FY 2017-2022 of ending preventable maternal 
deaths.

                                hiv/aids
    The administration aims to achieve AIDS epidemic control in 13 
countries by the end of 2020.

    Question. How would the 29 percent cut to HIV/AIDS funding for 
FY2020 impact this goal? Please discuss the administration's request to 
limit the U.S. share of Global Fund contributions to 25 percent, rather 
than the 33 percent limit for past contributions. How would that change 
affect Global Fund operations?

    Answer. The President's Budget Request for the Global Health 
Programs account for Fiscal Year (FY) 2020 of $6.3 billion will finance 
programs to control the HIV/AIDS epidemic; prevent child and maternal 
deaths; combat infectious-disease threats; and build healthier, 
stronger, more self-sufficient nations. This request will allow the 
United States to continue its leadership role in a sector of 
demonstrated comparative advantage and success. U.S. investments will 
leverage resources from other donors, the private sector, and host-
country governments to address shared challenges. The Budget Request 
will enable the President's Emergency Plan for AIDS Relief (PEPFAR) to 
help control the HIV/AIDS epidemic globally by achieving goals 
articulated in the administration's PEPFAR Strategy for Accelerating 
HIV/AIDS Epidemic Control (2017-2020).
    This new approach to the Global Fund to Fight AIDS, Tuberculosis 
and Malaria (Global Fund) will reinforce U.S. leadership while 
encouraging greater burden-sharing from other donors. The U.S. 
Government is planning to pledge up to $3.3 billion over 3 years (FY 
2020-2022) to the Global Fund's next Replenishment cycle with a 
commitment to match other donors at a rate of $1 from the United States 
for every $3 pledged from other donors. This change in the matching 
ratio of our pledge matching is critical to demonstrating and 
continuing U.S. global leadership in the fight against HIV/AIDS, 
tuberculosis, and malaria, while pushing other donors to contribute a 
greater share of resources to address these public-health challenges.

                        mexico city policy/plgha
    In January 2017, the administration reinstated the Mexico City 
Policy and expanded it so that it applied to all global health programs 
rather than only family planning activities. In February 2018, the 
administration indicated in its 6-month assessment that it was too 
early to determine the impact of the policy and that another assessment 
would be conducted in December 2018.

    Question. Has that assessment been conducted? If not, when will it 
be done and the findings be published? What effects has the policy 
appeared to have had on access to care, particularly in remote areas 
where all health services are provided in one facility? What impact do 
you expect the further expansion of this policy, announced by Secretary 
of State Pompeo in March 2019, to have on access to health care in such 
areas?

    Answer. The U.S. Department of State has worked closely with the 
U.S. Agency for International Development (USAID) and the Departments 
of Defense and Health and Human Services to implement the Protecting 
Life in Global Health Assistance (PLGHA) Policy consistently, examine 
progress in carrying it out, and monitor its effects. The State 
Department's Six-Month Review on PLGHA, released in February 2018, 
recommended further analysis when more-extensive experience would 
enable a more-thorough examination of the Policy's benefits and 
challenges. USAID is working with the Department of State and the other 
affected Departments to complete that review, which will assess the 
implementation of the Policy, including any effects on the delivery of 
care.
    The PLGHA Policy implements what the administration has made very 
clear: U.S. taxpayer money should not fund foreign organizations that 
perform or actively promote abortion as a method of family planning in 
other nations. The PLGHA Policy does not change funding levels for 
global-health assistance by one dollar, nor does the Secretary of 
State's announcement of March 26, 2019.

                             ebola outbreak
    Question. The ongoing Ebola outbreak in the Democratic Republic of 
Congo is continuing to spread. Please describe how current resources 
are being used to address the ongoing outbreak.

    Answer. In September 2018, the U.S. Government deployed a Disaster-
Assistance Response Team (DART) to coordinate the Federal response to 
the outbreak of Ebola in the Democratic Republic of Congo (DRC). This 
expert team--composed of disaster and health experts from USAID and the 
Centers for Disease Control and Prevention (CDC) within the U.S. 
Department of Health and Human Services (HHS)--is working tirelessly to 
identify needs and coordinate activities with partners on the ground in 
the DRC. By augmenting ongoing efforts to prevent the spread of disease 
and providing aid to help affected communities, this work ensures an 
efficient and effective response by the U.S. Government. USAID is 
closely collaborating with our interagency partners--like HHS 
(including both CDC and the National Institutes of Health) and the U.S. 
Department of State--to battle this disease, along with the Government 
of the DRC, other donors, the United Nations (U.N.), international 
partners, and affected communities.
    As of May 8, 2019, the DART typically has between 10 and 15 members 
deployed in the DRC, located in both Kinshasa and Goma. In addition, 
the DART has five consultants--two in Beni, two in Goma, and one in 
Butembo--embedded in the operations of the World Health Organization 
(WHO) to support the local commissions in charge of surveillance and 
the prevention and control of infections in health facilities and 
report to the DART.
    The outlook for the ongoing Ebola outbreak in the DRC is worsening. 
As of May 21, 2019, the Government of the DRC has reported 1,847 
confirmed and probable cases. As of May 8, 2019, USAID has invested 
more than $86.9 million into the response to the outbreak. This funding 
is supporting 12 non-governmental organizations (NGOs), three U.N. 
agencies, and one public international organization to implement key 
activities outlined in the U.S Government's response strategy. The DART 
in the DRC and the USAID Response-Management Team (RMT) in Washington 
continue to support a more community-based approach that emphasizes 
assessment/dialogue, increasing local participation, and providing 
wrap-around humanitarian assistance as part of integrated programs. 
Increasing insecurity, intense community resistance, ineffective 
leadership, and poor coordination are major challenges to the response.
    USAID sees a number of areas for improvement, and is pressing to 
make changes at every level as part of a reset endorsed by the U.S. 
Ambassador to the DRC, the DART, HHS/CDC, and other lead donors. The 
DART is working with partners to provide vital assistance and overcome 
some of the key challenges that have made this outbreak difficult to 
contain. As such, the DART is supporting a multi-pronged approach to: 
(1) stop the spread of infection and provide vital care to Ebola 
patients; (2) support programs in community outreach and education to 
dispel rumors and earn the trust of community members in areas affected 
by the disease; (3) enhance coordination with international and 
interagency partners; and, (4) broaden the response to address the 
long-standing needs of communities not related to Ebola. In addition, 
in response to the recent troubling uptick in cases, the DART is 
working to enhance the response's operations and is pushing the U.N. 
and the Government of the DRC to shift from a top-down approach to one 
that elevates the community's role and increases local acceptance and 
ownership of activities.

    Question. Considering the persistent increase in cases, what 
changes, if any, is USAID considering in its response?

    Answer. The U.S. Government's reset strategy, endorsed by the U.S. 
Ambassador to the Democratic Republic of Congo (DRC), the U.S. 
Disaster-Assistance Response Team (DART), the Centers for Disease 
Control and Prevention (CDC) within the U.S. Department of Health and 
Human Services (HHS), and other lead donors [including the World Bank, 
the Department for International Development of the United Kingdom, and 
the Humanitarian Aid Department of the European Commission (ECHO)] 
includes the following elements:

   Leadership Changes at the United Nations (U.N.): The U.S. 
        Government and other lead donors have urged the U.N. to 
        designate a senior-level leader in the DRC with the authority 
        to lead the U.N.'s part of the response to Ebola as part of the 
        reset.

   Engagement with Non-Governmental Organizations (NGOs): The U.S. 
        Government is pressing the Government of the DRC and the U.N. 
        to provide NGOs and civil society with formal roles on 
        coordination structures at all levels of the response, based on 
        technical competencies.

   Longer-Term Strategic Planning: The U.S. Agency for International 
        Development is pressing the U.N. and the Government of the DRC 
        to develop a 6 to 9 month response plan that fully captures the 
        associated costs of the Government, the U.N., NGOs, and civil 
        society necessary to contain and end the outbreak with 
        appropriate financial tracking. The plan should use the model 
        of an inclusive approach to humanitarian funding, as supported 
        by the U.N. Office for the Coordination of Humanitarian Affairs 
        (UNOCHA) in complex emergency humanitarian responses.

   Broaden the Humanitarian Response (``Ebola Plus''): USAID is 
        immediately broadening its response to address non-Ebola needs 
        expressed by communities in hotspot areas: The DART is 
        currently reviewing initial proposals to provide other 
        humanitarian assistance as part of integrated Ebola response 
        programs to gain community trust and acceptance, including 
        livelihoods; food-security support; and water, sanitation, and 
        hygiene (WASH) Please note that International Disaster 
        Assistance funding is necessarily short-term and is not a 
        substitute for broader development and stabilization efforts in 
        the region, which is what communities in the DRC have 
        requested.

   Localize the Response: USAID is pressing our partners to increase 
        local hires and partnerships with local civil-society 
        organizations, including faith-based organizations, and to 
        expand the participation of NGOs across the response to Ebola, 
        including community representation at the coordination and sub-
        coordination levels. This must also include women, as the 
        response to date largely has left out this key constituency, 
        despite their influence and authority. Along the lines of 
        ``localizing'' the response, USAID has urged the World Health 
        Organization (WHO) to consider reducing international 
        visibility in Butembo to reduce the resentment of the local 
        community.

   Improve the Operational Response: The U.S. Government welcomes the 
        recommendation made by the Senior Advisory Committee on Vaccine 
        Use of the WHO's Strategic Advisory Group of Experts on May 7, 
        2019, and will urge all partners to use the findings to enable 
        a more forward-leaning posture on the use of vaccines, 
        including a geographic vaccine strategy. USAID is working to 
        improve the surveillance of community deaths, as too many new 
        cases are detected post-mortem and are not tracked, isolated, 
        or safely buried. USAID is pressing the Government of the DRC 
        on the use of rapid diagnostic tests (RDTs) to conduct 
        surveillance of community deaths, which has the potential to 
        improve the turnaround time of diagnosis and prevent 
        transmission. USAID funds community-level, event-based 
        surveillance, and is exploring options to expand it. The U.S. 
        Government will also implement the Surveillance Training to 
        Enhance Ebola Response and Readiness (STEER) program, created 
        and led by the DRC Ministry of Health to leverage alumni of the 
        HHS/CDC Field Epidemiology Training Program (FETP) to improve 
        the core knowledge and skills of frontline Ministry health 
        workers in epidemiology and the prevention and control of 
        infections (IPC) in clinics and hospitals.

   Preparedness: There is an urgent need to intensify readiness in 
        Goma and the Goma-Butembo corridor to avoid further spread of 
        the outbreak within the DRC and, potentially, across its 
        borders. Therefore, USAID is prioritizing risk-communication, 
        WASH, IPC in health facilities, training for health-care 
        workers, and community outreach. USAID and HHS/CDC will support 
        rapid-response teams and address gaps in coordination, 
        screening, triage, reporting, surveillance, the vaccination of 
        health workers, and screening of travelers at borders.

                     global health security agenda
    The $90 million budget request for global health security is aimed 
at advancing the Global Health Security Agenda across priority 
countries.

    Question. How many countries is the United States currently 
supporting through the Global Health Security Agenda?

    Answer. The U.S. Agency for International Development (USAID), in 
partnership with other U.S. Government Departments and Agencies, 
national governments, international organizations, and public and 
private stakeholders--seeks to prevent avoidable epidemics, detect 
threats early, and respond rapidly and effectively to outbreaks of 
infectious diseases. USAID seeks to strengthen in-country capacities 
targeted at the places, populations, and practices that contribute to 
the emergence and spread of infectious-diseases threats, especially 
zoonotic ones (those that originate in animals). Here are the 
geographic locations of USAID's activities with Global Health Security 
and Emerging Threats funds keyed to GHSA focus countries as presented 
in the congressionally mandated ``Fifth Report on the Proposed Use of 
Fiscal Year (FY) 2018 Global Health Security Funds by the U.S. Agency 
for International Development (USAID):''

   GHSA, Phase I countries: Bangladesh, Cameroon, Cote d'Ivoire, 
        Ethiopia, Guinea, India, Indonesia, Kenya, Liberia, Senegal, 
        Sierra Leone, Tanzania, Uganda, and Vietnam;

   GHSA, Phase II countries: Cambodia, Democratic Republic of Congo, 
        Ghana, Jordan, Lao People's Democratic Republic, Malaysia, 
        Rwanda, and Thailand; and

   Countries at high risk for the emergence of global threats: Burma, 
        the People's Republic of China, Egypt, Madagascar, Mongolia, 
        Nepal, and the Republic of Congo.

Please note, the financial and geographic allocations are subject to 
change, based on consultations and coordination with HHS

    Question. How might the ongoing Ebola outbreak in the Democratic 
Republic of Congo impact the availability of funds for other countries?

    Answer. USAID is responding to the ongoing outbreak of Ebola in the 
Democratic Republic of Congo (DRC). USAID is funding these efforts with 
International Disaster Assistance funds appropriated for Ebola in 
Fiscal Year 2015. USAID does not anticipate that our on-going response 
efforts in DRC will affect the availability of funds to help 
governments, civil society, and the private sector in other countries 
to prevent avoidable epidemics, detect threats early, and respond 
rapidly and effectively to outbreaks of infectious diseases.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                              tuberculosis
    Question. In FY2019, Congress appropriated a 16 percent increase 
for TB programs from FY2018 levels. What did USAID do with the 
additional funding?

    Answer. I launched the Global Accelerator to End Tuberculosis (TB) 
in September 2018 to support national governments, civil society, and 
the private sector to meet the targets set at the High-Level Meeting 
(HLM) on TB of the United Nations (U.N.) General Assembly to treat 40 
million people by 2022. By using funding from Fiscal Year (FY) 2019, 
the Accelerator will expand and target technical expertise to increase 
the diagnosis and treatment of cases of TB and multi-drug-resistant 
(MDR) TB. Related efforts include the placement of advisors in 
Ministries of Health; the increased involvement of local organizations 
in the response to TB, including community and faith-based groups; the 
accelerated transition of the funding and management of TB programs to 
governments and their partners; and improved coordination with other 
health programs, particularly around co-morbidities, such as diabetes, 
HIV and undernourishment. The Accelerator focuses on the countries with 
the highest burdens of TB in which the U.S. Agency for International 
Development (USAID) already has existing partnerships, and where the 
Agency could reprogram funds to align better with local communities and 
partners to deliver performance-based results towards the global 
targets from the HLM.

    Question. Please explain why the FY2020 budget requests that 
funding be returned to FY2018 levels. How might a reduction in funds 
affect ongoing efforts?

    Answer. With the increased funding, USAID will also continue to be 
a major supporter of the Global Drug Facility (GDF) of the Stop TB 
Partnership, the largest supplier of medicines and diagnostics for TB. 
USAID's programs will also continue to require national funding for TB 
drugs through the GDF to broaden the market for quality-assured drugs 
and increase the sustainability of TB programs in high-burden 
countries.
    USAID has been a catalyst for investment and change in high-burden 
TB countries, and will continue our efforts to increase the investment 
of national domestic resources, which already make up over 80 percent 
of funding to support the global response to TB. The focus of the 
available funding in FY 2020 would be to provide support in the 23 
high-priority countries.

    Question. Multi-drug resistant tuberculosis (MDR-TB) remains a 
concern for many, particularly in countries with high HIV-TB co-
infection rates. Please describe how USAID programs address MDR-TB and 
work to avert further spread of the strain.

    Answer. Diagnosing MDR-TB starts with finding TB cases, since 
around the world clinicians are only finding two-thirds of them. The 
remaining one-third of TB cases are either not diagnosed or diagnosed 
but not reported. With the resources already available, USAID is 
funding interventions to accelerate the detection of MDR-TB, starting 
with finding the missing cases and improving access to drug-
susceptibility testing (DST). We are increasing the active screening of 
TB and MDR-TB among vulnerable groups by using different strategies, 
including community-based screening, universal screening, and DST at 
health facilities
    People with drug-resistant TB (DR-TB) can be reluctant to start 
treatment because the regimens are long and difficult, and can involve 
serious side effects. To address this issue, USAID is financing the 
development of new TB-treatment regimens that are shorter and more 
tolerable to patients. Additional funds would continue to support 
activities in the National Action Plan on MDR-TB, including clinical 
trials to evaluate new drugs and ensure that those most in need can 
have access to them.

                      strategy and budget mismatch
    Question. The administration's National Security Strategy 
recognizes that America ``faces an extraordinarily dangerous world, 
filled with a wide range of threats that have intensified in recent 
years'' and that we must use all of our national security tools to 
confront these threats. For the third year in a row, however, the 
administration has proposed deep cuts to development and diplomacy, 
indicating once again a strategy and budget mismatch. How do you 
reconcile this discrepancy in resources with not only the threats we 
currently face but this administration's own strategy to confront those 
challenges?

    Answer. The President's Budget Request for Fiscal Year (FY) 2020 
balances fiscal responsibility with national-security imperatives and 
prioritizes countries and sectors most-critical to U.S. interests.
    The President's Budget Request for FY 2020 proposes strategic 
investments in development and diplomacy that enable the United States 
to retain its position as a global leader, while requiring the 
governments of other nations (both donors and host-countries) and the 
private sector to make greater, proportionate contributions toward 
shared objectives that support U.S. national security and advance 
American interests.

       usaid transformation--humanitarian account consolidations
    Question. Please discuss the proposed consolidation of U.S. funding 
into a single new global humanitarian account. How might this impact 
the U.S. Government's funding relationship with implementing partners, 
particularly multilateral organizations?

    Answer. The President's Budget Request for Fiscal Year (FY) 2020 
proposes the consolidation of all overseas humanitarian assistance in a 
new, unified, flexible International Humanitarian Assistance (IHA) 
account and in the new Bureau for Humanitarian Assistance (BHA) at the 
U.S. Agency for International Development (USAID), with a new, high-
level dual-hat leadership structure under the authority of the 
Secretary of State. These changes will allow the U.S. Government to 
respond seamlessly to the ongoing, as well as new, humanitarian needs 
of the most-vulnerable displaced people, including refugees, victims of 
conflict, stateless persons, and migrants worldwide.
    The IHA, managed by the new BHA at USAID, will draw on the 
efficiencies and comparative strengths of USAID and the U.S. Department 
of State. It will improve coherence and coordination in our funding of 
implementing partners, including both non-governmental and multilateral 
organizations. The proposed changes will allow the U.S. Government to 
monitor the performance of implementers consistently and uniformly, and 
will ensure no duplication or gaps in aid. The new proposed structure 
will allow for a seamless and effective assistance strategy for all 
affected people. Practically speaking, implementers that now have to 
work with two or three offices with different award systems and 
reporting, monitoring, and oversight requirements would receive funding 
from only one Bureau, with one set of parameters designed to optimize 
outcomes for beneficiaries.

    Question. What have been the U.S.-based NGOs' responses to the 
proposed consolidation?

    Answer. InterAction, the alliance of U.S.-based international non-
governmental organizations (NGOs), has expressed support for the 
creation of a unified entity that has authority for all of the U.S. 
Government's overseas humanitarian assistance to generate greater 
coherence in the goals and activities of our aid. USAID is committed to 
working with U.S-based non-governmental organizations through the 
proposed structure.

    Question. Under the proposed FY2020 budget, do you expect other 
changes in the way the United States responds to humanitarian crises 
worldwide? If so, in what respects and why?

    Answer. The $5.968 billion the President has requested through the 
IHA account would allow the United States to remain the largest single 
donor to crises around the world and meet humanitarian needs quickly 
and flexibly by supporting vulnerable populations affected by conflict 
or natural disaster. The President's Budget Request for FY 2020 enables 
USAID to deliver humanitarian assistance more effectively by elevating 
its role within the U.S. Government; promoting efficiencies through the 
creation of the new BHA, including the integration of all overseas 
assistance for refugee at USAID; and ensuring other donors contribute 
their fair share to address humanitarian crises globally.

       humanitarian office consolidation-interagency coordination
    Question. How, if at all, do you anticipate the reorganization of 
offices within USAID will impact coordination between USAID and the 
State Department? How, if at all, will it affect interagency 
coordination with DOD in the response to humanitarian crises? Under the 
consolidated plan, what role do you see for the State Department on 
U.S. humanitarian diplomacy and leadership?

    Answer. The President's Budget Request for Fiscal Year (FY) 2020 
consolidates overseas humanitarian-assistance programs and funding in a 
new International Humanitarian Assistance (IHA) account at the U.S. 
Agency for International Development (USAID). The proposal recognizes 
the importance of combining the delivery of humanitarian assistance and 
diplomacy. As part of USAID's Transformation, the Offices of U.S. 
Foreign Disaster Assistance and Food for Peace together will combine to 
create a more seamless and efficient approach to humanitarian 
assistance and eliminate the artificial divide between food and non-
food aid at USAID.
    The President's request for a new dual-hat leadership structure 
will connect humanitarian diplomacy and assistance in a new and more 
effective way that will improve overall coordination between USAID and 
the U.S. Department of State. The two institutions are working out the 
leadership structure, but we look forward to briefing you and your 
colleagues on this proposal at the appropriate time. Working together 
with the U.S. Department of State and the Office of Management and 
Budget, we believe we can create a new model that will leverage the 
comparative advantages of both organizations to assist and advocate for 
people in greatest need.

      proposed eliminations--inter-american foundation (iaf) and 
               u.s.-africa development foundation (usadf)
    The budget request proposes the elimination of the independent 
Inter-American Foundation (IAF) and the U.S.-Africa Development 
Foundation (USADF), asserting that their small grant programs should be 
administered through USAID's Western Hemisphere and Africa bureaus.

    Question. What benefits, if any, do you see in transferring these 
activities from specialized independent agencies to USAID? What are the 
potential drawbacks?

    Answer. The consolidation of the small-grants programs will combine 
regional expertise and programmatic approaches to expand the toolkit 
the U.S. Government deploys to address complex development challenges. 
The consolidation will also result in administrative cost-savings.
                        build act implementation
    The BUILD Act passed by Congress in 2018 authorized the 
establishment of a new International Development Finance Corporation 
(IDFC) that will include the Development Credit Authority (DCA) that 
has long been part of USAID. The IDFC is expected to become operational 
by the start of FY2020.

    Question. Do you have any concerns about USAID's access to the DCA 
as a financing tool when it becomes part of the IDFC?

    Answer. Access by the U.S. Agency for International Development 
(USAID) to the financing tools of the DFC will be paramount to the 
success of both institutions. Our goal is to ensure strong 
institutional linkages and easy and full access to the DFC's full suite 
of financing tools (loans, guarantees, equity investments, risk 
insurance, and technical assistance) by all our programs and field 
Missions. To that end, teams at USAID and the Overseas Private 
Investment Corporation (OPIC) are working closely together on a regular 
basis to develop the right processes and procedures to ensure this 
level of access.

    Question. Do you anticipate that the shift will result in less 
development finance expertise at USAID?

    Answer. We at the U.S. Agency for International Development (USAID) 
have approximately 40 positions that will shift to the U.S. 
International Development Finance Corporation (DFC) from our 
Development Credit Authority (DCA) when the DFC comes into being at the 
beginning of Fiscal Year 2020. Our DCA staff makes up a very 
significant portion of the Agency's in-house development-finance 
expertise. Therefore, yes, there will be ``less development-finance 
expertise at USAID.'' One might speculate this transfer of personnel 
could be a big loss for the Agency, particularly at a time when USAID 
is expanding our engagement with the private sector; however, 
throughout the process of creating the DFC, we have emphasized the 
necessity of building strong institutional linkages between USAID and 
the new organization, to ensure seamless access to the DFC's large 
group of specialized financial experts and expanded set of development-
finance tools, including equity authority.

    Question. As the IDFC implementation process moves forward, are 
there any outstanding concerns from the USAID perspective that you 
would like to see addressed?

    Answer. We continue to work closely with the Overseas Private 
Investment Corporation (OPIC) on all transition matters, of which there 
are many, given the long history of the Development Credit Authority 
(DCA) within the U.S. Agency for International Development (USAID). 
OPIC's management has established a process through which USAID may 
raise all concerns with operational implementation of the DFC, and we 
are working through them. A very active interagency working group on 
the DFC surfaces and addresses any policy concerns around the creation 
of the new organization, and we are an active participant in that 
group.
    We will continue to track our joint efforts closely to ensure the 
DFC not only maintains but expands the DCA's model of programming 
driven, funded, and owned by USAID's Missions in the field. We are also 
pushing to ensure development remains the driving force behind all the 
DFC's transactions. To this end, we are closely tracking the creation 
of the position of Chief Development Officer and the DFC's new 
processes for scoring, monitoring, and evaluating the development 
impact of transactions.

                   bilateral foreign assistance--mena
    For FY2020, the Trump administration proposes to spend an estimated 
$6.5 billion on total bilateral assistance to the MENA region and 
proposes to cut bilateral foreign assistance for programs in Syria.

    Question. How does the budget request reflect the administration's 
stance on bilateral foreign assistance and U.S. priorities?

    Answer. The President's Budget Request for Fiscal Year 2020 for the 
Middle East and North Africa supports our Memoranda of Understanding 
with the State of Israel and the Hashemite Kingdom of Jordan, and 
continues our longstanding partnership with the Arab Republic of Egypt. 
It advances efforts to counter Iran's malign influence across the 
region; bolsters the stability of key friends and allies; expands our 
support for persecuted religious and ethnic minorities; supports 
efforts in stabilization and recovery to help ensure the enduring 
defeat of the so-called Islamic State in Iraq and Syria and other 
terrorist organizations; and provides the flexibility needed to support 
a comprehensive, lasting Arab-Israeli peace.

    Question. Can you comment on the decision to allocate 91 percent of 
total bilateral aid requested for the MENA region to Israel, Egypt, and 
Jordan over countries like Syria?

    Answer. The President's Budget Request for Fiscal Year (FY) 2020 
maintains our commitments to key allies, including funding for the 
Memoranda of Understanding with the Hashemite Kingdom of Jordan ($1.275 
billion per year) and the State of Israel ($3.3 billion per year). The 
changes from the President's Request for FY 2019 account for 
significant accomplishments in the battle against the so-called Islamic 
State in Iraq and Syria (ISIS), including its territorial defeat, and 
success in encouraging other donors to support stabilization activities 
in liberated areas. We are committed to the enduring defeat of ISIS, a 
political solution to the Syrian conflict in line with United Nations 
Security Council Resolution 2254, and the removal of all Iranian-led 
forces in Syria. Efforts to encourage our partners to share the burden 
of providing stabilization in liberated areas raised over $300 million 
in Coalition contributions for stabilization and early-recovery 
activities in Syria last year, including close to $180 million we have 
invested in contracts managed by the U.S. Government, and we are 
seeking additional contributions for stabilization in Syria moving 
forward.

                        diplomatic progress fund
    Question. Many of us have long said that the road to peace between 
the Israelis and the Palestinians requires both sides to negotiate 
directly. It also requires not only security cooperation, but also 
economic progress. We have yet to see full details on the 
administration's peace plan negotiations, but the details we have heard 
focus on economic security. Please provide additional details on the 
administration's proposed ``Diplomatic Progress Fund.'' How, under 
current law, would entities in the West Bank and Gaza Strip be eligible 
to receive U.S. assistance?

    Answer. The President's Budget Request for Fiscal Year (FY) 2020 
includes in the new Diplomatic Progress Fund $175 million in Economic 
Support and Development Funds, which the administration could use to 
advance U.S. foreign-policy priorities in the West Bank and Gaza. We 
will continue to assess where U.S. foreign assistance can advance the 
administration's policies and priorities and provide maximum value to 
the U.S. taxpayer. We will take relevant legislation into account in 
making that determination, including both the Anti-Terrorism 
Clarification Act and the Taylor Force Act.

                       cyclones idai and kenneth
    Question. In the past month we have seen two major cyclones impact 
East Africa, with Mozambique suffering the brunt of the damage from 
both storms. Can you tell us what you're doing to respond to Cyclones 
Idai and Kenneth?

    Answer. The U.S. Agency for International Development (USAID) 
deployed a Disaster-Assistance Response Team (DART) to the Republic of 
Mozambique to coordinate the response by the U.S. Government (USG) to 
Cyclones Idai and Kenneth. The DART conducted needs-assessments and 
worked with partners to scale up the humanitarian response rapidly to 
cyclone-affected populations. As of May 8, 2019, the USG has provided 
nearly $80 million to help affected communities in the Republics of The 
Comoros, Malawi, Mozambique, and Zimbabwe affected by the cyclones. As 
part of this package, USAID financed United Nations agencies and non-
governmental organizations to provide emergency food assistance to more 
than 1.6 million people; shelter assistance to more than 225,000 
people; safe drinking water, improved hygiene, and sanitation to more 
than 700,000 people; and supplies to prevent the spread of waterborne 
diseases such as cholera.

    Question.How are you planning to incorporate long-term 
reconstruction and resilience efforts into the response?

    Answer. As humanitarian conditions in Mozambique and the affected 
neighboring countries continue to improve, USAID is shifting its focus 
to early-recovery and resilience activities, while continuing to 
monitor and address emergency humanitarian needs. USAID's staff are 
conducting assessments of the longer-term impact of the cyclones, and 
will begin to assist communities to rebuild their livelihoods and 
improve their resilience to future shocks.
                               __________

   Certifications Regarding the Central Governments of El Salvador, 
Guatemala, and Honduras and the Accompanying Memoranda of Justification 
                  Submitted by Senator Robert Menendez

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                               __________

                  The USAID Evaluation for the Record 
                  Submitted by Senator Robert Menendez
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                               __________

    Secretary of Homeland Security Kirstjen Nielsen Press Statement 
                     Submitted by Senator Tim Kaine

Secretary Nielsen Signs Historic Regional Compact with Central America 
 to Stem Irregular Migration at the Source, Confront U.S. Border Crisis

Release Date: March 28, 2019

    Secretary of Homeland Security Kirstjen M. Nielsen traveled to 
Tegucigalpa, Honduras where she met with security ministers 
representing the countries of Guatemala, Honduras, and El Salvador. The 
multilateral discussions mark the continuation of a multi-year 
diplomatic process and the signing of a historic Memorandum of 
Cooperation (MOC) on border security cooperation in Central America.
    Together with Guatemalan Minister of Government Enrique Degenhart, 
Honduran Security Minister Julian Pacheco, and Salvadoran Minister of 
Justice and Public Security Mauricio Landaverde, Secretary Nielsen 
expressed her gratitude for the continued collaboration and partnership 
of the Central American nations as they work to stem the flood of 
irregular migration and develop regional approach to addressing the 
ongoing humanitarian and security emergency at our Southern Border.
    ``America shares common cause with the countries of Central America 
in confronting these challenges,'' said Secretary Nielsen. ``We all 
want to enforce our laws, ensure a safe and orderly migrant flow, 
protect our communities, facilitate legal trade and travel, support 
vulnerable populations, interdict dangerous and illicit drug flow, and 
secure our borders.''
    ``I look forward to implementing this historic agreement and 
working with my Northern Triangle counterparts to help secure all of 
our nations and to end the humanitarian and security crisis we face,'' 
said Nielsen. ``Together we will prevail.''
    The MOC--the first ever multilateral compact on border security--
aims to better synchronize cooperation between the countries in order 
to bolster border security, prevent the formation of new migrant 
caravans, and address the root causes of the migration crisis through 
better synchronized efforts to include the following:

   Human trafficking and smuggling;

   Combating transnational criminal organizations and gangs;

   Expanding Information and Intelligence Sharing;

   Strengthening air, land, and maritime border security.

    Each of these focus areas will be pursued through an array of 
agreed-upon initiatives. Technical working groups with representatives 
from each country will monitor the initiatives and ensure they are 
carried out expeditiously. The groups will meet periodically throughout 
the year, with Secretary Nielsen and the Northern Triangle Ministers 
continuing to meet in the coming months to ensure continued momentum.
    While in Honduras, Secretary Nielsen also participated in a 
bilateral meeting with the Honduran President Juan Orlando Hernandez 
and First Lady Ana Rosalinda Garcia de Hernandez. Secretary Nielsen 
affirmed America's commitment to working with Honduras in a shared 
effort of combating human trafficking and child smuggling, as well as 
addressing the major drivers of irregular migration prompting families 
and individuals to put themselves in harm's way by embarking on the 
dangerous journey north.
                               __________

  Reuters Article Titled, U.S. Ending Aid to El Salvador, Guatemala, 
      Honduras Over Migrants, Dated March 30, 2019, Submitted by 
                           Senator Tim Kaine
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                               __________

                  Community Letter to Hon. Mark Green 
                  Submitted by Senator Robert Menendez


May 3, 2019




Mr. Mark Green
Administrator
U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20004


Dear Administrator Green:

    We, the undersigned, believe that U.S. Government (USG) investments 
in gender equality are critical to achieving U.S. foreign policy 
objectives, strengthening our national security, and increasing 
economic opportunities both abroad and at home. As reflected in the 
2018-2022 Joint Strategic Plan and the 2017 National Security Strategy, 
``societies that empower women to participate fully in civic and 
economic life are more prosperous and peaceful.'' \1\
    We understand that USAID is currently updating its Gender Equality 
and Female Empowerment Policy, which seeks to comprehensively improve 
the lives of people around the world by advancing gender equality and 
``empowering women and girls to participate fully in and benefit from 
the development of their societies.'' We hope that any changes to the 
policy are based on a rigorous evidence-base and made in the interest 
of improving the policy to reflect new evidence where it exists, and 
new best practice, while also maintaining the policy's integrity and 
allowing for consistency.
    The Gender Equality and Female Empowerment (GE/FE) Policy has been 
a critical foundation for progress on the promotion of gender equality 
throughout development and humanitarian assistance efforts over the 
last 7 years, including identifying and addressing gender gaps, needs, 
opportunities, and barriers for achieving development outcomes across 
USAID's work. Notably, following USAID's leadership in putting in place 
the GE/FE policy and ADS Chapter 205 on integrating gender equality and 
female empowerment, a large number of USAID implementing partners have 
modified their internal policies, focusing on mainstreaming gender in 
accordance with USAID's direction and leadership.\2\
    Congress under this administration has passed legislation that the 
President signed into law, bolstering this agenda, including the 
Women's Entrepreneurship and Economic Empowerment Act of 2018 and the 
Women, Peace and Security Act of 2017. These laws and associated 
initiatives are important steps and make clear that the U.S. Government 
recognizes that promoting gender equality and the rights of women, 
girls, and LGBTI individuals, while utilizing an evidence-based 
approach, is critical to the achievement of the U.S. Government's 
foreign policy objectives. Without working to achieve gender equality, 
U.S. aid will not be as effective as possible, and the conditions that 
lead to the need for aid--such as fragility and conflict--will 
perpetuate. The advancement of global gender equality and women's and 
girls' empowerment is not only the right thing to do, but also the 
smart thing to do.
    Today, we are writing to provide guiding principles for how USAID 
can strengthen its approach to and promotion of gender equality through 
updating its GE/FE policy.

    1. Reaffirm gender equality as a core development objective, vital 
towards achieving the Journey to Self-Reliance. A strong, evidence-
based, and effective GE/FE Policy is critical to the realization of 
human rights; effective and sustainable development outcomes and 
growth; and over time transitioning from assistance to strategic 
partnerships with capable partner country governments and civil 
society.\3\ Supporting and strengthening the systematic leadership and 
participation of local women's civil society organizations in decision-
making processes is key to ensuring community and country self-
reliance.

    2. Maintain a holistic approach, affirming the indivisible nature 
of different aspects of women's and girls' lives and others 
marginalized due to their gender identity.\4\ The achievement of gender 
equality and women's and girls' empowerment requires a GE/FE Policy 
that maintains a holistic approach, and looks at root causes of 
inequality including harmful social and cultural norms about gender. A 
holistic approach must include engaging men and boys and LGBTI 
communities in the advancement of gender equality and the promotion of 
positive masculinities.\5\ It is critical to utilize cross-sectoral 
efforts to ensure, among other outcomes: \6\
   Access to safe, quality, and inclusive education;

   Access to health services, including sexual and reproductive health 
        information and services;

   Prevention of and response to gender-based violence;

   Access to gender-responsive child and youth-friendly services;

   Access to paid employment and asset ownership, including youth 
        workforce development;

   Reduction and redistribution of unpaid care work;

   Women's and girls' collective voice in governance, including 
        through supporting their meaningful political participation and 
        strengthening local women's civil society organizations; and,

   Access to legal rights and judicial mechanisms to ensure those 
        rights are upheld.

    3. Retain core principles of the GE/FE policy, especially the 
explicit commitment to the principle of pursuing an inclusive approach 
to foster equality. The policy must continue to be inclusive of all, 
regardless of age, sexual orientation, gender identity, disability 
status, religion, ethnicity, socioeconomic status, geographic area, 
migratory status, forced displacement or HIV/AIDS status.\7\

    4. Take a lifecycle approach to understanding the specific actions 
needed to advance gender equality and women's and girls' empowerment, 
with a focus on adolescents. Gender inequality and gendered power 
dynamics affect individuals across their lifecycles, and therefore all 
humanitarian and development interventions must assess and address 
these dynamics to achieve their objectives.\8\

    5. Integrate a gender analysis throughout the program cycle. As 
USAID looks to strengthen program design and integrate best practices, 
evidence, adaptive management and learning throughout the program 
cycle, USAID should ensure that a gender analysis and the engagement of 
program beneficiaries informs each stage of the cycle. This includes 
mainstreaming a gender analysis throughout strategic planning, 
procurement, project design, project implementation, and monitoring and 
evaluation.\9\ Gender analyses are critical to understanding the 
realities of women's and girls' lives, as reflected in the Women's 
Entrepreneurship and Economic Empowerment Act of 2018. They must be 
conducted comprehensively and consistently throughout both development 
and humanitarian contexts.

    6. As USAID re-organizes bureaus and establishes new ways of 
working, ensure that the mandate and capacity to conduct gender 
analyses and integrate findings is maintained or strengthened across 
all bureaus and missions. The GE/FE Policy should continue to be 
applied to all USAID missions in the field as well as to USAID policy 
and programmatic operations in Washington DC and elsewhere. This 
consistent approach will continue to facilitate orientation about and 
implementation of the GE/FE policy.\10\

    7. Evaluate the implementation of the GE/FE policy in an open and 
transparent way. USAID should ensure a strong collaboration, learning, 
and adaptation (CLA) approach by developing benchmarks for evaluating 
the updated GE/FE Policy with input from partner country government and 
local and international civil society organizations as well as from 
USAID staff, partners, and leadership.\11\

    8. Commit to meaningful substantive consultations with civil 
society organizations in the process of reviewing the GE/FE policy. 
Following USAID's established tradition of partnerships, the Agency 
should commit to formally engaging the views of civil society 
organizations with expertise in comprehensive and holistic gender 
equality policy and programming via in person consultations, and 
provide opportunities for written input into revisions of the policy 
before any updates to the established GE/FE are made final. This 
consultation process should include a wide range of civil society 
voices who have proven expertise in global gender equality issues, 
including, but not limited to, implementing partners, advocacy 
organizations, and those focused on evidence-based research.

    9. Ensure the development, collection, analysis, and use of sex- 
and age-disaggregated data and gender-responsive data metrics, 
including gender equality indicators and data on issues specific to 
women and girls and others marginalized due to their gender identity, 
as well as other quantitative and qualitative gender data. USAID should 
strengthen the development, collection, analysis and use of sex- and 
age-disaggregated data and gender-responsive data metrics, including 
gender equality indicators and data across all sectors in order to 
provide a holistic picture of the status of women and girls. Topline, 
national metrics, and individual metrics that are age and gender blind 
mask deep inequalities within populations as well as missing key early 
warning indicators for fragility.\12\ Such quantitative data, 
complemented by qualitative data, should be used in monitoring as well 
as in evaluation to identify the extent to which interventions are 
closing gender gaps and shifting harmful gender norms, and to determine 
whether interventions are potentially causing unintended consequences 
exacerbating and/or creating new vulnerabilities faced by women and 
girls. Using such data and analysis, stakeholders will be best able to 
collaborate, learn and adapt interventions accordingly.

    Further, the full implementation of the GE/FE policy requires 
internal structures best suited to maximize efficiency and impact. This 
should include a fully staffed and funded Senior Coordinator for Gender 
Equality and full-time gender-dedicated positions in the pillar and 
sector bureaus at USAID headquarters and in every USAID Mission. All 
relevant positions should be trained on the GE/FE policy as well as 
requirements under ADS 205, including on how to effectively undertake 
and use a gender analysis. Having the right capacity in the right 
places is critical to success.
    Any updates to the Gender Equality and Female Empowerment Policy 
must align with existing laws and key, cross-sectoral policies and 
strategies: \13\

   Women's Entrepreneurship and Economic Empowerment Act (2018)

   Women, Peace and Security Act (2017)

   U.S. Strategy to Prevent and Respond to Gender-Based Violence 
        Globally (2016 update)

   U.S. Global Strategy to Empower Adolescent Girls (2016)

   USAID LGBT Vision for Action (2014)

   PEPFAR Gender Strategy (2013)

   Ending Child Marriage & Meeting the Needs of Married Children: The 
        USAID Vision for Action (2012)

   USAID Youth in Development Policy (2012)

    We appreciate the opportunity to provide recommendations on 
strengthening the promotion of gender equality and women's and girls' 
empowerment through the update of the USAID Gender Equality and Female 
Empowerment Policy. We look forward to continuing to work with you to 
ensure effective U.S. foreign assistance that helps create a more 
stable and prosperous world.



Sincerely,

ACDI/VOCA

Advancing Girls' Education in Africa (AGE Africa) AHA Foundation

American Hindu World Service (AHWS) CARE USA

ChildFund International Data2X

EnCompass LLC Faiths for Safe Water

Friends of the Global Fight against AIDS, Tuberculosis and Malaria 
Global Rights for Women

Global Woman P.E.A.C.E. Foundation Global Women's Institute GreeneWorks

Heartland Alliance International Helen Keller International (HKI) Human 
Rights Watch

I4Y (Innovations for Youth), UC Berkeley International Action Network 
for Gender Equity & Law International Center for Research on Women 
International Medical Corps

International Rescue Committee

International Youth Foundation

Jewish World Watch Mercy Corps

Mercy Without Limit

National Association of Social Workers

National Cooperative Business Association CLUSA International National 
Democratic Institute

National Organization for Women Oxfam America

PAI

Plan International USA

Planned Parenthood Federation of America Project Concern International 
(PCI)

Save the Children Shadhika Solidarity Center The Hunger Project

The International Foundation for Electoral Systems (IFES)

The United Methodist Church, General Board of Church and Society The 
Voices and Faces Project

U.S. National Committee for U.N. Women United Nations Association of 
the USA

United States International Council on Disabilities Vital Voices Global 
Partnership

Women for Afghan Women Women for Women International Women Graduates 
USA

Women's Global Education Project Women's Refugee Commission World 
Learning

ZanaAfrica Foundation



CC:  Senator James E. Risch, Chairman, Senate Foreign Relations 
Committee

Senator Robert Menendez, Ranking Member, Senate Foreign Relations 
Committee

Senator Lindsey Graham, Chairman, Senate Appropriations Sub-Committee 
on State, Foreign Operations, and Related Programs

Senator Patrick Leahy, Ranking Member, Senate Appropriations Sub-
Committee on State, Foreign Operations, and Related Programs

Congressman Eliot Engel, Chairman, House Foreign Affairs Committee 
Congressman Michael McCaul, Ranking Member, House Foreign Affairs 
Committee

Congresswoman Nita M. Lowey, Chairwoman, House Appropriations Sub-
Committee on State, Foreign Operations, and Related Programs

Congressman Hal Rogers, Ranking Member, House Appropriations Sub-
Committee on State, Foreign Operations and Related Programs



----------------
Notes

    \1\ Joint Strategic Plan (FY2018-2022), p 23; National Security 
Strategy (2017), p. 42.
    \2\ See Gender Practitioners Collaborative, Minimum Standards for 
Mainstreaming Gender Equality--http://genderstandards.org/.
    \3\ USAID Policy on Gender Equality and Female Empowerment (2012), 
p. 1.
    \4\ USAID Policy on Gender Equality and Female Empowerment (2012), 
p. 1.
    \5\ USAID Policy on Gender Equality and Female Empowerment (2012), 
pp. 6, 7, 11.
    \6\ USAID Policy on Gender Equality and Female Empowerment (2012), 
pp. 6-9.
    \7\ USAID Policy on Gender Equality and Female Empowerment (2012), 
p. 2.
    \8\ USAID Policy on Gender Equality and Female Empowerment (2012), 
p. 3, fn.3.
    \9\ USAID Policy on Gender Equality and Female Empowerment (2012), 
pp. 11-12.
    \10\ USAID Policy on Gender Equality and Female Empowerment (2012), 
pp. 15-18.
    \11\ USAID Policy on Gender Equality and Female Empowerment (2012), 
p. 14.
    \12\ Ibid.
    \13\ Please note other cross-sectoral strategies, including at the 
international level such as the 2030 Sustainable Development Agenda and 
the Sustainable Development Goals. The targets and indicators related 
to Goal 5--Gender Equality are particularly significant.

                                  [all]
</pre></body></html>
